<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2021</title>
<body><pre>[Senate Hearing 116-]
[From the U.S. Government Publishing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2021

                              ----------                              


                        WEDNESDAY, MARCH 4, 2020

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Richard Shelby (chairman) 
presiding.
    Present: Senators Shelby, Hoeven, Boozman, Durbin, Leahy, 
Tester, and Baldwin.

                         DEPARTMENT OF DEFENSE

                    National Guard and Reserve

STATEMENT OF GENERAL JOSEPH L. LENGYEL, CHIEF, NATIONAL 
            GUARD BUREAU


             opening statement of senator richard c. shelby


    Senator Shelby. The subcommittee will come to order. I am 
pleased, this morning, to welcome our distinguished panel to 
consider the President's budget requests for the National Guard 
and Reserve Components in fiscal year 2021.
    Today, the committee will hear from, begin with General 
Joseph Lengyel, Chief of the National Guard Bureau, Lieutenant 
General Charles Luckey, Chief of the Army Reserve, Lieutenant 
General Richard Scobee, Chief of the Air Force Reserve, Vice 
Admiral Luke McCollum, Chief of the Navy Reserve, and 
Lieutenant General David Bellon, Commander of Marine Corps 
Forces Reserve. I thank all of you for appearing today.
    Your written testimony will be made part of the record in 
its entirety. I would forgo an opening statement because I said 
a few minutes ago we have got votes scheduled at 10:30 a.m. 
That means we will probably have to leave here by 10:45 a.m. 
and we don't know what will happen if we have to come back--we 
will, but General, we will start with you.
    [The statement follows:]
            Prepared Statement of Senator Richard C. Shelby
    Good morning, the Subcommittee will come to order.
    I am pleased to welcome our distinguished panel to consider the 
President's budget requests for the National Guard and Reserve 
Components in fiscal year 2021.
    Today the committee will hear from General Joseph Lengyel, Chief of 
the National Guard Bureau; Lieutenant General Charles Luckey, Chief of 
the Army Reserve; Lieutenant General Richard Scobee, Chief of the Air 
Force Reserve; Vice Admiral Luke McCollum, Chief of the Navy Reserve, 
and; Lieutenant General David Bellon, Commander of Marine Corps Forces 
Reserve.
    Thank you for appearing today, and thank you for your service.
    Our Nation's guard and reserve components contribute important 
capability and capacity to our Nation's total military force.
    They participate in joint training exercises, execute missions with 
partner nations, and deploy around the globe in support of combat 
operation.
    They also provide critical support to our Nation during domestic 
emergencies including floods, winter storms, as well as hurricane and 
wild fire response operations.
    In order for them to continue to be successful, they must be 
sufficiently manned, trained and equipped--and that requires the timely 
execution of appropriated funds.
    As we consider the request for resources for fiscal year 2021, we 
look forward to hearing updates on the overall modernization of our 
forces as the Department of Defense has shifted to prepare, deter, and 
if necessary, fight a future conflict against a near peer adversary.
    We also very much appreciate the men and women that make up our 
reserve components; understanding that they serve our Nation by 
remaining ready to put their lives on hold.
    Whether they are called to mobilize, voluntarily deploy, or 
transition to full time support--they represent the very best of us.
    To that end, we understand that these men and women have been 
called upon regularly for both disaster response and to attend to our 
Nation's borders and look forward to an update on that work as well.
    Now, before I turn to the Vice Chairman I have two items I want to 
mention.
    First, I want to recognize one of today's witnesses--Lieutenant 
General Luckey. Sir, I understand that you will soon be retiring after 
decades of service.
    I want to take this opportunity thank you for your many years of 
hard work and sacrifice. Your country is grateful, and I wish you well 
going forward.
    I also want to congratulate the Navy Reserve, which celebrated 105 
years yesterday; that is quite an accomplishment.

             SUMMARY STATEMENT OF GENERAL JOSEPH L. LENGYEL

    General Lengyel. Chairman Shelby, thank you very much. 
Mindful of the time, I will summarize my opening statement and 
ask that it be submitted for the record.
    Senator Shelby. Without objection, it is so ordered.
    General Lengyel. I would like to just thank the members of 
this committee for their continued support of the National 
Guard. The great things that you do for us such as the National 
Guard Reserve Equipment Account that made us a more lethal, 
more ready, more valued part of our United States Army and 
United States Air Force.
    Myself and Command Sergeant Major are here today to 
represent the 450,000 men and women of the National Guard, and 
we are honored to do that. We want to thank their families and 
their employers, without their support we could not do our 
jobs. We are a 21st Century National Guard. We do three things 
for our Nation. We do the war fighting, which today we have 
30,000 men and women deployed around the world and every 
combatant command on every continent. We have 10,000 on duty in 
the homeland doing things for Homeland defense, Homeland 
Security, and domestic operations, and we continue to do that 
every day. And we build partnerships not just at home, not just 
in our States, not just with our communities, but with 84 
nations around the world today.
    So I thank this committee for what they do for us to make 
us a valued part of United States Army, the United States Air 
Force. And now, as a Reserve Component, we now support the 
United States Space Force. And for 25 years, we have been in 
the space mission as part of the United States Air Force, and I 
look forward to the day when we can create a component that is 
part of the United States Space Force called the Space National 
Guard.
    And with that, sir, I will end my remarks, and thank you 
very much for having me here today, and I look forward to your 
questions.
    [The statement follows:]
            Prepared Statement of General Joseph L. Lengyel
                         cngb executive summary
    Today's National Guard plays a vital role in the security and 
welfare of our Nation. On any given day, approximately 30,000 Guardsmen 
carry out Federal missions around the world, and an additional 10,000 
Guardsmen conduct State and Federal missions within the United States 
and its territories. National Guardsmen are part of an operational 
force nearly 450,000 strong that provides strategic depth to our 
Nation's Army and Air Force.
    The National Guard brings unique relationships, authorities, and 
flexibility to the Joint Force. Due to the complex global security 
environment marked by rapid technological change, these attributes are 
instrumental in implementing the Department of Defense's (DoD) National 
Defense Strategy (NDS). The National Guard directly supports the three 
tenets of the NDS: building a lethal force ready for any fight, 
strengthening alliances and seeking new partnerships, and reforming to 
improve performance and affordability.
    The National Guard also represents a tremendous value to the 
American taxpayer. Personnel costs for our citizen-soldiers and 
citizen-airmen are significantly lower, when not activated, than our 
Active Duty counterparts. We are a force that allows for the rapid 
expansion of the Army and the Air Force. When we are not activated, we 
offset risk in capacity, allowing for modernization and 
recapitalization that benefits the Active, National Guard, and Reserve 
forces. We are the primary combat reserve of the Army and Air Force. 
Furthermore, National Guardsmen leverage civilian skill sets in a 
military capacity, and conversely bring military training and knowledge 
to civilian communities.
    As the Joint Force faces increasing demands in all corners of the 
globe, and with the ever- present threat of natural disasters and other 
unforeseen events taking place within our borders, the National Guard 
supports the NDS and serves the American people at home through three 
core missions: Warfight, Homeland, and Partnerships.
                                warfight
    The warfight is a primary mission and at the heart of everything 
the National Guard does. Being ready to fight and win America's wars 
drives our training, our equipment and maintenance requirements, and 
our recruitment efforts. While we are able to use our training and 
equipment for State missions and DoD mission support, we provide ready 
forces to Combatant Commanders.
    Our current threat environment requires the National Guard to be 
prepared for complex, global operations in the most demanding 
conditions. With the rise of China and Russia, we have shifted our 
focus from counterinsurgency operations to great power competition. 
China and Russia are undermining the international order through 
various means, exploiting all domains to change the character of 
warfare. We remain poised to surge to augment the Joint Force for 
national security threats from Iran, North Korea, and non-State violent 
extremists.
    The changing and global nature of threats shapes the warfight, and 
the National Guard is evolving rapidly to meet new demands. We are the 
principal combat reserve of the Army and Air Force, making up 20 
percent of the entire Joint Force providing strategic depth in support 
of combatant commands. Since 9/11, more than a million Guardsmen have 
mobilized and deployed; many have deployed multiple times. While the 
model of one weekend a month and two weeks a year provides the 
foundation of readiness across the National Guard, dynamic employment 
and global operations will require more of our service members than 
ever before. In order to fully leverage readiness that lives in the 
National Guard and to empower our Guard men and women, mobilization 
requirements need to be predictable. This structure, predictable in 
time but geographically agile, will afford the DoD greater flexibility 
during this period of great power competition.
    This flexibility in employment also requires an enterprise approach 
to modernization of the Total Force in order to remain deployable, 
sustainable, and interoperable with the Active Components. The Guard 
requires parity in our training, facilities and equipment. There is 
only one standard for readiness, and there should be only the highest 
standard for our equipment. Without parity, we cannot integrate with 
the Active Components; if we cannot integrate, we cannot be the lethal 
force necessary to help deter, fight, and win America's wars. Training, 
facilities, and equipment must strive for parity to keep our Guardsmen 
interoperable and our country competitive.
    A prime example of a fiscal year 2019 action that supports National 
Guard parity is the arrival of F-35s to the Vermont Air National Guard. 
The presence of this cutting edge capability within the National Guard 
demonstrates a new commitment to the recapitalization and modernization 
necessary to ensure Guard readiness and interoperability.
                                homeland
    The National Guard serves a dual State and Federal role within our 
borders. Guardsmen can be found in nearly every county of the United 
States, and this proximity allows us to respond quickly to any threat 
that endangers our homeland. Our skills, developed for and honed 
through the warfight, can play an important part in a unified response 
during domestic emergencies, and allow Guardsmen to assist first 
responders in times of crises.
    The United States strives to never let the fight reach our borders. 
However, the reality of today's security environment makes clear our 
homeland is no longer a sanctuary. Cyber threats and new weapons' 
technology extend the reach of our adversaries.
    National Guard Missile Defenders in places such as Fort Greely, 
Alaska, Schriever Air Force Base, Colorado, and Vandenberg Air Force 
Base, California, protect our homeland and stand ready to support DoD's 
efforts to adapt to the challenge of advancing missile threats that can 
reach our shores. The National Guard plays a critical role in our DoD's 
cyber enterprise and are a valuable resource to the States. More than 
3,900 Soldiers and Airmen make up the Guard's cyber force. On a routine 
basis, these professionals directly support the U.S. Cyber Command's 
Cyber Mission Forces (CMF) construct. Additionally, our National Guard 
cyber teams, at the direction of their States, used their expertise to 
respond to ransomware attacks in Texas, Louisiana, California, 
Colorado, and Montana.
    National Guard cyber support to State and local municipalities in 
2019 are an indication of the future cyber environment; and our actions 
demonstrate both the effectiveness and value of the Guard's cyber 
capabilities.
    The National Guard is often at its most visible in American 
communities in the aftermath of natural disasters, and 2019 was no 
exception. The National Guard responded to snowstorms, wildfires, and 
floods, and provided full-spectrum recovery and support to all those 
affected by Hurricane Dorian. Our collaboration with State, local, and 
Federal (including military) entities helps the National Guard respond 
quickly and effectively in times of disaster. In addition, we are 
constantly training and are ready to respond to incidents in the 
homeland, whether natural or man-made. We are America's military first 
responders in times of disaster.
    The National Guard also provides support to civilian law 
enforcement agencies through DoD's National Guard Counterdrug Program. 
Through this program, the National Guard has provided support to more 
than 300 Federal, State, local, tribal, and territorial civilian law 
enforcement agencies across all 54 States and territories for more than 
30 years. While Guardsmen do not conduct law enforcement missions, they 
provide expertise such as analysis support, communications, and 
linguist services to law enforcement entities. This helps law 
enforcement combat cartels, positively reach at-risk youth, and seize 
billions of dollars in illegal narcotics. This program is another way 
the National Guard is making a difference in the homeland.
                              partnerships
    The National Guard is unique in the depth and breadth of its 
relationships. Whether its security cooperation activities with 
international partners or emergency response coordination with State 
and local governments, or collaborating within the Federal interagency 
process, these relationships strengthen alliances and partnerships.
    Partnerships are vital to our military strength and success. Every 
day, our allies and partners join us in deterring war and preserving a 
free and open international order. By working together with our allies 
and partners, we share the burdens and responsibility for our common 
defense.
    These relationships also offer unique perspectives and positions 
that help us understand and access critical regions of the globe.
    When building alliances with foreign nations, the National Guard's 
State Partnership Program (SPP) is one of the premier security 
cooperation initiatives within DoD. The SPP is a scalable and tailored 
approach to security cooperation that formally links a State's National 
Guard with the armed forces of a partner country. The National Guard 
consults and coordinates with combatant commanders, U.S. Embassies and 
their country teams, and host nations to understand the full range of 
issues they face. SPP events are led by respective State adjutants 
general who seek engagements on a broad array of interests that are 
beneficial to both nations.
    Today, 84 countries around the world are partnered with the 
National Guard through this program. Through the SPP, we do more than 
conduct military-to-military engagements; we leverage whole-of-society 
relationships and capabilities. These partnerships also help us counter 
malign influence, support combat and security operations deployments, 
and assist with disaster response. Given the benefits of this program, 
consistent funding is critical to the continued success of the SPP, and 
the long-term advancements of our national security interests.
    Owing to our role as State-controlled militias, the National Guard 
inherently has close relationships with State and local agencies and 
officials. Our skills and abilities developed for the warfight--
including manpower, training, leadership, organization, logistics and 
communications--augment Governors' and community partners' emergency 
response strategies, ultimately responding to the needs of Americans in 
the homeland.
              three priorities for the future of the guard
    Today's National Guard is the finest in its history. However, we 
must not become complacent and must continue to evolve for the threats 
ahead. We will be responsive to global trends and prepare for the 
challenges of the future by committing to three priorities: readiness, 
people, and innovation.
Priority #1: Readiness
    Guard Soldiers and Airmen support DoD missions across every 
geographic combatant command and respond to disasters in communities 
across the Nation. As an operational force, we provide strategic depth 
to the Army and Air Force. We must remain interoperable in light of 
increasing global demands, train and equip our Guardsmen, and maintain 
our facilities to this standard.
    The National Guard needs functional facilities to accomplish 
critical domestic response and warfight missions. We cannot be ready 
for the challenges of the future with yesterday's training, equipment, 
or facilities. Like the need for cutting edge equipment, our Soldiers 
and Airmen deserve the best facilities while serving our communities or 
preparing for overseas operations.
    The Army National Guard (ARNG) is committed to generating forces 
that are both warfighting- capable and governor-responsive. Combatant 
Commanders depend upon ARNG Soldiers during every phase of conflict 
abroad and governors depend upon them during emergencies at home.
    In fiscal year 2019, the ARNG contributed to missions in 
Afghanistan, Kuwait, Jordan, Qatar, Ukraine, Kosovo, Eastern Europe, 
the Horn of Africa and the Sinai Peninsula. ARNG units also conducted 
vital, multinational exercises and performed more than 2 million duty 
days while assisting communities during devastating hurricanes, floods, 
winter storms and wildfires.
    In its Federal role, the ARNG's primary task is to generate combat-
ready forces for the U.S. Army and the Joint Force. The Army designates 
select ARNG formations as Army Response Forces (ARF) that are available 
to rapidly deploy and conduct contingency operations.
    Additionally, four ARNG brigade combat teams and enablers will 
complete decisive-action training rotations at the Army's premier 
combat training centers. The ARNG's primary focus in fiscal year 2020 
is to sustain gains in recruiting and address challenges in retention 
that threaten readiness. All of these activities will be overlaid with 
deployments and exercises for tens of thousands of our Citizen-Soldiers 
around the world.
    Given this level of activity, ARNG leaders are managing the 
cumulative impacts of training and operations to ensure we keep faith 
with Families and civilian employers. Doing so is essential to support 
the people who underwrite our Soldiers' service year after year.
    The Air National Guard (ANG) commitment to readiness provides our 
Nation and Air Force with significant flexibility. After more than two 
decades as a proven operational force, the ANG has become a critical 
component to the Nation's strategic deterrence, operational capability, 
and first-in capability. Furthermore, the ANG possesses strategic 
capacity across each of the Air Force Core Competencies: Air and Space 
Superiority; Intelligence, Surveillance, and Reconnaissance; Rapid 
Global Mobility; Global Strike; and Command and Control.
    In fiscal year 2019, the men and women of the Air National Guard 
supported 14,692 deployments to 52 countries and on any given day, 
there are more than 5,000 Guard Airmen serving around the world in 
support of the combatant commands.
    The Air National Guard's focus on readiness assures dominance in 
air, space, and cyberspace. We do so by preparing 21st century Air 
Guardsmen for today's fight, while building for tomorrow's fight. Our 
objective is to provide our Nation with an operational and lethal force 
with rapid response capability, which is fully interoperable with the 
United States Air Force and the Joint Force, and able to deter 
aggressors and defeat threats to our national interest.
    In addition, the National Guard remains a valued and loyal partner 
to our national security space enterprise. Our National Guard space 
units ensure we dominate that domain as it gains prominence in warfare. 
Since the United States Space Force was formally established by the 
December 20, 2019 National Defense Authorization Act, the National 
Guard has supported and will continue to support the newest military 
service. Specifically, the National Guard supplies the Department of 
Defense 100 percent of its unit-equipped, surge-to-war operational 
reserve component space force structure. To date, the National Guard 
provides 40 percent of the operational expeditionary space electronic 
warfare capabilities in the Space Force, and is rapidly growing to 60 
percent with the addition of two squadrons in Guam and Hawaii.
    Furthermore, the National Guard retains decades of space-related 
depth and expertise. For example, every day the space professionals at 
Clear Air Force Station Alaska monitor missile threats in the Pacific, 
and National Guard space intelligence experts in Ohio monitor space 
threats. Most recently, space electronic warfare units from California 
and Florida returned from overseas deployments that were critical to 
combatant command success. For the future success of our newest 
service, it is vital the National Guard's expertise and capabilities 
continue to be available to the Space Force enterprise.
    Readiness requires that our leaders remain focused on the mission 
and empower our men and women to reach our objectives.
Priority #2: People, Families, and Employers
    No one who puts on a uniform serves alone. This is particularly 
true in the National Guard, where our Guardsmen balance service with 
civilian careers. We strive to balance the needs of both our drilling 
and full-time Guardsmen with the demands of the mission, and provide 
support to the families of our service men and women.
    Our Guardsmen come from communities all across the country, 
bringing with them diverse cultures, experiences, and skills. Our 
National Guard culture values diversity and inclusion, which are 
fundamental to organizational readiness and help us reach and maintain 
the highest standards. We are at our best when we reflect the 
communities we serve.
    To build for the future, we must recruit people with the right 
skills and experience. That is why focusing on active duty service 
members who are transitioning to civilian life is a critical piece to 
our recruitment. We want to ensure we capture the talent and skills of 
these service members and show them the benefits of continued service 
to their country. We must recruit the very best men and women, 
therefore we must also have competitive incentives--such as education 
benefits. We must share our story, our history, our legacy.
    We also have a responsibility to support the Guardsmen in our 
ranks. We are emphasizing mental health and resilience for our Soldiers 
and Airmen through the Suicide Prevention and Readiness Initiative, 
which helps Guard units identify risk factors and effective 
intervention techniques. Through the Warrior Resilience and Fitness 
Innovation Incubator, the National Guard is also taking a grassroots 
approach to find ways to address mental health crises at a local level.
    To support our Guard members' families, we provide family readiness 
programs, employment assistance programs, and ensure that families know 
where to turn if they need help. Family programs not only benefit 
service members and their families, but also have a positive effect on 
a unit's morale and readiness.
Priority #3: Innovation
    We have a responsibility to improve the National Guard--to leave it 
better than we found it, so we can be ready for the challenges of the 
future. Innovation--whether in business processes, technology, 
partnerships, or culture--is in our DNA. We must constantly look 
forward, educating and empowering our Guardsmen to implement innovative 
measures.
    Technology has radically shaped our lives, and it has radically 
reshaped our national defense. Success no longer goes to the country 
that develops a new technology first--it goes to the country that 
adapts its way of fighting fastest. The National Guard continues to be 
a catalyst for DoD's technological initiatives, including artificial 
intelligence, robotics, biotechnology, ``big data,'' and advanced 
computing.
                               conclusion
    The National Guard traces its lineage back 383 years. In that time, 
we have fought in every American war, responded to our countrymen in 
need, and developed partnerships that have strengthened our national 
defense. However, we are just getting started. With the incredible 
skills and talents of our men and women, we are ready for today and 
building for the future.
    We will undoubtedly face new challenges, but our values, our 
vision, and our willingness to fight and secure our Nation runs deep. 
Today and tomorrow, the National Guard is Always Ready, Always There.

    Senator Shelby. General.
STATEMENT OF LIEUTENANT GENERAL CHARLES D. LUCKEY, 
            CHIEF, ARMY RESERVE
    General Luckey. Chairman, thank you as well, and as Joe 
Lengyel did, I will do the same. I will summarize my remarks. I 
want to first, if I would, just note that this is my last time 
before you, sir, in this forum. I think it is also General 
Lengyel's and I want to thank General Lengyel for the 
collaboration and cooperation for his service as well.
    Senator Shelby. How many years----
    General Luckey. For me--this is 43 years old. I am maybe 
one of the more seasoned Generals in the Army, I don't know, 
but I just say mature but----
    [Laughter.]
    General Luckey. Chairman, I just want to thank you, I want 
to thank this entire committee for the support that it has 
given to the 200,000 soldiers in America's Army Reserve, and 
civilians for their families and for the employers. I will talk 
about that briefly here in a second.
    Over the last 3 years, three and a half years I have been 
in command, the support that we have received from you, from 
this committee to make sure we continue to be able to modernize 
and ensure the interoperability of America's Army Reserve of 
the Total Force has been reassuring and significant. As you all 
know, about 35 percent, maybe a little more than that of our 
procurement inside the Army Reserves comes out of the degree of 
funding that this committee and the House provides, and I 
appreciate, as I have said now, for the last 4 years, the 
support we have received in that regard.
    I will just leave it at this, leaving command of this 
formation here in a few months, I just, I want to thank you, I 
want to thank the entire United States Senate for the 
opportunity to serve in this capacity as the Commander of 
America's Army Reserve. It has been the honor of a lifetime. I 
am so proud of this team. What this team has done in terms of 
driving readiness in an environment where as you well know, 
chairman, is critical that while we maintain the readiness that 
gives a relevance to the Army Reserve, we also aren't so ready 
that we can't keep good and meaningful civilian jobs and 
healthy, sustaining family lives.
    And so for the families out there supporting America's Army 
Reserve through their soldiers and all those employers that 
share the best talent in the world with me as the Commander of 
this team spread across 20 time zones, I just want to say 
thanks. Thanks to the Nation. Thanks to all of them for 
everything they have done to support this team as we built the 
most capable combat-ready and lethal Federal Reserve Force in 
the history of the United States of America. I appreciate and 
look forward to your question, sir.
    [The statement follows:]
       Prepared Statement of Lieutenant General Charles D. Luckey
                        america's army reserve: 
                     leadership. energy. execution.
    The increasingly complex and volatile global security environment, 
the changing character of warfare, and the rapid advance of technology 
continue to demand increased readiness and capability to deter and, if 
necessary, defeat aggression. As the dedicated Federal reserve of the 
Army, America's Army Reserve--its units-of-action and individual 
Soldiers--must be ready to mobilize, deploy, fight and win as an 
integrated part of the Army team anywhere in the World. More to the 
point, it must do so quickly.
    Over a long history of wars and contingency operations, as well as 
domestic emergencies, the Soldiers of America's Army Reserve have never 
failed to answer the Nation's call, evolving from a small corps of 
medical professionals to what is today a global operational reserve 
force. Over the past several years, the Army Reserve initiated a major 
shift in posture--away from a rotational model to a force with 
sustained levels of readiness and a renewed emphasis on the field craft 
necessary to deploy, fight and win against peer threats. Today, we 
continue to build and sustain the most capable, combat-ready and lethal 
Federal Reserve force in the history of the Nation. It is a large 
undertaking. As a community-based force with a presence in all 50 
States, five U.S. territories and 30 countries, America's Army Reserve 
spans the globe with over 200,000 Soldiers and Civilian employees and 
2,000+ units in twenty different time zones. It comprises nearly 20 
percent of the Army's organized units and over a quarter of its 
mobilization base-expansion capacity. As a unique set of enabling 
capabilities, the Army Reserve provides half of the Army's maneuver 
support and sustainment formations, including medical, fuel 
distribution, civil affairs, logistics, and transportation units. Put 
simply, America's Army Reserve supports U.S. national security 
interests by providing key and essential capabilities that the Total 
Army and the Joint Force need to dominate on the battlefield during the 
opening days of conflict. Nested within the Army's priorities of 
Readiness, Modernization and Reform, our supporting lines-of-effort are 
to:

  --Build and sustain an increasingly capable, combat-ready and lethal 
        force ready to deploy, fight and win.
  --Continue to garner and sustain the support of our Soldiers' 
        Employers and Families as they work to maintain balance in 
        their lives.
  --Anticipate change as we shape and scope the Future Force, and 
        leverage our unique and pervasive connections with the Nation's 
        private sector.
    The challenges of building and fielding such an array of ready and 
lethal capabilities from the ranks of a largely part-time team is no 
small task. However, the diversity and efficiency of the force is also 
its strength. Leveraging a dispersed and dynamic phalanx of Soldiers 
and leaders with civilian-acquired or retained skills from over 140 
different career fields, America's Army Reserve brings the brains and 
brawn of the Nation to bear for the Army and the Joint Warfighter--when 
needed.
    This effort requires a balance of pragmatism, operational drive and 
focus, and a strategic perspective on the tough business of driving 
deep and abiding cultural change. Shifting our orientation from 
predictable, rotational and episodic readiness and employment, to 
large-scale and short-notice combat operations against a peer threat 
demands a dramatic change in our mindset and perspective. At its core, 
only inspired leadership at echelon--combined with boundless energy and 
a pervasive commitment to embrace and deliver the warrior ethos within 
the context of existential warfare--will harden this team's resolve and 
hone the decisive edge. This is the work that we are about.
                              people first
    Our dynamic requirement remains straightforward, but tough: This 
team needs to be ready enough to be relevant, but not so ready that our 
Soldiers cannot maintain good, meaningful civilian jobs and healthy, 
sustaining family lives. This challenge is exacerbated by the simple 
fact that we must recruit and retain our ranks where Soldiers live and 
work, and anticipate emerging demographics by moving force structure to 
not only where talent resides today, but where it will be tomorrow. 
This process demands agility, synchronization and integrated planning. 
It also relies, without exception, upon the enduring support of 
thousands of Employers across America as well as our Soldiers' 
Families.
    Put simply, this part-time force would not be possible without the 
support of civilian Employers around the globe. They are our essential 
partners in National Security--sharing the best talent in the World--as 
they continue the commitment and sacrifice which allows Soldiers to 
serve the Nation while maintaining rewarding civilian employment. 
America owes those employers, who are willing to trade a short-term 
inconvenience or disruption to the ``bottom line'' in ex- change for a 
more secure common future, a deep appreciation for sharing their 
workplace talent with America's Army Reserve.
    As with employers, nothing would be possible for an all-volunteer 
force unless our Families continued to stay on the team. There is no 
doubt that the Army depends on its Families to support its Soldiers and 
to share them with us. This is doubly true in the Reserve Component 
where many weekends and training days are consumed in what would 
otherwise likely be ``family time'' for our Active Component brothers 
and sisters. Accordingly, the Army Reserve relies heavily on our 
Families, and the communities that support them, as we partner with a 
broad range of organizations and employers who support our military 
families.
    To that end, America's Army Reserve is pressing hard to leverage 
new technologies and opportunities to better communicate with our 
entire Army Reserve family. We are now fielding a new ``smart phone 
friendly'' application that enables our Families to self-organize and 
provide mutual support where they live and work at the zip code level 
without regard to their Soldier's specific unit-of-assignment or chain-
of-command. This Double Eagle mobile application (app) is also designed 
to help leaders maintain contact with Soldiers during the periods 
between battle assemblies, as well as conjure supporting resources for 
Soldiers and family members who may be in crisis. As a command insight 
tool, the app creates a broadly expanded level of access and 
connectivity, propagating the penetration-at-echelon of timely and 
relevant information and key aspects of commander's intent. Across our 
dispersed battle-space, it will increase our Soldiers' bond as a team 
while offering their Families similar opportunities as a critical 
partner in this undertaking. Finally, working in close coordination 
with U.S. Army Recruiting Command, the app will be optimized to support 
the Total Army in identifying potential recruits for the team by 
leveraging the entire end-strength of America's Army Reserve as real-
time recruiters, living and working across America and scouting talent 
for the Nation.
      building the most capable, combat-ready and lethal federal 
               reserve force in the history of the nation
    In preparing to meet the challenges of this new and evolving threat 
paradigm, your Army Reserve is training, organizing and posturing 
itself to be able to respond on short notice to identify early-
deploying formations, aggregate additional capabilities and move 
quickly to accomplish post-mobilization training tasks in order to meet 
the Warfighter's time-sensitive requirements. This construct, Ready 
Force X (RFX), is the way in which we focus energy, optimize processes 
and prioritize resourcing to deliver capabilities at the speed of 
relevance for a major war. Early- deploying RFX units and capabilities 
need to be able to move quickly--in some cases in days or weeks--in 
order to support the Joint Force in any significant conflict or 
demonstration of national resolve. We do not call this ``fight 
tonight'' readiness; we call it ``fight fast'' capability. From a 
cultural perspective, RFX requires each Soldier, at the individual 
level, to embrace the ethos of personal readiness. While many aspects 
of collective readiness at the unit level can be tuned-up quickly upon 
mobilization, the key individual Soldier requirements of physical 
fitness, medical readiness, tactical discipline, professional 
education, and fieldcraft proficiency must be ``baked in'' to the 
entire force. Put simply, at a profound level, we are all in RFX.
    As noted above, this focus on fighting fast, and in opposition to a 
peer adversary, is a stark and challenging departure from the 
progressive and rotational (or cyclic) readiness models that have 
evolved over the past nineteen years of sustained operations, primarily 
in the CENTCOM theater of operations. Not only does it drive all 
aspects of our training to build increasingly high levels of both 
individual and collective readiness, but it enables us to prioritize 
equipping and modernization of certain formations or capabilities with 
a sustained level of focus over a period of years. This is because the 
lead capability sets and formations inside the RFX architecture do not 
``rotate'' arbitrarily from 1 year to the next. This key attribute--the 
ability to plan and sustain a coherent training, equipping and 
resourcing strategy across a number of years for the bulk of America's 
Army Reserve--will deliver ever greater capability and lethality as we 
move into the future.
    As with the other Components of the Army, your Army Reserve pushes 
to stress Soldiers and units with relevant scenarios that emulate the 
full-spectrum, all-domain, aspects of the next fight, while 
simultaneously acknowledging that we continue to deploy the force into 
the current one. By orchestrating, rationalizing and synchronizing 
strenuous training exercises and activities at a wide variety of 
training platforms and venues across North America, and around the 
globe, your Army Reserve has elevated its priority on combat-readiness 
and fieldcraft to an unprecedented level. Working closely with the 
other Components of the Army and, in many cases, with close partners 
and allies from around the World, America's Army Reserve continues to 
build and expand upon opportunities to train the way we will fight: 
together. Whether it be our expanded and, essentially, year-round Cold 
Steel gunnery operation--now well into its fourth year--or an expansion 
of Combat Support Training Exercises (CSTXs), routine and embedded 
rotations at the Army's Combat Training Centers, or ever closer 
collaboration with our teammates in the Army National Guard at such 
training venues as Northern Strike or Golden Coyote, we continue to 
explore expanded options to build readiness for tomorrow.
    The Army Reserve is always looking to the future, and developing 
the capabilities and sustained readiness necessary to deter, and if 
deterrence fails, win the next fight. To that end, we have already 
received and deployed an initial tranche of 60 Joint Light Tactical 
Vehicles (JLTVs), which we will use as training and familiarization 
platforms, setting the conditions for fielding-at-scale in the years 
ahead. As the leading edge of Army Reserve modernization, these initial 
JLTVs will support the Army Reserve Training Strategy and accelerate 
Army interoperability; both in training and on the battlefield.
                 defense support to civil authorities 
                     always present. always ready.
    With Soldiers, facilities and capabilities in more than a thousand 
communities across the Nation, America's Army Reserve is well-postured 
to respond quickly when disaster strikes and
    our fellow Americans are in their time of greatest need. Our key 
responsive capabilities include search and rescue units, aviation 
assets, route clearance engineers, medical units, water and fuel 
distribution operations, water purification and communications support; 
many of these forces have been well-tested over the recent past. While 
we fully acknowledge that our first responsibility is to leverage our 
unique capabilities to support the Army in winning the Nation's wars, 
we also embrace our opportunity and mandate to respond to need, on no-
notice, in the Homeland. As America's Army Reserve demonstrated 
recently in its response to Hurricanes Harvey, Irma, Maria, Florence 
and Dorian, and in ongoing support operations in response to the recent 
earth- quakes in Puerto Rico, we cede this responsibility to no one.
    The Army Reserve has been able to invest in the capacity and depth 
to be well-postured to move quickly and effectively to support our 
fellow citizens when they need our support. This is a huge benefit to 
the Nation, and one that informs our focus as we look to the future.
    While recognizing the Federal Emergency Management Agency is the 
lead Federal agency for disaster response in the Homeland, America's 
Army Reserve is enhancing the immediate response authority of our Army 
Reserve Regional Commands to more effectively command and control units 
to execute emergency response operations in support of the American 
people. As an example, and to that end, we have reorganized, empowered 
and equipped our 1st Mission Support Command, headquartered at Fort 
Buchanan, Puerto Rico, to be the ``go-to command'' to generate and 
integrate your Army Reserve's immediate response operations in the 
Caribbean when disaster response is needed. We will continue to shape, 
develop and scale this capability as we move forward, ensuring that we 
position our units and their equipment to become ever more responsive 
and operationally effective, whenever and wherever needed.
                   shape and grow the future force: 
                        modernize and transform
    From its inception in 1908, leveraging the huge capacity and 
existing technical capability of medical professionals in the Nation's 
private sector, America's Army Reserve has always brought depth in 
critical technologies to the Army for a massive discount to the 
taxpayers. Our times are no different. Drawing now upon its diverse and 
dispersed professionals working in a variety of leading edge 
technologies across the Country, your Army Reserve will tap into the 
finest brains in business, industry and academia to act as a screening 
force for the Army and an additive to National Security. This role is 
in our cultural DNA.
    For the past 2 years, your Army Reserve has been on a path of 
transforming its structure and procedures to seize the ``digital key 
terrain.'' This journey presses on as our 2-star Innovation Command--
still headquartered in Houston, Texas and now in Direct Support of Army 
Futures Command in Austin--assesses and develops emerging outposts in 
technology hubs across the country, focusing on the harnessing of 
skills and talent acquired or retained in the commercial sector. The 
command serves as a link for operational innovation and the development 
of concepts and capabilities to enhance the readiness of the future 
force by capitalizing on extensive ``civilian acquired or retained'' 
knowledge, skills, abilities, and experience. As a screening force for 
the Army, we are uniquely positioned to support the Army in staying on 
pace with rapidly emerging trends or opportunities in the private 
sector, while also providing a potential pool of on-demand talent for 
Army Futures Command. This process is already well underway.
    As it pertains to cyberspace operations, we remain steadily on 
glide path to establishing Cyber Protection Teams at key locations 
around the country, such as Camp Parks, CA (Bay Area), Adelphi, MD 
(DC), San Antonio, TX, Fort Devens, MA (Boston), East Point, GA 
(Atlanta), and Coraopolis, PA (Pittsburgh). Moreover, the Army Reserve 
Cyber Operations Group (ARCOG), with five Cyber Protection Centers and 
ten Cyber Protection Teams, provided direct support to Army Cyber 
Command (ARCYBER), and general support to other government agencies 
including DHS, NSA, FBI and DIA. Army Reserve Cyber Soldiers bring 
unique skills and experience to the force from their civilian 
occupations, drawn from over 40 corporate, financial and academic 
institutions. The cyber talent within the Army Reserve delivers 
capability, improves cyber readiness, and increases our network defense 
capability. To identify and cultivate cyber talent, the Army Reserve 
created the National Cyber Private Public Partnership in 2015. This 
program places Soldiers in critical Army Reserve cyber formation and 
provides enhanced opportunities to pursue civilian careers in the 
field.
    As for reform, America's Army Reserve is committed to achieving the 
Secretary of the Army's intent of increasing both the effectiveness as 
well as the efficiency of the Total Army. As the Principal Official of 
this Component of the Army as well as the Commanding General, U.S. Army 
Reserve Command, I have directed my team to consolidate supporting 
staff operations, re- shape headquarters and drive to an integrated 
Army Reserve Staff that is optimized to support each independent set of 
responsibilities as a holistic effort. This rigorous analysis and 
scrutiny predates the publication of the Department of the Army Reform 
Initiative memorandum and is advancing on pace. Over time, this 
initiative will enable us to strike the right balance between staffing 
head- quarters, providing full time support to units in the field, and 
cascading appropriate authorities ``down echelon''. We will continue to 
assess and evaluate the size, consolidation and function of 
headquarters as we press into the future, and we will adjust with 
agility and speed.
                               conclusion
    We remain grateful to the Congress for passing the fiscal year 2020 
defense appropriations bill. The need for consistent, predictable, and 
timely funding is critical to Army Reserve readiness and modernization 
requirements. As a result of it, your Army Reserve will continue to 
meet the challenges of the time. In these dynamic and challenging 
times, we will stay steady in the saddle as we build the most capable, 
combat-ready, and lethal Federal Reserve in the history of the Nation.

    Senator Shelby. Thank you. General Scobee.
STATEMENT OF LIEUTENANT GENERAL RICHARD W. SCOBEE, 
            CHIEF, AIR FORCE RESERVE
    General Scobee. Chairman Shelby, I will also keep my 
comments brief and I will submit my oral statement for the 
record.
    Senator Shelby. Without objection, so ordered.
    General Scobee. Thank you. Thank you for inviting me to 
report on the status of America's Air Force Reserve Command and 
discuss our 2021 fiscal budget request. I am joined today by my 
teammate, Command Chief of the Air Force Reserve, Command Chief 
Master Sergeant Tim White.
    The Air Force Reserve were an essential component of the 
Total Force and we provide that experience and critical 
capabilities for our National Defense. We are predominantly a 
part-time Force, however, provide full-time capability to the 
joint Force. And our personnel are interoperable and 
interchangeable with everything that we do in the Air Force. 
The National Defense Strategy has directed us to be ready and 
prepared for tomorrow's battle space and that is what we are 
going to do.
    Our Airmen are the foundation of those efforts, and it is 
essential that we provide not only excellent support to our 
Airmen, but also to their families and that is what we are 
getting after. During the last year, we had some lines of 
effort we were doing and we have made significant progress, 
especially in our readiness and reforming our organization. 
That has gone very well for us. But our ability to support that 
Joint Force has really been enhanced by our modernization 
initiatives, and we have replaced a lot of the obsolete 
equipment that we have had. Our National Guard and Reserve 
equipment appropriations have provided essential funding for 
our modernization efforts, and we thank you for the past year's 
appropriations.
    The Air Force Reserves' full-time manpower has improved 
over the last year but is still insufficient, so the Command 
Chief and I are going to continue to work on that. Part of the 
things that have gone right for us is the conversion of our Air 
Reserve Technicians to Active Guard Reserve billets and the 
Congressional approval of direct hiring authority, where we 
have almost hired, I think it is 970 additional Airman over the 
past year because of that authority that you have given us, and 
we appreciate that. Last year, Congress also authorized our Air 
Reserve Technicians to receive medical coverage through TRICARE 
Reserve Select. Thank you very much for that. That health plan 
is both going to help us with retention, but it is really going 
to keep us from breaking healthcare coverage for our Airmen as 
they deploy that are technicians.
    My ask this year is that was approved for 2030, and as we 
go forward, I am going to try to bring that back as much as we 
can in order to get that benefit to all of our Airmen. We are 
in good shape in the Air Force Reserve Command, and we 
appreciate Congress's help with all the enhanced capabilities 
that we have seen. We are focused on critical, emerging, and 
evolving threats, but I am confident with Congress's continued 
backing, we can overcome these obstacles.
    Our recent successes are testament to what you have done in 
Congress. Your backing of key legislation has been what has us, 
and also having the on time appropriations for 2019 budget 
directly reflected in our readiness improvements. I want to 
thank you for the opportunity to appear before you today and 
your support as we go forward in the Air Force Reserve. We are 
prepared to defend this great Nation, and I look forward to 
your questions.
    [The statement follows:]
       Prepared Statement of Lieutenant General Richard W. Scobee
    As an integral component of the Total Force, the Air Force Reserve 
provides experienced manpower and critical capabilities for our 
National Defense. Our Citizen Airmen are interchangeable, 
interoperable, and integrated across the Total Force. We execute the 
full spectrum of Department of the Air Force missions, while providing 
daily operations at a fraction of the cost of a standing force.
    Total Force operations require Total Force readiness. The Air Force 
Reserve must be structured, trained, and equipped for the future fight. 
Operational success in tomorrow's battlespace will require an agile, 
modern force. We must be prepared to provide ready forces for joint 
operations, defend our homeland, counter violent extremist 
organizations and rogue nations, and deter aggression through nuclear 
and conventional readiness.
    Because of the hard work and support of Congress, we have begun to 
reverse the negative effects of over a decade of operating under 
continuing resolutions. In the last 2 years, we made significant and 
steady advancements in readiness. This would not have been possible 
without the distribution of additional readiness funds in fiscal year 
2018 and the on time allocation of the fiscal year 2019 budget. The 
approval of our fiscal year 2020 budget request enables us to continue 
building readiness and capabilities. In addition to providing vital 
support through appropriations, the Congressional backing of key 
legislation and statutory changes aided our ability to further our 
readiness gains.
    With the assistance of Congress, we have improved both individual 
and unit level readiness across the Air Force Reserve. Our nuclear 
deterrence forces are mission ready, and we increased our pacing unit 
readiness. We modernized key weapon systems and lessened critical 
manpower shortfalls. Through internal reforms and process improvement 
initiatives, we increased our organizational effectiveness and enhanced 
our ability to provide excellent care for our Citizen Airmen and their 
families.
    Although our readiness has increased, we still face challenges. Our 
full time manpower remains below the level required to train and 
maintain our force. Many of our aircraft need critical system upgrades 
to enhance our ability to provide relevant warfighting capacity to the 
Total Force in order to enable joint all-domain operations. Weapon 
system sustainment is essential for the continued operation of legacy 
platforms. We have a backlog in infrastructure and facilities 
requirements, and we need resources, equipment, and tools to optimize 
our training. Our fiscal year 2021 budget request targets the most 
critical of these deficiencies to further improve Air Force Reserve 
readiness.
    In recent years, our potential adversaries have studied our 
vulnerabilities and employed technological advances to exploit them, 
thereby altering the nature of warfare and expanding conflict into new 
domains. The changing battlespace has given rise to new operational 
missions and generated a need for advanced capabilities. To ensure we 
are prepared for future conflict, the Air Force Reserve increased our 
space manpower in the fiscal year 2021 budget, and we are enhancing our 
cyber defense capabilities. Our fiscal year 2021 budget request 
postures our force to meet future operational requirements, prioritize 
modernization, enhance critical capabilities, and align our operational 
assets with emerging and evolving missions.
    Because we are involved in every Air Force mission set, nearly 
every Active Component initiative impacts the Air Force Reserve. In 
order to remain relevant contributors to joint operations, we must 
maintain interoperability as a Total Force. We optimize our operational 
capability when we maintain parity with our Active Component 
counterparts. The concurrent fielding, recapitalization, and divestment 
of airframes, systems, and equipment is essential to our ability to 
more effectively integrate within the Total Force. Associations between 
geographically co-located Active and Reserve component units greatly 
enhances this integration, providing multiple benefits to the Total 
Force and the American taxpayer.
    Our readiness, operational capabilities, and success as an 
organization all depend on our Reserve Citizen Airmen. They are both 
the heart of our organization and its foundation. Our Reservists are 
incredibly talented. Their diversity and high level of experience 
multiplies our operational capabilities, and their dedication enables 
us to execute our mission. It is therefore incumbent upon us to develop 
our Airmen as individuals, technical experts, and leaders, ensuring 
they have the resources and support they require. We are absolutely 
committed to providing excellent care to our Citizen Airmen and their 
families.
    Our fiscal year 2021 budget request of $5.8 billion builds on our 
recent readiness gains and supports our continuing efforts to implement 
the National Defense Strategy. The Air Force Reserve is a cost 
effective force, and will continue its good stewardship of American 
taxpayers' dollars. We will use the requested funds to invest in the 
capabilities, weapon systems, and training required to generate combat 
power today and tomorrow. With continued Congressional support, we will 
further our internal improvement efforts, provide excellent care to our 
Reserve Citizen Airmen and their families, and remain a ready force 
prepared to defend this great Nation.
                the air force reserve in the total force
    The Air Force Reserve is a predominantly part time force which, 
when mobilized, provides full time support to the Joint Force. In 
addition to our daily contributions to global operations, we provide 
rapid surge capability and strategic depth for national defense. We now 
participate in every Active Component mission, operating as part of an 
integrated Total Force across nearly all Air Force core functional 
areas and weapon systems.
    On average, over 6,000 Reserve Citizen Airmen contribute to world-
wide operations every day. Typically, about two thirds of those Airmen 
are volunteers. Our personnel support all combatant commands and are 
deployed to every geographic area of responsibility. Last year, our 
Reservists provided nearly two million days of support to the Active 
Component and the Joint Force. This includes participating in the first 
F-35 combat deployment, during which a Reserve pilot dropped the first 
ordnance from an F-35 in combat.
    In addition to supporting global military operations, the Air Force 
Reserve partners with and supports multiple Federal and civil 
organizations and institutions. We routinely participate in 
humanitarian aid and disaster relief efforts. We also support global 
scientific research programs and education and technology initiatives.
    In 2019, the Air Force Reserve participated in approximately 60 
joint and multinational exercises, increasing Joint Force integration 
and strengthening relationships with allies and partner nations. 
Additionally, over 1,000 personnel conducted Innovative Readiness 
Training. Airmen within the civil engineering, medical, communications, 
and force support and sustainment skillsets are given the opportunity 
to enhance their deployment readiness by providing critical services to 
communities in the United States. Last year, we helped Americans in 
eight States, contributing over $11 million in value to local 
communities.
    Approximately 80 percent of Air Force Reserve members serve part 
time. In addition to their military training and experience, our part 
time force brings a wealth of knowledge and expertise from their 
civilian careers to their military service. This strengthens our 
capabilities, enables the integration of civil sector best practices, 
and facilitates beneficial partnerships with industry and other 
institutions. Many of our members have civilian careers similar to 
their military jobs, which enables Citizen Airmen to bring scope and 
depth to their military positions. This is particularly advantageous 
for emerging and evolving missions, such as cyber and space, and we 
actively recruit personnel with civilian experience into these career 
fields.
    The Air Force Reserve provides the Total Force with a method to 
retain talent, by providing a continuity of service option for Active 
Component members who would otherwise separate. The Department of the 
Air Force understands the importance of retaining experience and 
talent, and seeks to leverage the value, which the Reserve Component 
brings to the Total Force. In addition to using Total Force 
partnerships to place newly trained members in units with highly 
experienced personnel, the Air Force is currently exploring flexible 
service options designed to allow members to easily transition between 
components of the Total Force. The Air Force Reserve fully supports 
these efforts, which will benefit our Airmen, our readiness, and our 
national defense.
    Total Force Integration is exemplified by associations between 
geographically co-located Active Component and Reserve units. In this 
construct, equipment resources are officially assigned only to the lead 
unit, but are shared between the lead and associate unit. Associations 
further enhance our interoperability and give the Active Component 
access to the experience resident in the more seasoned Reserve force. 
This ensures parity in equipment and training, while providing cost 
savings and readiness benefits to both components.
    Currently, there are 78 associations between the Reserve and the 
Active Component. Most of these are classic associations, in which the 
Active Component is the lead organization. Active associations, in 
which the Reserve is the lead unit, comprise a little more than 10 
percent of current associations. The Reserve and the Active Component 
have associations in nearly every major mission set, and many training 
units, including every undergraduate pilot training wing, pilot 
instructor training, and major aircraft formal training units. We are 
also the lead component for the B-52 and C-5 Formal Training Units.
               implementing the national defense strategy
    After nearly two decades of counter-terrorism operations, great 
power competition has re-emerged. The return of peer and near-peer 
competitors to the world stage in an age of unprecedented global 
economic interdependence combined with the proliferation of swiftly 
advancing technology has created a unique and complex environment. This 
necessitates a rapid shift in military operational focus and 
capabilities. The United States must be able to combat adversaries 
across the spectrum of conflict and operate simultaneously in all 
warfighting domains. The 2018 National Defense Strategy provides the 
framework to ensure we can compete, deter, and win in tomorrow's 
battlespace, and we are diligently working to meet that intent.
    Our efforts align under those of the Department of the Air Force 
and support the Total Force's mandate to provide ready forces for 
national defense. In order to operate seamlessly in a combat 
environment, we must have the capability to connect with the Joint 
Force. The Total Force must be capable of conducting robust nuclear 
deterrence, homeland defense, and counter-extremism operations. Meeting 
this mandate in the future operational environment will require the 
Total Force to dominate space, generate combat power, and conduct 
logistics under attack. As the Airmen who execute the mission represent 
the most important element in this and every undertaking, the 
Department of the Air Force is simultaneously focused on developing and 
caring for our people and their families.
Air Force Reserve Strategic Priorities
    In order to restore readiness rapidly and prepare for the future 
fight, the Air Force Reserve established three priorities. The first, 
prioritizing strategic depth and accelerating readiness, focuses on the 
requirement to prepare for future operational requirements while 
maintaining present-day readiness and sustaining our present level of 
support to the Joint Force. The second, developing resilient leaders, 
serves two purposes. The intents of this priority are to enhance the 
physical, mental and emotional fitness of all Reserve Citizen Airmen 
and to develop mission- focused leaders who can operate independently. 
Our final priority, reform the organization, aims to increase 
efficiency and effectiveness through internal process improvements and 
innovation.
    The Air Force Reserve strategic priorities were developed based on 
the challenges outlined in the National Defense Strategy and are 
aligned with Secretary of Defense, Secretary of the Air Force, and Air 
Chief of Staff directives. We made significant gains in 2019, 
increasing overall readiness, implementing new leadership development 
programs, and improving our internal operations. We are in the process 
of expanding and accelerating these efforts, to further enhance our 
mission readiness and our ability to support our Citizen Airmen and 
their families.
Air Force Reserve Future Force Framework
    To align Air Force Reserve capabilities and force structure with 
the National Defense Strategy and to posture our force to execute 
tomorrow's missions, we developed the Air Force Reserve Future Force 
Framework. This will enable us to deliberately organize, train, and 
equip our force to meet present directives and develop operational 
capabilities for the future fight. This framework directs mission 
optimization through assessing capabilities to determine which mission 
sets are best suited for the Air Force Reserve and through the 
alignment and improvement of policy, planning and programming efforts. 
The framework also provides for tailored and prioritized training, 
which synchronizes efforts and capitalizes on technology to optimize 
unit training assemblies by enabling the completion of ancillary 
requirements through virtual methods. Finally, the Air Force Reserve 
will continue to leverage civilian sector strengths by capitalizing on 
member expertise and knowledge, developing industry partnerships, and 
tailoring recruitment efforts.
                fiscal year 2021 budget request overview
    The American people fund our readiness, therefore, we must be good 
stewards of taxpayer dollars. We take great care to ensure we only 
request the appropriations we require, and we continually seek to 
conserve fiscal resources through cost savings and cost avoidance 
efforts.
    We cannot effectively manage our appropriations without the timely 
allocation of funds. With a predictable budget, we can deliberately 
plan our spending, thereby maximizing our readiness return. On time 
allocations allow us to execute our programmed Reserve Personnel 
Appropriations (RPA) and flying hour funds. Systematic infrastructure 
upgrades and weapon system sustainment require predictable budgets for 
optimal cost effectiveness and timely implementation. Our recent 
readiness gains, which were favorably impacted by the on time 
allocation of our fiscal year 2019 budget, demonstrate the criticality 
of predictable budgets to national defense.
    Our fiscal year 2021 budget request of $5.8 billion is designed to 
further our ongoing efforts to align the Air Force Reserve with the 
National Defense Strategy and Air Force priorities, enhance readiness, 
and posture our force to meet future threats. We are requesting $2.2 
billion in RPA, which funds Reserve military pay for all statuses, 
formal schools, training, and individual readiness requirements. 
Furthermore, our fiscal year 2021 budget request includes $3.4 billion 
for the Operations and Maintenance (O&M) appropriation, which funds our 
flying hour program, operational readiness and mobilization 
requirements, equipment maintenance, and the salaries of our civil 
service personnel, including civilian pay and benefits for our Air 
Reserve Technician (ART) Force.
    In fiscal year 2019, we executed 99.5 percent and 98.6 percent of 
our RPA and O&M funding, respectively, and we are on track to fully 
execute our 2020 appropriations. Our fiscal year 2021 budget request 
includes an RPA increase of $193.6 million, approximately 60 percent of 
which is driven by higher AGR authorizations. Our fiscal year 2021 also 
includes an O&M increase of $123 million, which includes funding for 
over 81,000 peacetime flying hours and depot maintenance, Federal 
Aviation Administration mandated upgrades, and contractor logistic 
support for nearly 320 aircraft.
    Maintaining and modernizing our infrastructure and facilities is 
critical to readiness, force protection, and ensuring a safe work 
environment for our Airmen. These efforts are funded through Military 
Construction (MILCON) appropriations, which provide for new facilities 
and major infrastructure projects, and with the Facility Sustainment, 
Repair, and Modernization (FSRM) funds included in our O&M 
appropriation. FSRM funds appropriations are used to repair and 
modernize existing facilities and to extend the service life of 
existing infrastructure.
    In fiscal year 2019, we were appropriated funds for seven MILCON 
projects, totaling $115 million, and awarded $142 million in FSRM 
funding for 194 projects. We have three authorized fiscal year 2020 
MILCON projects, and we have distributed over $76 million in FSRM funds 
so far this year. Our FSRM investments include $35 million for airfield 
pavement repairs. Our fiscal year 2021 budget request includes $23.1 
million in total MILCON appropriations, which will fund the 
construction of a new F-35 simulator facility at Naval Air Station 
Joint Reserve Base Fort Worth, Texas for $14.2 million, provide $5.6 
million for Air Force Reserve-wide minor construction requirements and 
$3.2 million for Planning and Design funds of future MILCON projects. 
These funds, along with our requested $103 million in FSRM 
appropriations will assist in reducing our $890 million MILCON and $1.5 
billion FSRM requirements backlogs, providing modern, efficient, and 
safe facilities for our Reserve Citizen Airmen.
               generating combat power today and tomorrow
    The Air Force Reserve provides daily operational support to the 
Joint Force, while maintaining a strategic force for sustained 
operations during major conflict. We provide surge capacity and rapid 
response capabilities, enabling the Joint Force to quickly adapt to 
operations tempo increases and unforeseen events, such as national 
disasters and contingencies. We also fill Active Component manning 
shortfalls and provide augmentation to meet short term manpower 
requirements.
    Our ability to meet current taskings and to supply strategic 
manpower are predicated on our readiness. As an operational reserve, we 
must maintain our readiness to support present-day missions while we 
align our capabilities to meet the intent of the National Defense 
Strategy and prepare for future requirements. Over the past 2 years, we 
increased readiness across the enterprise, improving both individual 
and unit readiness.
    The Air Force Reserve must be able to decisively employ both 
traditional and emerging capabilities. In order to enhance our ability 
to compete, deter, and win in any environment, we remain focused on key 
mission sets and actively expand our capabilities in the space and 
cyber realms. As warfighting domains become increasingly integrated, we 
must be prepared to conduct joint all-domain operations, which will 
allow us to create decisive, asymmetrical advantages in the future 
fight.
Pacing Squadrons
    In 2018, the Air Force identified operational squadrons that would 
be required at the start of a peer conflict. Several of these pacing 
squadrons are Air Force Reserve units, and we also support Active 
Component pacing squadrons through associations. Over the past year, we 
concentrated our resources and efforts on these units, improving their 
readiness. We will continue to prioritize our pacing squadrons to 
ensure they meet all requirements within the specified timelines.
Nuclear Deterrence Operations
    Nuclear capability is a foundational element of our national 
defense, and the Air Force Reserve shares in the nuclear mission. Our 
Nuclear Deterrence Operations assets include nuclear strike, air 
refueling, and command, control, and communications capabilities. In 
fiscal year 2019, we evaluated these units during four assessments and 
through participation in an enterprise-wide Nuclear Execution Force 
exercise. Our nuclear forces remain mission ready.
    Ready forces require modern equipment and capabilities. To further 
increase our capabilities in this critical mission, our fiscal year 
2021 budget request includes funding to equip six of our seven nuclear 
command, control, and communications capable command posts with the new 
primary strategic communication system, the Global Aircrew Strategic 
Network Terminal. This system will replace the legacy terminal, which 
is based on 1990s technology.
Air Superiority
    In order to defeat a peer or near-peer adversary, we must be able 
to generate combat power in contested environments. Last year we 
prioritized the readiness of our fifth-generation fighter squadrons and 
focused on providing realistic training to our F-22 and F-35 pilots. 
Our fiscal year 2021 budget request increases the training funds for 
these airframes. This will enable us to expand fifth-generation fighter 
pilot production and to provide fully-qualified fighter aircrew with 
more frequent and higher value training.
    The Air Force Reserve has Classic Associations in several F-35 
units. We execute F-35 combat operations in our association at Hill 
AFB, Utah. Additional associations execute F-35 formal training at Luke 
AFB, Arizona and Eglin AFB, Florida, and operational test and weapons 
instructor course missions at Nellis AFB, Nevada. The Air Force 
Reserve's first unit-equipped F-35 wing will execute combat operations 
and be part of an Active Association. The Department of the Air Force 
plans to increase F-35 aircrew authorizations and our fiscal year 2021 
budget request supports this effort by adding Reserve manpower at the 
F-35 Formal Training Unit to support greater Total Force student 
throughput.
Aerial Refueling
    The Air Force Reserve air refueling fleet in fiscal year 2021 
consists of seven unit equipped wings and four associate wings. In 
January 2019, the first two KC-46s arrived at McConnell Air Force Base 
(AFB), Kansas. These aircraft were delivered to a classically 
associated Active and Reserve wing and are being flown by Total Force 
crews. In addition to one operational squadron, the Air Force Reserve 
has several trained instructors who support the KC-46 Formal Training 
Unit. The Air Force Reserve's first unit-equipped KC-46 wing, located 
at Seymour Johnson AFB, North Carolina, began conversion in 2019. The 
first KC-46 is projected to arrive in June with the expectation that 
all twelve aircraft will be delivered by December 2020.
    At present, we have eight wings which operate the KC-135. Six of 
these wings are unit-equipped, and three are tasked with an alert 
mission. We are focused on the readiness of our KC-135 force, with the 
goals of improving mission capable rates, increasing aircrew and 
maintenance manpower, and providing better training for our aircrew and 
maintenance personnel. The first Air Force Reserve aircraft will begin 
datalink modification with ``Real Time Information in the Cockpit'' 
(RTIC) in late summer. This modification increases the communications 
and information capabilities of the aircraft increasing its support 
capacity in a fast paced contested environment.
    The Air Force Reserve has two wings who associate with the Active 
Component to fly and maintain the KC-10. The Air Force Reserve remains 
committed to this aircraft and mission as long as it remains a part of 
the air refueling force. As the inventory is reduced, the Air Force 
Reserve will work with the Department of the Air Force to convert those 
units and their manpower to the determined follow-on missions.
Airlift
    The Air Force Reserve enables combat delivery through our strategic 
and tactical airlift fleets. In order to effectuate the C-5 formal 
training requirements, the Air Force Reserve C-5 crew ratios were 
adjusted to focus on balancing training capacity and resources for the 
Active and Reserve Component while maintaining combat readiness. The C-
130H fleet was upgraded for compliance in accordance with the Aircraft 
Modification Program Increment 1 (AMP 1) and has begun to install new 
propulsion upgrades. The C-17 fleet continues to provide operational 
and strategic depth to the Global Reach enterprise.
Personnel Recovery
    The Air Force Reserve has one wing dedicated to the no-fail mission 
of personnel recovery. We operate three search and rescue platforms, 
and our fiscal year 2021 budget request includes funds to update 
mission planning capability for this high demand asset. The request 
also supports modernization requirements for our Guardian Angel and HC-
130 aircraft.
Dominating Space
    The establishment of the United States Space Force (USSF) in 
December 2019 underscored the importance of space to our national 
security. The Air Force is a major contributor to space operations. In 
the last year, our personnel executed approximately 26 percent of daily 
space missions. We added 70 space manpower authorizations in fiscal 
year 2020. In addition, the Air Force Reserve has already taken steps 
to provide focused support to the Space Force for the near term. Our 
space units are aligned with and will be able to integrate effectively 
with USSF forces for the foreseeable future.
Cyber Defense
    Digital technology permeates nearly every aspect of modern life. 
This technology is both pervasive and inexpensive, making the cyber 
realm easily accessible. The increasing integration of cyber 
capabilities enhances our ability to generate combat power, yet exposes 
us to new threats.
    Therefore, the Air Force Reserve is building and expanding our 
foundational capabilities to conduct operations in the information 
environment, by evolving our cyber mission portfolio and re-purposing 
our cyber force to better defend against future threats.
    The Air Force Reserve is home to the only Total Force wing that 
operates all six defensive cyber weapon systems. We provide support 
directly to Air Forces Cyber, Sixteenth Air Force, and United States 
Cyber Command. We are implementing the Cyber Squadron Initiative and 
standing up Mission Defense Teams on all nine Air Force Reserve host 
installations, as well as Naval Air Station Joint Reserve Base Fort 
Worth, Texas where we are the lead Air Force unit. Our fiscal year 2021 
budget request provides additional manpower to stand up cyber flights 
at all our unit- equipped locations.
    We are in the process of transitioning our cyber personnel from 
information technology support to mission assurance and defensive cyber 
operations. Along with our Active Component counterparts, we are 
replacing our internal communications network with contractor delivered 
information services. The shift to Enterprise Information Technology as 
a service will allow us to leverage modern systems and practices from 
civilian industry for our internal networking needs, while enabling our 
personnel to focus on cyber operations and defense.
    The Air Force Reserve is also developing and implementing new 
programs to expand accessibility and better utilize data. Our goal is 
to shift from stove-piped service information technology systems to 
cloud platforms. As part of this effort, we will transition to an 
operating-system agnostic framework. We are extending mobile-based 
capabilities and implementing alternative platforms to enable increased 
user accessibility. These efforts allow users to connect securely to 
Air Force networks through virtual desktop applications, enabling 
access from any device and any location. We are also working with the 
Air Force Chief Data Office to create a mature Shared Data Environment, 
which will serve as a single source for information.
Intelligence, Surveillance and Reconnaissance (ISR)
    The Air Force Reserve ISR enterprise is uniquely designed to 
provide strategic depth and operational surge capacity in traditional 
and emerging mission sets. Tailoring of current and future missions is 
necessary to ensure our ISR forces are readily available for mission 
execution. We will develop capabilities in areas that support the Joint 
Force while ensuring its current mission sets are relevant to multi-
domain operations and major power competition. Investments in the 
operational use of public access information, increase presence in 
battlespace characterization, and support to key capabilities such as 
nuclear, space, and cyber operations that are necessary to ensure we 
are postured to meet the needs of Joint Forces.
    The Air Force Reserve continues to provide approximately 500 
experienced pilots, sensor operators and intelligence Airmen to support 
Remotely Piloted Aircraft (RPA) operations at five associations with 
our counterparts in Air Combat Command and Air Force Special Operations 
Command. We will maintain our contribution of both steady State and 
surge capacity to MQ-9 combat lines, as the Total Force RPA enterprise 
reorganizes to a leaner and more lethal force. As the Active Component 
restructures RQ-4 operations with divestment of a portion of the fleet, 
we will invest our associated manpower, focusing on readiness in 
missions supporting the National Defense Strategy.
Command and Control (C2)
    The Air Force is preparing for the future fight by fielding new 
concepts and capabilities which enable Joint All-Domain Command and 
Control (JADC2), the Department of Defense's top modernization 
priority, which is critical to executing joint all-domain operations. 
JADC2 is a system that uses data, machine learning and state-of-the-art 
software to seamlessly link ``sensors to shooters'' across all 
domains--air, land, sea, cyber and space. The Air Force Reserve's 
current C2 program will maintain status quo until the development of 
JADC2 and the Advanced Battle Management System priority.
    As part of the Air Force's strategic initiative to strengthen joint 
leaders and teams, Ninth Air Force will now provide the Department of 
Defense (DoD) with an air-centric capability to task during crisis 
operations and be offered as part of the dynamic force employment model 
to meet the National Defense Strategy for more integrated and multi-
domain operations. Our fiscal year 2021 budget programs Air Force 
Reserve manpower to associate in the stand-up of the service-retained, 
Joint Task Force (JTF)-capable organization (9 AF, JTF Headquarters at 
Shaw AFB, South Carolina).
                         manning a ready force
    Adequate manpower is vital to readiness. Our fiscal year 2021 
budget request increases our authorized end strength from 70,100 to 
70,300, adding 200 AGR authorizations to increase our full time 
manpower and enable our readiness.
    In recent years, the Air Force Reserve has encountered multiple 
manning challenges. For several years, our overall manpower has hovered 
slightly below end strength targets. While we do have part time manning 
shortfalls in some locations and in certain critical career fields, our 
total assigned part time personnel is near the total authorized. 
Although there have been improvements in the past year, our full time 
manning remains below the authorized level.
    Our full time personnel continue to do excellent work by increasing 
our readiness while maintaining a high operational tempo. However, 
because we lack sufficient manpower, our full time force is overtasked. 
We place too many requirements on too few Airmen. We owe it to them to 
reduce some of the burden.
    Our full time force is a mix of ARTs and AGRs. Between 2013 and 
2018, our ART manning levels dropped from 80 to 74 percent, largely due 
to the highly competitive civilian job market. This decrease in 
manpower was further exacerbated by the civil service hiring process, 
which prolonged vacancies and caused us to lose candidates.
    Ensuring our full time personnel are fairly compensated for their 
work is essential to recruiting and retaining talented individuals. 
Therefore, we implemented several initiatives to boost our full time 
manpower. These efforts are producing results. At the start of fiscal 
year 2019, our full time manning level was approximately 75 percent. By 
the end of the first quarter of fiscal year 2020, our full time 
manpower increased to around 80 percent of authorized.
    The increase in our full time manning levels is due, in part, to 
the conversion of a percentage of our ART billets to AGR 
authorizations. As a result, AGR manpower and retention rates are 
higher than that of the ART force, with a comparatively faster hiring 
process; thus AGR vacancies are of shorter duration. The ART to AGR 
conversion initiative is a multi-year effort, which began in fiscal 
year 2018. In fiscal year 2019, we executed over 453 conversions, and 
we have already completed nearly 71 percent of the over 362 conversions 
planned for fiscal year 2020. Our fiscal year 2021 budget request 
provides for the conversion of an additional 625 ART authorizations to 
AGR billets, largely in maintenance and force support specialties.
    Our ART manning and overall full time manpower also benefited from 
Direct Hiring Authority. This authority, which Congress granted, 
streamlines the civil service hiring process for certain critical 
career fields, drastically decreasing hiring timelines. Direct Hiring 
Authority provided particular benefit to our full time maintenance 
force. This authority allowed us to hire over 600 maintainers between 
March and October of 2019, increasing full time maintenance manpower to 
approximately 80 percent. Around 75 percent of the individuals hired 
were new to civil service. Direct Hiring Authority enabled us to 
decrease our ART maintainer vacancies to their lowest level in nearly 4 
years.
    Extending this authority to additional career fields, such as 
pilots, would likely produce similar results. At present our overall 
pilot manning is approximately 85 percent of authorized levels, with 
full time manpower at nearly 75 percent of authorized. Overall, pilot 
manpower has remained steady over the last year. We are exploring new 
options to increase both full time and part time pilot manning, 
including updating pay grade determination criteria for ART aircrew 
members and offering additional recruitment and retention bonuses.
    In addition, the Air Force Reserve took steps to improve retention 
in both our full time and part time force. Reducing attrition preserves 
readiness and provides cost savings by decreasing training 
requirements. We are presently targeting retention through bonuses and 
special salary rates, which offer a marked return on investment. A 
single $15,000 retention bonus results in a cost avoidance of roughly 
$45,000 in training funds and prevents an approximately three year 
readiness gap, which occurs while a replacement is trained.
    We are focusing our retention efforts on Airmen with six to 10 
years total service, which is the group with the highest attrition 
rate. In addition to expanding existing programs, we are seeking new 
methods of increasing retention and engaging wing leaders in these 
efforts. We also reduced barriers to recruiting, including decreasing 
hiring timelines, eliminating mileage restrictions, and removing 
unnecessary interview requirements.
    Our full time to part time force mix is based on pre-Gulf War force 
structure and operational tempo. In order to effectively accomplish our 
mission, train our force, and maintain readiness, we must increase the 
percentage of full time manpower in relation to our end strength. 
Presently, full time uniformed military members constitute 
approximately 20 percent of Air Force Reserve authorizations. Based on 
current requirements, we need to increase this type of full time 
support which is essential to maintaining readiness.
            modernizing and improving the air force reserve
    Tomorrow's operational environment will notably evolve when 
compared to how we conduct operations today. The return of great power 
competition, combined with the rapid advancement and widespread 
availability of digital technology, drives the need to transform our 
forces so they can generate combat power effectively to win, despite 
contested environments established by our potential adversaries. This 
requires fielding new warfighting concepts and capabilities and 
modernizing existing platforms to meet future threats.
    We implemented multiple readiness initiatives, including bolstering 
training, removing unnecessary requirements, and instituting internal 
reforms to streamline our operations and enhance support to our Reserve 
Citizen Airmen. We are prepared to meet both current and future 
requirements, and we must carry our present momentum forward into the 
coming years, to further optimize our force.
Maintaining Operational Parity With the Active Component
    In order to effectively support the Active Component and connect 
with the Joint Force, the Air Force Reserve must modernize 
simultaneously as the Air Force upgrades legacy platforms, adding 
capabilities required for the future fight. Our operational 
capabilities are tied to our ability to integrate into the Total Force, 
therefore we must maintain parity with the Active Component whenever 
possible.
    The concurrent fielding of new airframes, aircraft upgrades, and 
other equipment is critical to sustaining and improving this 
operational parity. The Air Force Reserve can only provide strategic 
depth and operational support to the Joint Force in mission areas where 
our personnel are trained on the required weapon systems, and we are 
most effective when we can operate interchangeably with our Active 
Component counterparts. Concurrent fielding enables our personnel to 
train on the same systems employed by the Active Component, 
facilitating interoperability within the Total Force. This maximizes 
the Air Force Reserve's ability to support operational missions and 
enhances our integration with the Active Component, assuring we are 
capable of providing the Total Force with the warfighting capability 
necessary to achieve decisive victory against future threats and in all 
domains.
    In addition to concurrent fielding, the Reserve must recapitalize 
and divest weapon systems in conjunction with the Active Component. 
This prevents problems which arise when the Reserve Component continues 
to operate a legacy system that is no longer used by our active 
counterparts. In this situation, the Reserve becomes responsible for 
all aspects associated with that particular platform, such as 
standardization and evaluations and safety. Furthermore, once the 
Active Component divests a weapon system, the Reserve is unable to hire 
qualified Active Component aircrew separatees for that specific 
airframe, increasing training costs and reducing readiness.
Weapon System Modernization and Sustainment
    While addition of new platforms such as the F-35, KC-46, B-21, and 
F-15EX will enhance our capabilities, both the Active Component and the 
Reserve will continue to rely on many of the proven platforms currently 
in our inventory. This necessitates aircraft modernization and system 
upgrades, which will provide the capabilities needed for the future 
fight and ensure survivability if operating in a contested environment.
    Key modernizations are required to keep our legacy fleet relevant 
in the prioritized missions outlined in the NDS. Necessary A-10 
enhancements include the installation of upgraded mission computers, 
Helmet-Mounted Targeting, Anti-Jam Global Positioning System equipment, 
and missile warning systems. Our B-52 fleet requires upgrades to radar 
and defensive systems and the install of advanced data link equipment, 
and our fiscal year 2021 budget request includes funding to install 
Advanced Extremely High Frequency communications capability on this 
aircraft. Our F-16s require active electronically scanned array (AESA) 
radars to more effectively support homeland defense and other priority 
NDS missions.
    After decades of operating in a permissive environment, we must be 
prepared to conduct logistics under attack. The C-5 and C-17 are both 
vulnerable to radar guided missile threats which would be mitigated by 
the installation of a layered defense and awareness suite. Currently, 
the Radar Warning System upgrades for both aircraft are unfunded. We 
are presently installing the Mobility Air Forces datalink system in our 
C-5 fleet and to equip our KC-135 aircraft with the Real-Time in 
Cockpit situational awareness system. Our KC-135 fleet is also 
scheduled to begin Large Aircraft Infrared Countermeasures 
modifications in June 2020, and the installation of additional threat 
awareness and self-defense systems would provide further protection for 
this aircraft.
    In addition to modernization, many of our airframes require 
upgrades, repairs, and component replacements in order to maintain 
airworthiness and extend service life. These weapon system sustainment 
actions are critical to both our mission capability and aircraft 
availability rates. Maintaining a mission capable aircraft fleet is 
essential to meeting operational taskings and training our personnel. 
Lack of weapon system sustainment funding can ground aircraft, 
hampering our ability to support global operations and degrading our 
readiness.
    Years of continuing resolutions, lack of flexible funding, and an 
aging fleet have increased weapon system sustainment requirements. 
Historically, the Air Force Reserve has had approximately 75 percent of 
our share of these requirements funded. We obligated over $500 million 
for weapon system sustainment in fiscal year 2019. Our fiscal year 2020 
appropriations are approximately $759 million. We've been authorized 
$345 million to date, of which 80.6 percent has been obligated. We are 
also on track to obligate our entire fiscal year 2020 authorization, as 
we're currently at 36.6 percent obligated.
    Our fiscal year 2021 budget requests $703 million in weapon system 
sustainment funds, which will provide needed upgrades to multiple Air 
Force Reserve platforms. Our current sustainment requirements include 
measures to extend the B-52's service life by an additional thirty 
years and to replace this platform's engines with new, more fuel-
efficient powerplants. Our A-10 fleet requires wing replacements and 
our C-130H aircraft need avionics and propulsion upgrades.
Internal Improvements
    Reforming our organization through internal improvements and 
increasing our operational efficiency continues to be one of our major 
focus areas. Our intent is to increase our overall readiness and 
enhance our ability to support our Reserve Citizen Airmen by 
streamlining our internal processes and eliminating requirements, 
policies, and programs which either detract from or do not contribute 
to our readiness or provide support to our personnel.
    In fiscal year 2019, we completed a major reform of our internal 
medical process, and took action to fix hindrances that needed to be 
remedied, including a policy which placed unnecessary participation 
restrictions on individuals with medical profiles.
    We are currently accelerating and expanding our internal reform 
efforts. We identified additional areas within our organization that 
require enhancement and are working to improve the most critical of 
these. One of several of these initiatives is the holistic reform of 
our manpower and personnel programs and processes. We are also 
identifying processes which create problems for our Airmen, such as pay 
and benefits issues.
    As part of this enterprise-wide initiative, the Air Force Reserve's 
Force Generation Center is presently improving our mobilization and 
deployment processes through automation and system upgrades. This will 
expedite orders approval, enabling Airmen to receive benefits earlier 
in the process and reducing gaps in support. These improvements will 
alleviate problems caused by our lengthy current process, helping our 
personnel, their family members, and their civilian employers' better 
plan and prepare for deployments.
    In addition to our own internal efforts, we participate in 
Department of the Air Force development and reform initiatives, 
including the Air Force War Fighting Integration Capability team. We 
also support and will benefit from the Department of the Air Force's 
ongoing predictive maintenance efforts and are working to acquire 
additive manufacturing capability. To date, four Air Force Reserve 
wings purchased equipment required to manufacture parts in house, which 
are currently being used for training and familiarization. These two 
initiatives will decrease aircraft repair time, ultimately improving 
mission capable and aircraft availability rates.
Exercise Planning
    Operating in contested airspace requires both modernized aircraft 
and trained aircrew. We must ensure all Reserve Citizen Airmen receive 
realistic training and are fully capable of employing the systems which 
will be required in the future operating environment.
    We are building Integrated Mission Planning Cells into our 
operational support squadrons. This will provide a standardized, 
transparent, and equitable exercise planning process for our units. The 
addition of dedicated mission planners will allow our wings to match 
resources and requirements with training opportunities, enabling 
deliberate and properly prioritized use of our centrally managed 
training funds.
    These mission planners will be fully integrated into all phases of 
the exercise planning process, which will ensure learning objectives 
and training requirements are met. Training for joint all- domain and 
contested environment operations will require scheduled access to 
secure networks, as well as software and hardware management. 
Therefore, our operational support squadrons will employ dedicated 
datalink managers. This will ensure our aircrew are proficient on the 
newest systems and receive critical high-end readiness training.
            providing excellent care to airmen and families
    Our Airmen are our greatest asset. They are ultimately responsible 
for maintaining our readiness, aligning our organization to meet future 
requirements, and executing our operational missions. Their success 
depends on our support. The Air Force Reserve is absolutely committed 
to providing excellent care to both our Airmen and their families. This 
mandates a holistic approach, and we continually seek ways to better 
support our personnel and enable their personal and professional 
success. We currently have numerous personnel support initiatives, 
including reducing the administrative burden on our Airmen, improving 
education and training, growing our resiliency programs, and providing 
our Airmen and their families with access to needed resources. Our 
ultimate goals are to improve the quality of life for our personnel and 
to foster an environment where people want to stay and serve.
Suicide Prevention
    Recently, the Air Force Reserve has experienced an alarming spike 
in member suicides. Our rates are not going in the desired direction. 
Losing even one Airman to suicide is a horrible tragedy, with every 
life having its own deeply personal story.
    In response to this heartbreaking trend, we expanded upon our 
existing support programs and are adding new leadership tools to assist 
with suicide prevention and intervention. Suicide is a complex 
interaction of factors; while there is no one ``fix,'' we are committed 
to addressing suicide comprehensively. We are conducting thorough 
analyses of potential common socio-demographic factors, such as age, 
race, relationships status, and financial security, among individuals 
who die by suicide, in order to develop algorithmic methods and 
integrated databases to identify at-risk Airmen.
    Although the Air Force has found no direct link between deployments 
and member suicide, all personnel receive mental health screenings 
before, during, and after deployment and as part of their annual health 
assessment. These screenings assess suicide risk along with other 
behavioral and mental health issues. We conduct Suicide Analysis 
Boards, modeled after safety investigation boards, to identify the 
causes and contributing factors behind member suicides.
    Our intent is to create protective policies and programs which will 
reverse this trend and bring our suicide rate to the only acceptable 
number: zero.
Personal Resiliency
    The personal wellness of our Airmen and their families is 
incredibly important. The Air Force Reserve has multiple on base 
entities which provide support and resources to our personnel. We 
employ dedicated Sexual Assault Response Coordinators in all wings and 
Violence Prevention Integrators on all nine Air Force Reserve host 
installations and at Fort Worth Naval Air Station Joint Reserve Base, 
where we are the lead Air Force wing. Furthermore, we embedded full-
time Religious Support Teams within our units.
    Last summer, we initiated a mental health and suicide prevention 
outreach and awareness campaign. We also directed all our units to 
conduct a resiliency tactical pause, which will be an ongoing effort to 
enhance connectedness among our personnel. Many of our wings and our 
members took an active role in these efforts, increasing their 
effectiveness and impact.
    In addition, the Air Force Reserve promotes and provides mental 
health resources as part of the Yellow Ribbon Reintegration program. 
This initiative supports Reservists and their family members through 
pre- and post-deployment events. This program has seen an overwhelming 
success, with over 97 percent of attendees finding the events 
beneficial.
                                summary
    Over the past 2 years, the Air Force Reserve made significant gains 
in readiness. We enhanced our mission capabilities, bolstered our full 
time manning levels, and increased our organizational efficiencies. We 
carefully constructed our fiscal year 2021 budget request to accelerate 
these efforts. This request will facilitate further modernization of 
our weapon systems, better posture our force to meet emerging and 
evolving mission requirements, and boost our ability to support our 
Airmen and their families. We will continue our diligent efforts to 
meet the intent of the National Defense Strategy, increase our 
interoperability within the Total Force, and further our integration 
within the Joint Force.
    Our recent readiness gains would not have been possible without 
your support. The approval of our fiscal year 2019 and 2020 budget 
requests enabled us to improve our readiness while maintaining robust 
support to global operations. Recent legislative actions, such as 
Direct Hiring Authority, removed barriers to success and improved the 
quality of life for our Citizen Airmen. The future operational 
environment will require a capable, modern, and combat-ready force. 
With your continued support, we are confident the Air Force Reserve 
will remain prepared to fly, fight, and win across the operational 
spectrum of air, space, and cyberspace.

    Senator Shelby. Vice Admiral Luke McCollum.
STATEMENT OF VICE ADMIRAL LUKE M. MCCOLLUM, CHIEF, NAVY 
            RESERVE
    Admiral McCollum. Good morning, sir, and Vice Chairman. 
Thanks for the opportunity to be here and I will state for the 
record, I will also submit the record. And in the spirit of 
brevity, I will just to get down to the point. One, thank you 
very much for your support. Our men and women deeply appreciate 
your conscious effort to deliver readiness and operational 
capability to the men and women of the United States Navy 
Reserve.
    And on behalf of the CNO (Chief of Naval Operations), being 
able to talk about it and advocate is a great honor. Also in 
that honor, behind me, is my wife Liana who represents families 
and how they providing enduring support for their deployed 
loved ones. Also behind me is my Force Master Chief of the Navy 
Reserve Chris Coates, who has been just a fantastic advocate 
for the men and women as we travel the world and understand 
what the issues are and we come back to advocate.
    In this budget, primarily three things that we are very 
proud and solicit your support on, and that one is 
predictability. Our Reserve Force is at their best when they 
are predictable with their employer, predictable with their 
military boss, and their families as it comes together. Second, 
as part of the larger Navy HR (Human Resources) transformation 
in the pay and personnel, we will deliver to our men and women 
an integrated pay and personnel system, and this budget pays 
for that.
    As far as equipment is concerned, for the record my 
submission of the National Guard Equipment Report prioritizes 
aviation recapitalization. And finally, the appreciation for 
child care is in the budget as well as our men and women own 
unusual hours when they go and drill on weekends, the advocacy 
for that.
    But just in closing, it has been an honor to travel and see 
the outstanding work our men and women do, how they combine 
their military skills, their civilian skills to deliver 
wherever our Nation asks them to go. And I look forward to your 
questions.
    [The statement follows:]
          Prepared Statement of Vice Admiral Luke M. McCollum
    Chairman Shelby, Vice Chairman Durbin, distinguished members of the 
Committee, it is my distinct pleasure to report to you today on the 
unparalleled talent and capabilities provided by the United States Navy 
Reserve. Today, the Ready Reserve Force consists of 59,641 Selected 
Reserve Sailors (including 10,153 Full Time Support members) 43,754 
Individual Ready Reserve members and 422 civilians. This Ready Reserve 
Force of over 100,000 deliver strategic depth and operational 
capability to the Navy and Marine Corps team and the Joint Force in 
times of peace and war. The Navy Reserve prides itself on being a 
ready, agile force that provides valuable, vital support to the Navy 
and the Nation.
    Your continued support of key enablers of the Navy Reserve is very 
much appreciated. Predictable Reserve Personnel Navy (RPN) funding is 
critical for the success of the Navy Reserve. Keeping this account 
funded at President's Budget (PB) enables the Reserve Component to 
execute its missions to the level of performance and professionalism 
expected of an integrated force multiplier.
    In the past, the Navy Reserve focused on providing Individual 
Augmentees (IAs) to backstop the Joint Force effort to counter violent 
extremists. Great Power Competition requirements dictate that the Navy 
Reserve will pivot from an IA model to a unit-centric model capable of 
rapidly deploying trained and ready forces. A comprehensive review is 
underway to ensure that force structure, resourcing, manning and 
mobilization processes are aligned with the National Defense Strategy 
(NDS) to meet the Great Power Competition.
                           navy reserve force
Commander, Navy Reserve Forces Command (CNRFC)
    CNRFC operates six regional headquarters and 123 Navy Operational 
Support Centers (NOSCs), located in all 50 States, Puerto Rico, and 
Guam. NOSCs are the readiness generation centers of the Navy Reserve 
that provide administrative, training and readiness support to 
Reservists. Additionally, NOSCs are the face of the Navy in many parts 
of America where access to naval units is minimal compared to fleet 
concentration areas such as San Diego and Norfolk. The NOSC is a vital 
resource to the Navy that enables access to industry, academia and 
associations that support the Navy while also completing a vital 
recruitment mission. NOSCs also provide valuable support to veteran 
Sailors and fulfill the solemn duty of paying final tribute to Service 
members who have faithfully defended the Nation by providing funeral 
honors. Their strategic value to the Navy Reserve cannot be overstated 
due to the crucial role they play in supporting Reserve Sailors, 
Veterans and their families.
Commander, Naval Air Forces Reserve (CNAFR)
    CNAFR is composed of one Naval Air Facility, two Joint Reserve 
Bases one air logistics scheduling agency and three air wings. Fleet 
Logistics Support Wing and Tactical Support Wing both reside at Naval 
Air Station-Joint Reserve Base Fort Worth, while Maritime Support Wing 
is headquartered at Naval Air Station North Island, CA. The three air 
wings consist of 21 squadrons with 167 aircraft assigned. In addition 
to these standalone commands, the Navy Reserve operates 26 Squadron 
Augment Units and four fleet support units which directly support 
various AC Navy squadrons around the country including the Navy's 
newest, carrier-based platforms, the CMV-22B Osprey and F-35C 
Lightning. The valued skill sets of over 8,000 aviation professionals 
in the Navy Reserve are critical to aviation readiness and safety. An 
added benefit to the Total Force is that many of these highly skilled 
professionals perform a similar role in a civilian capacity, bolstering 
the Navy's strength through their vast knowledge and experience.
    A key component of the Navy's ability to operate forward is 
proficient and well-trained Naval Aviators. During a time when pilot 
production is a high priority, Reserve Component Aviators provide 
CNATRA critical support in all phases of Navy, Marine Corps and Coast 
Guard undergraduate flight training. In 2019, skilled instructors 
within the CNATRA Reserve Component Command continued to provide 20 
percent of the total student production across five Training Air Wings, 
contributing more than 53,000 flight hours and almost 27,000 student 
events.
Commander, Naval Information Force Reserve (CNIFR)
    CNIFR, based in Fort Worth, TX, is the executive agent for nine 
Joint Reserve Intelligence Centers (JRICs) located throughout the 
country. In partnership with the Defense Intelligence Agency Joint 
Reserve Intelligence Program, these facilities provide fully capable 
intelligence and cyber warfare centers enabling wartime readiness 
through training and operations, and real-time intelligence support to 
Combatant Commands, Combat Support Agencies, the intelligence 
community, and Navy fleets. There are a total of 28 JRICs located 
across the country, providing members of the Navy Reserve a ``train as 
you fight'' environment utilizing the same systems and tactics, 
techniques and procedures as the parent commands. For the last 17 
years, Reserve Component Information Warfare (IW) Sailors have provided 
approximately 80 percent of the total IW Individual Augmentation 
manpower, and continues to source 551 recurring IW mobilization 
requirements. This has been a critical mission in the fight against 
violent extremists requiring an enormous commitment by Reserve Sailors. 
Additionally, the Navy Reserve is poised to support space operations. 
Today, the Reserve Space Cadre contains approximately 125 qualified 
officers focused on space operations and acquisition, enhanced 
warfighting capabilities, and integration of space knowledge into fleet 
operations.
Navy Expeditionary Combat Command (NECC)
    Headquartered at Joint Expeditionary Base Little Creek-Fort Story, 
Virginia, NECC is comprised of Coastal Riverine and Naval Construction 
Forces; Explosive Ordinance Disposal, Diving and Salvage Units; and 
expeditionary units providing logistics capabilities. Currently, NECC 
is manned with more than 8,000 Sailors, 50 percent of which are Reserve 
Component Sailors working alongside their Active Component counterparts 
in the Navy and Joint Force to provide invaluable expertise based on 
prior service experiences. NECC Forces execute full spectrum military 
operations to shape the battlefield environment, provide humanitarian 
assistance and disaster relief, and conduct major combat operations.
                               personnel
Civilian Skills
    The specialized skillsets that Navy Reserve Sailors possess make it 
an indispensable force multiplier that is leveraged on a daily basis in 
support of Navy and Marine Corps missions. In order to capitalize on 
the individual expertise of Reserve Sailors, the Navy Reserve has 
embarked on an initiative to enroll Selected Reservists in a Reserve 
Civilian Skills Database. To date, over 12,000 Selected Reservists have 
voluntarily reported their unique civilian skills and certifications. 
Capturing these skills enables the Navy to leverage the maturity and 
diversity of Reserve Sailors. Recent examples include Data Science, 
Science and Technology Researchers and Additive Manufacturing.
    The Navy Reserve is also an integrated force provider that extends 
the unique skillsets of Reserve Sailors to provide medical and 
religious services to the Marine Corps, which has proven to be a combat 
capable and cost effective model.
Mobilization
    On any given day, roughly 20 percent of the Selected Reserve 
Component is operational, delivering critical support to our forces 
around the globe. The Navy continues to mobilize thousands of 
Reservists to fill un-serviced requirements of the Combatant 
Commanders. In 2019, Reserve Sailors provided nearly three million man-
days of support to Navy missions worldwide, to include nearly 3,000 
individual mobilizations. Since 2001, 65,349 Navy Reserve Sailors have 
executed more than 87,000 mobilizations. These Sailors support 
Combatant Commands around the globe, and add to the broad and diverse 
set of operational support missions the Navy Reserve executes on a 
daily basis, including, but not limited to, Expeditionary Warfare, 
Naval Air Warfare, Naval Special Warfare, Fleet Air Logistics, Cyber 
Warfare, Unmanned Aerial Vehicles, Strategic Sealift and Shipyard 
Maintenance. The high utilization of Reserve Sailors to fill gaps in 
the Joint Force comes at a high readiness cost to operational plans 
(OPLANS). While mobilized as IAs, Sailors are unavailable to their 
active commands and are deferred from further mobilizations during 
their ``dwell'' period after returning. Cumulatively, this takes a 
significant toll on the Navy Reserve's overall OPLAN readiness. As 
such, the Navy Reserve continues its effort to comply with current (and 
past) Chief of Naval Operations' (CNO) guidance of moving away from IAs 
in order to support OPLAN readiness.
Distributed Mobilization (DM)
    The Reserve Component's ability to rapidly mobilize the entire 
force during a large-scale contingency will be critical to mission 
success. Meeting the logistic and administrative demands of a large 
activation requires a process change that is different from the current 
model which is centered on a single mobilization site. The Navy Reserve 
is now implementing a Distributed Mobilization model that will leverage 
multiple existing processing sites to meet mobilization requirements 
more effectively. Accelerating and expanding mobilization capacity will 
align the Navy Reserve with the current Total Force modernization 
effort in support of GPC.
Individual Ready Reserve (IRR) Management
    There are approximately 43,754 Sailors that make up the Individual 
Ready Reserve. As a key component of strategic depth, the IRR consists 
of trained Sailors who are fulfilling their minimum service requirement 
in an unpaid status. The Navy Reserve is developing a tiered readiness 
model that better tracks unique skills to make it easier to quickly 
employ IRR Sailors where they are needed most. Efforts to further 
cultivate strategic depth will support a focused engagement plan to 
deliver robust processes in support of seamless Reserve Component to 
Active Component transitions and mobilizations.
Reserve Incentive Programs
    The Navy Reserve uses special incentive pays and bonuses to recruit 
and retain Sailors in hard-to-fill specialties while maintaining the 
right balance of seniority, skills and experience to meet the Navy's 
mission today and in the future. The Navy Reserve is grateful for the 
current bonus structure that provided $31 million in fiscal year 2020 
toward Reserve incentive programs to mitigate manning shortfalls in 
specific skill sets and paygrades. Your continued congressional support 
of RPN funding in PB21 is necessary to ensure the Navy Reserve 
continues to recruit, onboard, train, qualify, promote and retain the 
RIGHT Reserve Sailors to fill critical war-fighting capability gaps.
Personnel and Pay Transformation
    There are many examples of Reserve Sailors experiencing delayed or 
inaccurate pay as a result of outdated and ineffective systems. This 
directly impacts the readiness of the force and puts unnecessary stress 
on Reserve Sailors and families. As part of MyNavy HR Transformation, 
the development of Navy Personnel & Pay (NP2) will provide a modern, 
cloud- based, Commercial-Off-The-Shelf solution that combines personnel 
and pay functions into one consolidated and seamless system that 
improves user interface and maximizes Sailor self-service across the 
Active and Reserve Components. The initial NP2 capability, will allow 
seamless transition of Navy Reserve Sailors to active duty without 
delays in establishing pay accounts, which is key to AC/RC permeability 
and the ability to smoothly perform mobilizations within the timelines 
established by Combatant Commanders. This is an urgent need and is a 
topic on the minds of Navy Reserve Sailors. The Navy Reserve encourages 
full support of the PB21 request for NP2, which will enable the RC to 
leverage modern technology to meet the expectations of a millennial 
workforce, promote seamless AC/RC permeability, and address Reserve 
Sailor pay concerns.
                               equipment
Reserve Maritime Capabilities: P-3 to P-8
    For the third year in a row, the P-8A is the top equipment priority 
of the Navy Reserve. Currently the RC operates the P-3C in 
Jacksonville, FL at Patrol Squadron 62 (VP-62) and in Whidbey Island, 
Washington at VP-69. These squadrons provide strategic depth for the AC 
Maritime Patrol Reconnaissance Force through the planned P-3C sundown 
in 2023. The replacement aircraft to the P-3C, the P-8A Poseidon, a 
militarized version of Boeing's 737 jetliner, provides broad area, full 
spectrum, anti-submarine warfare, armed anti-surface warfare, and 
networked maritime Intelligence Surveillance and Reconnaissance 
capabilities. Last year, congressional support of CNO's unfunded 
priorities list provided P-8As for the Navy Reserve, which will 
facilitate the transition of VP-62 at Naval Air Station Jacksonville in 
fiscal year 23.
Navy Logistics: C-130 and C-40
    Since World War II, the Navy has relied on aviation combat 
logistics to enable the forward leaning and expeditionary posture 
exclusive to naval operations. Operated entirely by the Navy Reserve, 
Navy Unique Fleet Essential Airlift (NUFEA) is made up of 25 C/KC-130T 
and 17 C-40A aircraft and remains the Navy's only source of organic 
intra-theater air logistics. Last year, fleet logistics (VR) flew 
22,707 flight hours and transported 111,625 passengers and 22.2 million 
pounds of cargo in support of Navy and Department of Defense (DoD). 
This was done at a cost avoidance of nearly $1.0B per year compared to 
alternative means of transportation.
    The C/KC-130T Hercules is a medium lift aircraft used for cargo and 
personnel a transport with an ability to operate from unprepared 
airfields. It is the Navy's only transport aircraft capable of moving 
oversized cargo (fully-intact F-35 engines, AMRAAM and Harpoon 
missiles, submarine masts, etc.). Currently there are five Reserve C/
KC-130 squadrons with 25 aircraft. The Navy Reserve will continue to 
upgrade these legacy airframes via the ongoing Avionics Obsolescence 
Upgrade program, NP2000 propellers, and engine performance 
improvements. Until recapitalization is possible, efforts will focus on 
sustainment and readiness, which are critical to preserving the Navy 
Unique Fleet Essential Airlift requirement. Ultimately, a transition 
from the aging C/KC-130T to the C-130J is necessary to ensure 
interoperability and capitalize on the existing supply chain for these 
more modern aircraft.
    The Navy C-40A Clipper provides the Fleet with on-demand, medium 
cargo airlift capability to rapidly support ongoing naval operations as 
a critical intra-theater logistics connector. Six squadrons with 17 
aircraft provide transportation of items critical to forward- deployed 
naval operations, to include vital parts and personnel, and unique 
support for Naval Special Warfare, often at short notice, around the 
clock. The Navy Reserve successfully completed the transition from the 
C-9B Skytrains to the C-40A Clipper last year when VR-51 on Oahu, 
Hawaii, received its final two aircraft. These aircraft provide greater 
airlift capacity in the INDO-PACOM area of responsibility and are a 
critical asset in Great Power Competition.
Attack Fighter Aircraft
    Within the next decade, most of the Navy Reserve's adversary 
aircraft will reach the end of their service life. In fiscal year 2019, 
Active Component F/A-18 E/F Super Hornets flew 18,000 hours of 
adversary support and added costly flight hours on inventory-limited 
fleet aircraft. Increasing Navy Reserve capacity and capability to 
support Navy adversary requirements will improve warfighting strike 
fighter service life.
    The Navy Reserve operates legacy F/A-18C in two squadrons, VFA-204 
in New Orleans and VFC-12 in Oceana, Virginia. These aircraft are some 
of the oldest in operation and are not interoperable with AC squadrons 
who are operating F/A-18E Super Hornets and the F-35C Joint Strike 
Fighter. The Navy's current Master Aviation Plan shows an RC transition 
from the F/A- 18C to the F/A-18E in 2024-2025. Recapitalizing these 
jets will help maintain a strategic reserve and a more robust, threat-
representative adversary capability. Continued focus on this transition 
is necessary to enhance lethality and preserve the operational and 
strategic value of these Reserve squadrons.
                     resiliency and quality of life
    The Navy and the Nation asks a great deal from Reserve sailors and 
their families; and, therefore, remains committed to providing the best 
support before, during and after their service. Unlike their active 
duty counterparts, Navy Reserve Sailors find themselves in the unique 
position of having to balance their civilian jobs, military obligations 
and families. Predictability is critical in enabling Reserve Sailors to 
achieve this balance. The Navy Reserve is focused on delivering 
programs that improve resiliency and quality of life for Sailors and 
families.
Suicide Prevention
    The Navy Reserve is committed to building command climates that 
increase awareness and support the mental health of Sailors. The Navy 
Reserve is actively engaged in Cross Functional Teams charged with 
suicide prevention efforts and to assist with the implementation of the 
Defense Strategy on Suicide Prevention. The way ahead is focused on 
resilience-building tools such as a commander's mitigation dashboard, 
which will be used along with the numerous resources provided by the 
21st Century Sailor Office.
Psychological Health Outreach Program (PHOP)
    The Psychological Health Outreach Program was established in 2008 
to ensure that Reserve Sailors and their family members have full 
access to appropriate psychological healthcare services to increase 
resilience and facilitate recovery. PHOP currently has 29 locations 
within the continental United States, one in Puerto Rico and one in 
Hawaii. PHOP covers a broad range of topics to include psychological 
health assessment, surveillance, resilience education as well as legal, 
financial and medical training. In 2019, PHOP trained and educated 
33,000 Reserve Sailors and supported 8,128 service member referrals.
Yellow Ribbon Reintegration Initiative Program (YRRP)
    The Yellow Ribbon Reintegration Program is a Department of Defense-
wide effort to promote the well-being of National Guard and Reserve 
members, their families and their communities, by connecting them with 
resources throughout the deployment cycle. The theme for fiscal year-20 
events is ``Families, Our Home Front Warriors''. It will focus on 
providing more flexible program policy decisions and additional 
advertising campaigns will be implemented to increase attendance at 
Navy Returning Warrior Workshops (RWW). The RWWs use presentations and 
group sessions to provide insight into how Sailors and family members 
can be successful in reintegration with family, friends and careers 
following deployments. The Navy Reserve will continue to support 
Sailors and their families throughout all facets of their service.
                         information technology
Cloud Computing, Mobility Innovations and Digital Capabilities
    Navy Reserve strategy for Enterprise information technology (IT) 
provides world-wide access to critical Navy and IT business systems for 
approximately 60,000 geographically dispersed Selected Reservists. The 
IT strategy improves efficiency and lethality through three core 
technological advances: Cloud Computing, Mobility Innovations and 
Digital Capabilities. Emphasis on access and mobility made it possible 
for RC Sailors to use their personal devices to access secure, 
encrypted email via the Ready-2-Serve (R2S) mobile website application. 
The ability to have remote access is essential for Reserve Sailors who 
are geographically dispersed and lack permanent location to access to 
Navy computer systems. IT initiatives have enabled business practice 
modernization that better aligns to fleet and warfighting by sustaining 
communications and IT capabilities across the Navy Reserve Force.
                    operational maintenance support
Shipbuilding and Surge Maintenance
    The Engineering Duty Officer and Naval Sea Systems Command Reserve 
Component (EDO/NAVSEA RC) is a fully integrated, mission ready force of 
472 Officers and 2,011 Enlisted Sailors spread across 91 units. This 
responsive and transformative engineering force provides leadership and 
advanced skillsets that support the delivery of ships and systems on-
time and on-cost for the United States Navy. In fiscal year 2019, the 
EDO/NAVSEA RC contributed an unprecedented 68,066 days of operational 
support (12,000 days more than fiscal year 2018) and 2,553 days of 
Engineering Duty Officer Qualification training. Today, there are more 
than 100 EDO/NAVSEA Sailors on active duty supporting Navy shipbuilding 
and surge maintenance operations around the world.
    Last year, SURGEMAIN executed 17,064 days of in support of all four 
Navy shipyards [Norfolk Naval Shipyard, Pearl Harbor Naval Shipyard, 
Portsmouth Naval Shipyard and Puget Sound Naval Shipyard]. EDO/NAVSEA 
Sailors continue to fill critical roles supporting technical efforts in 
advance of the construction of COLUMBIA-class submarines, trouble 
shooting and system testing the USS GERALD R. FORD (CVN-78) and as part 
of the Shipyard Infrastructure Optimization Plan. Additionally, the 
NAVSEA SURGEMAIN Reserve Force team `surged' over 30 Sailors to USS 
DWIGHT D. EISENHOWER (CVN-69) resulting in the delivery of another 
carrier on-time from a maintenance availability at Norfolk Naval 
Shipyard.
Navy Reserve Activity Infrastructure
    The average age of Reserve facilities is 43 years and over 20 
percent are designated substandard. A lack of sufficient sustainment, 
restoration and modernization funding has a compound effect on 
infrastructure over time and, in turn, has a profound impact on the 
readiness of the Reserve Force. Both Operations and Maintenance Navy 
Reserve (OMNR) funding and Military Construction (MILCON) funding is 
critical to support Reserve structures that enable the readiness of 
Reserve Sailors. Your continued support of Reserve infrastructure 
funding through consistent investments in Reserve MILCON and OMNR will 
greatly improve infrastructure readiness.
                               conclusion
    The Navy Reserve remains a committed, resilient force delivering 
strategic depth and unique capabilities to the Joint Force. As such, 
Reserve Sailors stand ready to answer the Nation's call by filling 
vital, strategic roles to ensure the Total Force can meet the 
challenges of the Great Power Competition. Looking ahead, it is clear 
that modernization will be vital for seamless integration of the Navy 
Reserve Force with the Total Force of the future.
    Serving the men and women of the United States Navy Reserve Force 
has been the honor of my lifetime. As I travelled and met the Sailors 
of the Navy Reserve Force, I personally witnessed the commitment to the 
mission and to each other as they serve tirelessly wherever the Nation 
asked them to go. I am truly humbled by their service and that of their 
families. Thank you for your steadfast support of Navy Reserve Sailors, 
their families, and their employers. Your continued support is 
essential to preserve the lethality of the Reserve Force and to ensure 
the Navy Reserve operates seamlessly as part of the Total Force.

    Senator Shelby. Thank you. Next, we have Lieutenant General 
David Bellon, Commander of the Marine Corps Forces Reserve. 
General.
STATEMENT OF LIEUTENANT GENERAL DAVID G. BELLON, 
            COMMANDER, MARINE CORPS FORCES RESERVE
    General Bellon. Chairman Shelby, Ranking Member Durbin, and 
distinguished members of the subcommittee, I also will submit 
my opening statement for the record and summarize.
    Senator Shelby. Without objection, it is so ordered.
    General Bellon. Sir, on behalf of the Commandant of the 
Marine Corps, it is a great pleasure to be here today. I want 
to thank you and the subcommittee for all the resources you 
provide, and I think if I had anything to impart for my opening 
statement it would be this, that your Marine Corps Reserve is 
in exceptional shape.
    Right now we are at 99 percent of our requirement for 
staffing, and of that Force, 25 percent function every drill 
weekend and every annual training and respond to crisis. They 
are not under contract, and by that I mean they have actually 
served through their original contract and they would like to 
continue to serve every month voluntarily. That reflects the 
leadership of your Marine Corps Reserves. Thank officers, 
enlisted staff, and CNO noncommissioned officers.
    In the past year, we had a 20 percent increase of deployed 
Forces from your Reserve. So typically we amount for about 5 
percent of the Marine Corps budget and this year we represented 
11 percent of the total Marine Forces forward-deployed. So in 
this era of fiscal austerity, it is my way of communicating to 
you that we try to be very good shepherds of the resources you 
provide and deliver the combat power you need.
    In the coming years, obviously, there is going to be a 
significant evolution of the Marine Corps Reserve as part of 
the Total Force, and we go about that with a happy heart. It is 
threat informed and we are conscious of the budget, and we are 
very mindful of the resources you continue to provide us and we 
are thankful.
    [The statement follows:]
        Prepared Statement of Lieutenant General David G. Bellon
    Chairman Shelby, Ranking Member Durbin, and distinguished members 
of the Subcommittee, it is my privilege to appear before you and 
provide an overview on the current state of the Marine Corps Reserve.
    The United States Marine Corps Reserve stands ready to augment, 
reinforce, and sustain the Active Component by providing forces for 
employment across the full spectrum of crisis and global engagement. 
Over the last year, we have been engaged around the world in theater 
security cooperation activities and operations, serving side-by-side 
with our Active Component, and have made tremendous contributions in 
support of every geographic Combatant Commander. While the Marine Corps 
Reserve is supporting current service and Combatant Command 
requirements, we are also participating in the service's efforts to 
redesign our force and our warfighting capabilities to deter against 
pacing threats as prescribed by the National Defense Strategy.
    I am deeply impressed by the professionalism, competence, and 
dedication of our Reserve Marines. Like their Active Component 
counterparts, they serve selflessly to protect our great Nation. I am 
inspired by the way they balance family responsibilities, civilian 
careers, and military service. They do so with humility, without 
fanfare, and with a sense of pride and dedication that is consistent 
with the great sacrifices of Marines from every generation. Without a 
doubt, the success of the Marine Corps hinges on the quality of our 
Marines.
                             a total force
    As an integral part of the Total Force, the Marine Corps Reserve 
plays a key role in providing that national security force in 
readiness. Over the past year, the Marine Corps Reserve supported 
Combatant Commanders by providing forces focused on combat operations, 
crisis prevention, crisis response, and theater security cooperation. 
Global deployments, along with
    participation in Service, Joint, and multi-national exercises, 
develop the depth of experience of the Reserve Force, ensuring the 
Marine Corps Reserve is relevant, ready, and responsive to meet 
Combatant Commanders' requirements.
    On average in 2019, the Marine Corps Reserve provided approximately 
11 percent of the Total Force's forward deployed forces for 
approximately 5 percent of the Marine Corps' budget. In 2019, 2,624 
Reserve Marines mobilized supporting 45 operational requirements in 
each of the six geographic Combatant Commands. This is approximately a 
19 percent increase in personnel deployed and 22 percent increase in 
operational requirements compared to 2018. Likewise, 9,944 Reservists 
participated in 43 training exercises, supporting requirements in 21 
countries across the globe. The Marine Corps Reserve filled 59 percent 
of the total service individual augment requirements. We continue to 
meet the increased demand for use as an operational reserve, though 
this has begun to challenge readiness to meet strategic requirements.
    In 2020, the Marine Corps Reserve will continue to support the 
Combatant Commanders by mobilizing in excess of 800 Reservists 
supporting approximately 27 formations. Over the course of 2020, more 
than 8,000 Marines will support theater-specific exercises, security 
cooperation events, and ``standing'' operations across every Combatant 
Command. These operations and exercises greatly increase the Reserve 
Component's interoperability with the Active Component, Joint Forces, 
our allies, and coalition partners.
    The Marine Corps Reserve continues to provide daily support to 
Combatant Commanders in a wide range of roles that include multi-
national exercises, such as Dynamic Front 20 in Latvia, New Horizons 20 
in South America, and Maple Resolve 20 in Canada. I anticipate the 
Marine Corps Reserve will continue to deploy across the globe and to 
integrate with the Active Component in support of high-priority 
Combatant Commander requirements for the foreseeable future. In 2019, 
23 of the 45 formations activated were deployed to the CENTCOM AOR and 
in 2020, the Marine Corps Reserve will activate an additional eight 
Reserve formations that will deploy to the CENTCOM AOR. In 2020, the 
Marine Corps Reserve has also continued to deploy reconnaissance, 
assault amphibian, and combat engineer units to the Indo-Pacific Area 
of Responsibility in support of III Marine Expeditionary Force's 
requirements in Okinawa, Japan.
    In addition, the Marine Corps Reserve has recently increased its 
participation in the Department of Defense's Innovative Readiness 
Training (IRT) program. This program provides military training 
opportunity, exclusive to the United States and its territories, which 
delivers joint training opportunities to increase deployment readiness. 
Simultaneously, IRT provides key services (healthcare, construction, 
transportation, and cybersecurity) with lasting benefits for our 
American communities. The IRT program has allowed our units to increase 
deployment readiness by training to mission essential tasks, while also 
training with their counterparts from different services and making 
tangible, meaningful impacts in their communities. Utilizing $1 million 
from the Marine Corps and $780,000 from the Office of the Secretary of 
Defense (OSD), the Marine Corps Reserve supported 7 exercises, a 50 
percent increase from 2018. Examples include diverse construction-
training that supported the Girl Scouts at Camp Paumalu, Hawaii; 
relocating the Village of Newtok, Alaska; and repairing a remote 
airfield in California. With your continued support of these efforts, 
we look to expand to 12 exercises that will include construction, 
medical, and cybersecurity efforts.
    In addition to participating in operational requirements across the 
globe, the Marine Corps Reserve supports the Total Force by dutifully 
executing the sensitive and crucial mission of providing casualty 
assistance to the families of our fallen Marines. There is no 
responsibility that we treat with higher regard than the solemn mission 
of providing casualty assistance. Inspector-Instructor and Reserve Site 
Support Staffs are geographically positioned to accomplish the vast 
majority of Marine Corps casualty assistance calls and are trained to 
provide compassionate and thorough assistance to families. Indeed, the 
majority of Marine Corps casualty notifications and follow-on 
assistance calls to the next of kin are made by our Marines. During 
Calendar Year (CY) 2019, our Inspector-Instructor and Reserve Site 
Support staffs performed 95 percent of the casualty calls performed by 
the Marine Corps.
    The professionalism and compassion of our Casualty Assistance Calls 
Officers (CACOs) continues well beyond the initial notification. We 
ensure that our CACOs are well trained, equipped, and supported by all 
levels of command through the combination of in-person and online 
training. Once assigned, the CACO serves as the family's central point 
of contact and coordinates with funeral homes, government agencies, and 
other organizations. They assist family members with planning the 
return and final resting place of their Marine and ensure the filing of 
appropriate documents so families receive all benefits they are 
entitled. In many cases, our CACOs provide a long-lasting bridge 
between the Marine Corps and the grieving family.
    Additionally, the Marine Corps Reserve units and personnel provide 
significant support in the form of military funeral honors for our 
veterans. The Marine Corps Reserve performed 20,416 military funeral 
honors which represented 93 percent of all funeral honors rendered by 
the Marine Corps during 2019. As with casualty assistance, we place 
enormous emphasis on providing timely, compassionate, and 
professionally executed military funeral honors. Although this comes 
with a cost to readiness, some Marine Corps Reserve units are executing 
in excess of 500 funerals per year.
    Finally, the Marine Corps Reserve functions as the greatest link 
between the Marine Corps and communities across the Nation. We are the 
face of the Marine Corps to the majority of the American public. With 
Reserve units located across the country, the Marine Corps Reserve is 
uniquely positioned to interact with the American public and 
communicate the Marine Corps story to our fellow citizens; most of whom 
have little or no contact with the Marine Corps. Last year, Marine 
Corps Reserve personnel and units conducted more than 500 local and 
regional public engagement and community relations events across the 
country.
                               personnel
    Marines, Sailors, and our civilian Marines are the foundation of 
all that we do. The resources we dedicate to sustaining and developing 
this foundation directly contributes to the success of our institution. 
The vast majority of the Marine Corps Selected Reserve's authorized end 
strength of 38,500 falls under the Marine Corps Reserve. The Selected 
Reserve is composed of Marines in four categories: Selected Marine 
Corps Reserve Units, Active Reserve, Individual Mobilization 
Augmentees, and service members in initial training. Embedded with 
these Marines are 1,641 Active and Reserve component Sailors who serve 
critical roles in the operational, medical, dental, and spiritual 
readiness of our Reserve Force. The success of the Marine Corps Reserve 
would not be possible without continued support from the U.S. Navy.
    In addition to the Marines and Sailors of the Selected Reserve, the 
Marine Corps Reserve administratively controls approximately 61,000 
Marines who serve in the Individual Ready Reserve (IRR). The Marine 
Corps Reserve continues to monitor the mobilization viability of these 
IRR Marines through the use of muster events at multiple locations 
across the country. These muster events allow the Marine Corps Reserve 
to ensure these IRR Marines meet the requirements for mobilization. 
These events also provide the opportunity to address administrative 
issues, conduct mental health and post-deployment assessments, to 
review Reserve obligations and new opportunities, and to meet with 
Marine Corps recruiters. During the past year the Marine Corps Reserve 
conducted 25 muster events and met 5,667 IRR Marines. In addition to 
the musters, the Marine Corps Reserve contacted and screened 48,883 
Marines telephonically.
    The Marine Corps Reserve strives to retain the very best Marines 
capable of fulfilling our leadership and operational needs. Marines 
approaching the end of their current contracts, whether Active or 
Reserve Component, receive counseling on the tangible and intangible 
benefits of remaining associated with the Selected Reserve. We educate 
each transitioning Active Component Marine on opportunities for 
continued service in the Marine Corps Reserve through the Marine Corps' 
transition assistance and educational outreach programs.
    Recruiting, retaining, and properly aligning high quality Marines 
is essential to the Marine Corps' ability to answer the call as the 
Nation's Force in Readiness. Monetary incentive programs have proven to 
be critical enablers for the Marine Corps Reserve's high levels of 
affiliation, retention, and alignment. While incentives such as 
occupational specialty retraining and targeted bonus payments directly 
support retention, the authorization for inactive duty travel 
reimbursement of up to $500 of actual costs for Marines who are 
required travel in excess of 150 miles from their residence to their 
drill center has proven to be particularly beneficial in ensuring that 
the each Marine is assigned to an appropriate billet and filling a 
valid requirement. In fiscal year 2019, your support of incentive 
programs enabled us to maintain our end strength at 99.7 percent of 
total authorization, while ensuring over 87 percent of our Marines were 
serving in billets commensurate with their rank and Military 
Occupational Specialty. Going forward, I ask for your continued support 
of these incentives as they are vital to our ability to retain and most 
advantageously utilize the Corps' most precious asset--the individual 
Marine.
                               equipment
    Reserve Component units remain highly interoperable with their 
Active Component counterparts due to the Marine Corps' Total Force 
approach to equipment fielding and management. Reserve Component Forces 
are manned, trained, and equipped to standards that facilitate the 
seamless integrated employment of forces to meet Combatant Commander 
requirements. Our reserve units and personnel continue to be in high 
demand, with a similar number of exercises, missions, and operations 
scheduled this year, as executed last fiscal year.
    This high operational tempo places a stress on our ability to 
maintain our equipment and replenish our deficiencies, however. Most 
disconcerting is our individual combat equipment deficiencies, 
specifically ballistic protection and load-bearing equipment. In the 
event of a large- scale wartime mobilization, to include any sizable 
call-up of the Individual Ready Reserve, individual combat equipment 
deficiencies may become a strategic risk to mission.
    With regard to maintenance readiness, the Marine Corps Reserve has 
mitigated risk for many years in two ways. First, risk is mitigated by 
refining units' Training Allowances, which is that portion of a unit's 
full Table of Equipment located at Reserve Training Centers. Our goal 
is to balance the amount of equipment necessary to conduct training 
with the amount of equipment that can be maintained within personnel, 
facility, and fiscal constraints. Second, risk is mitigated by 
leveraging Overseas Contingency Operations (OCO) dollars to buy mobile 
maintenance support teams that augment the limited organic maintenance 
capacity. Congressional support for the Marine Corps Reserve fiscal 
year 2021 President's budget request within the National Defense 
Authorization Act, to include OCO, is paramount to our continued 
success in sustaining our equipment and maintenance readiness.
    Upcoming fielding of the Joint Light Tactical Vehicle (JLTV) and 
Amphibious Combat Vehicle (ACV) will provide the Reserve Component with 
the latest generation of combat equipment. Additionally, fielding of 
programs such as the Ground/Air Task Oriented Radar (G/ATOR) and the 
Ground Weapons Locating Radar (GWLR) will enhance our ability to fight 
and win on the modern battlefield. The top procurement priority of the 
Marine Corps Reserve is the KC-130J Super Hercules. The Marine Corps 
Reserve has been fielded 11 of 28 aircraft and will not be fully 
fielded until 2024. This extended fielding timeline forces the Reserve 
Component to simultaneously operate the KC-130J and the legacy KC-130T 
aircraft until 1st Quarter, fiscal year 2022.
    These two aircraft have vastly different logistics, maintenance, 
and aircrew requirements, resulting in an increased outlay of resources 
to maintain the readiness of the Reserve Component KC-130 Squadrons.
                                training
    Each year and typically in the summer, the Marine Corps Reserve 
participates in a number of training exercises both within the United 
States and overseas to improve combat readiness and enhance our ability 
rapidly activate and integrate with the Active Component. The service-
level Integrated Training Exercise (ITX) is conducted aboard Marine 
Corps Air-Ground Combat Center, Twentynine Palms, California. ITX 
improves combat readiness, efficiency in Total Force integration, and 
enables more rapid activation response times at the battalion and 
squadron level.
    The exercise consists of two infantry battalions conducting live-
fire and maneuver exercises, along with other elements of the Marine 
Air-Ground Task Force. This is one of the few opportunities that 
Reserve ground, aviation, and logistics combat elements, under the 
command of a regimental headquarters, are able to come together and 
synchronize all warfighting actions to operate as a Marine Air-Ground 
Task Force under live fire and maneuver conditions.
    The Reserves also took part in a CMC directed Force on Force (FoF) 
MAGTF Warfighting Exercise (MWX), the first of its kind, designed to 
challenge the MAGTF against a peer adversary in a free-play 
environment. Serving as a part of the Adversary Force (ADFOR) with 
Higher Command responsibilities, the Division employed a Scout Platoon 
from 4th Tanks that participated in Unit Level Training, Collective 
Training and MWS.
    Additionally in 2019 and in concert with Canadian Allies, Reserve 
Marines and Sailors participated in Sentinel Edge Vigilant Shield and 
conducted Expeditionary Advanced Base Operations (EABO) from Home 
Training Center (HTC) to Forward Operating Base (FOB) Cold Lake, AB to 
generate and sustain sorties. The exercise demonstrated Long Range 
Insertion of MV- 22s, employment of HIMARS Rapid Infiltration and 
expeditionary operations with fixed and rotary wing integration.
    To preserve fiscal and materiel resources, the Marine Corps Reserve 
uses training simulators wherever and whenever possible. Reserve units 
employ Indoor Simulated Marksmanship Trainers (ISMTs) to maintain 
combat marksmanship skills and to maximize the use of their most 
precious resource, time. The ISMTs enable onsite training and eliminate 
long distance travel to remote DoD areas. Additionally, units 
capitalize on non-traditional training methods such as online training 
to mitigate the limitation of 38 training days per fiscal year to 
complete mission essential tasks and all required DoD and Service 
annual training requirements.
    Expanding the use of simulators and online training enhances 
readiness and enables the Reserve Component to maximize limited 
training time during drill weekends.
                               facilities
    The Marine Corps Reserve occupies facilities in 47 States, the 
District of Columbia, and the Commonwealth of Puerto Rico. These 
facilities include 27 owned and 131 tenant Reserve Training Centers, 
three family housing sites, one permanent barracks, and one General 
Officer Quarters. Although some sites are located on major DoD 
installations, most are situated within civilian communities, ranging 
from neighborhoods to industrial and commercial districts. We continue 
to improve the maintenance and security of our facilities to ensure the 
safety of our Marines and Sailors and to provide an effective training 
and mobilization location.
    Fifty-seven percent of the facilities budget supports the 
sustainment and maintenance of existing infrastructure and day-to-day 
operating costs. We have improved the overall readiness of our 
facilities inventory through the Facilities Sustainment, Restoration 
and Modernization (FSRM) support program and maximized the impact of 
our budget through divestiture and demolition of excess footprint.
    The Marine Corps' Military Construction, Navy Reserve (MCNR) 
program focuses on providing construction for new and enduring 
capabilities, as well as recapitalization of our aging facilities. The 
construction provided by the annual authorization and appropriation of 
MCNR funding is an important factor in advancing our facilities support 
mission as we optimize our force laydown throughout the Nation. 
Continued support for our MCNR request is essential as we divest of 
failing infrastructure and modernize capabilities.
    Of most critical importance is the safety of our Marines and 
Sailors. We have ongoing efforts to improve overall force protection at 
all of our sites by working with our service partners and the National 
Guard for joint occupied facilities. Numerous protection assessments 
and security engineering reports have been conducted at our facilities 
to assist and develop designs to mitigate protection concerns, 
specifically physical security. These assessments identify requirements 
and serve to prioritize enhancements to improve facility security for 
our Marines and Sailors.
    The combined effects of our targeted consolidation, FSRM, and MCNR 
programs have steadily reduced the number of inadequate or substandard 
Reserve Training Centers and enabled better support to the Force. As 
our infrastructure ages, however, our operating costs have steadily 
increased. In addition, service level efforts to modernize our force 
and its infrastructure have also increased costs. Continued support to 
our annual funding request for our facilities program will enable us to 
improve the overall physical infrastructure that reinforces the 
operational readiness of our units.
                            health services
    The Marine Corps Reserve Health Service Support (HSS) ensures the 
health and wellness of the Reserve Marines and Sailors remains at the 
forefront. We continue to improve medical readiness through a robust 
Individual Medical Readiness (IMR) Program within the Marine Corps 
Reserve and by accurate monitoring, identification, and supervision of 
the unit-level actions necessary to attain readiness goals. 
Additionally, our Health Services personnel participate in Force 
Readiness Assistance & Assessment Program (FRAAP) inspections and 
audits which provide oversight at the unit level and the ability to 
monitor policy adherence and readiness.
    The Reserve Health Readiness Program (RHRP) greatly increased 
overall medical and dental readiness throughout the Force. This program 
provides support using contracted civilian medical and dental providers 
to work with units that do not have organic medical or dental support 
personnel or are not supported by a military treatment facility. During 
fiscal year 2019, the RHRP performed 17,769 Periodic Health Assessments 
(PHAs), 205 Post-Deployment Heath Re-Assessments (PDHRAs), 172 Pre-
Deployment Heath Assessment (PreDHA) Events, 260 Audiological 
examinations, and 366 Dental Events.
    Between deployments, our Health Services priority is to work toward 
achieving the DoD's goal of a 90 percent medically ready force. During 
fiscal year 2019, our individual medical and dental readiness rates 
were 77.6 percent and 86 percent, respectively. The Marine Corps 
Reserve units rely heavily on RHRP to maintain our medical and dental 
readiness. Continued support of this program is imperative for 
maintaining readiness.
                           behavioral health
    In addition to RHRP, the Marine Corps Reserve has implemented a 
robust behavioral health program, which includes Combat Operational 
Stress Control, Suicide Prevention, Substance Abuse Prevention and 
Family Advocacy programs. Operational Stress Control and Readiness 
(OSCAR) training continues to be conducted at all levels and is 
provided during pre-deployment training to service members deploying 
for more than 90 days and all commands in garrison. This training 
provides the requisite knowledge, skills, and tools needed to assist 
commanders in preventing, identifying, and managing combat and 
operational stress concerns as early as possible. Each of these tools 
support the commander in building unit strength, resilience, and 
readiness as well as keeping Marines in the fight.
    The Navy Bureau of Medicine and Surgery (BUMED) continues to 
support behavioral health through various independent contracted 
programs, such as the PDHRA and the Psychological Health Outreach 
Program (PHOP). The PDHRA places an emphasis on identifying physical, 
behavioral, and mental health concerns that may have emerged since 
returning from deployment. The PHOP addresses both post-deployment 
behavioral health concerns and crisis-related interventions by 
providing our Marines and Sailors access to local resources through a 
network of contracted behavioral health programs. These programs are 
critical to maintaining a resilient force by providing a pathway for 
Marines, Sailors, and families to seek behavioral health assistance.
    Signs of operational and combat stress may manifest long after a 
service member returns home from deployment. This delayed onset of 
symptoms presents unique challenges to Reserve Marines who may be 
detached from vital medical care and the daily support network inherent 
in active duty Marine Corps units. Encouraging Marines to recognize and 
communicate mental health issues is a pervasive challenge facing our 
commanders. We address the stigma associated with mental healthcare 
through key programs, such as the Yellow Ribbon Reintegration Program 
(YRRP) and OSCAR. Further, we market all of our behavioral health 
initiatives and programs through our Marine Corps Reserve portal 
website and during key Marine Corps forums throughout the year. Your 
continued support of our behavioral health programs is greatly 
appreciated.
    The Marine Corps Reserve Drug Demand Reduction Program (DDRP) 
continues to focus on reducing illegal drug use and prescription drug 
misuse within the Reserve community. The Marine Corps Reserve relies 
profoundly on its drug-testing program, which acts as a powerful 
deterrent against drug use. Each Reserve unit conducts monthly drug 
testing to screen our Reserve Marines for drugs as well as breathalyzer 
testing to screen for alcohol use while in a duty status.
    The DDRP staff provides quarterly and on demand education and 
awareness training on the dangers of misusing and abusing prescription 
drugs as well as information on the proper disposal of old, unused, and 
outdated medications. Additionally, the DDRP increases leaders' 
awareness on the dangers of abusing prescription drugs through annual 
substance abuse supervisory level training.
    We recognize that the factors contributing to suicide are numerous 
and complex. Risk factors can include depression, family history of 
suicide, and substance abuse. Common precipitating stressors include 
relationship challenges and legal, financial, and disciplinary 
problems. Typical warning signs may include talking about suicide and 
expressing hopelessness. We mitigate these factors using a multi-
dimensional and multi-level approach. Small unit leadership is 
encouraged to foster a sense of belonging for Marines. Commanders 
employ responsible messaging to discourage suicide related behavior and 
conduct Force Preservation Councils to identify risk factors and 
stressors in order to provide a course of action to mitigate 
destructive behavior. Once a possible behavioral health issue has been 
identified, the command implements intervention and reintegration 
strategies to lower risks, encourage Marines to ask for help when 
needed, and restrict access to lethal means (firearms, etc.) for those 
at risk for suicide. In keeping with ``Protect what you've earned'' 
messaging, Marines are taught coping skills. A culture shift is taking 
place to show that it is a sign of strength to seek/ask for help early, 
when problems are most manageable. Finally, all Marines are taught to 
recognize suicide warning signs, to get help for their fellow Marines, 
and that we never leave a fellow Marine behind.
    The PDHRA program specifically focuses on identifying issues that 
emerge after our Marines and Sailors have returned home from 
deployment. The PHOP secures behavioral health screenings, 
psychological treatment referrals, and provides essential follow-up 
treatment to ensure our service members' behavioral health needs are 
met.
    Similarly, Care Management Teams focus on support through the 
Department of Veterans Affairs Transition Care Management Program. Our 
Marines are assigned a Care Manager who oversees the referrals and 
follow-on care of the Reserve Marine's individual healthcare needs.
    Marine Intercept Program (MIP) is an evidence-informed targeted 
intervention for service members who have had an identified suicide 
ideation or suicide attempt. MIP includes a series of telephonic 
voluntary caring contacts in which a counselor reaches out to the 
Marine and assesses them for risk, encourages the use of a safety plan, 
and identifies and addresses any barriers to services. The MIP 
counselors then incorporate these caring contacts into the counseling 
process. These services are also provided to our Reserve Marines 
through the PHOP.
    Our Marines have proven their strength in enduring unique issues, 
such as frequent moves, deployments, and separations from loved ones. 
To help with these struggles, our Marines, Sailors, and family members 
are able to access behavioral health programs at Marine Corps 
installations through Marine Corps Community Service (MCCS) while on 
active-duty orders. The Marine Corps DSTRESS Line is another resource 
available to all Reserve Marines and family members regardless of duty 
status. DSTRESS is a 24/7/365, Marine-specific anonymous crisis call 
and support center that provides phone, chat, and video-
teleconferencing for non-medical, short-term, solution-focused 
counseling. Additionally, we continue to be supportive of Military 
OneSource, which provides confidential, non-medical counseling, 
resources, and support to service members and their families anywhere 
in the world.
                  sexual assault prevention & response
    Sexual assault remains a complex and challenging matter that is 
often interrelated with other readiness challenges, behavioral health 
issues, and destructive behaviors. For the Marine Corps Reserve, 
addressing the continuum of destructive behaviors and fostering a 
culture of dignity and respect are top priorities toward the goal of 
reducing and ultimately eliminating sexual assault within our ranks. To 
accomplish this goal, we execute a Sexual Assault Prevention and 
Response Program (SAPR) with seven full-time employees who provide 
supportive services across our geographically-dispersed force. In 
addition to the Force-level Sexual Assault Response Coordinator (SARC), 
each Major Subordinate Command within the Marine Corps Reserve has a 
SARC who serves as a Special Staff Officer to their Commanding General 
and manages their SAPR Program from our headquarters in New Orleans. 
Together with the SARCs, two professional civilian victim advocates 
provide support to our Marines, Sailors and their families by traveling 
to provide in-person advocacy services, training, and unit-specific 
program guidance as needed. The Marine Corps Reserve continues to work 
diligently to improve our victim response, outreach, and prevention.
    Our SAPR staff trains up to 160 Victim Advocates each year at our 
headquarters in New Orleans. After completing our 40-hour training 
course, these potential Victim Advocates submit an application for 
credentialing through the DoD's Sexual Assault Advocate Certification 
Program. Once credentialed, the advocates are officially appointed by 
their commanders to serve at their respective Reserve Training Centers. 
In total, the Marine Corps Reserve maintains an active roster of more 
than 250 Victim Advocates across the country.
    Our SAPR personnel respond to Marines, Sailors, and adult 
dependents who request support services related to a report of sexual 
assault. Our SARCs and SAPR Victim Advocates screen for potential 
safety issues and develop individualized safety plans as needed. They 
offer advocacy services and referrals and maintain a data base of 
nationwide resources for victims of sexual assault who may not reside 
on or near a military installation.
    The Marine Corps Reserve maintains a Sexual Assault Support Line 
that is manned by the professional SAPR staff 24 hours a day, 7 days a 
week. The Marine Corps Reserve also actively publicizes the DoD Safe 
Helpline which is an additional resource that offers crisis support 
services for members of the DoD community. The DoD Safe Helpline is 
available 24/7 worldwide with ``click.call.text'' user options and can 
be used anonymously for confidential support.
    Our prevention strategy is holistic and integrated with other 
programs that work toward the eradication effort, such as the Equal 
Opportunity Program, Deployment Resiliency, Safety, Spiritual Readiness 
Initiatives, and Behavioral Health. The Marine Corps Reserve continues 
to set the example of discipline and respect by supporting a zero-
tolerance policy related to assault and a retaliation-free command 
climate. Leaders at every level are encouraged to actively engage with 
our Marines and Sailors to learn what can be done to further support a 
positive environment that is free from attitudes and behaviors that are 
incompatible with our core values. All Marines and Sailors receive SAPR 
training every year to ensure widespread knowledge about our program to 
include prevention and response.
                            quality of life
    The Marine Corps Reserve remains dedicated to ensuring an 
appropriate balance and effective performance of our quality of life 
programs, which are designed to help all Marines, Sailors and their 
families, whether they are deployed or on the home front. Our force is 
dispersed throughout the country and away from traditional brick and 
mortar support resources available at our major bases and stations. 
Taking care of our Marines and their families is a key component to 
overall readiness and combat effectiveness. In addition to personnel, 
equipment, training, and facilities, we focus on other important 
aspects of readiness, such as family strength, education, professional 
development, financial health, transition assistance, and behavioral 
health. Our Deployment Readiness Coordinators, along with MCCS, help 
ensure our families get the support they need before, during and after 
our Marines deploy. MCCS and our Deployment Readiness Coordinators 
provide a vital link to ensure support reaches those who need it.
    The Marine Corps Reserve tracks the submission of medical service 
treatment records to ensure Reserve Component Marines receive timely 
access to Department of Veterans' Affairs healthcare services. Working 
across all 158 sites, we aggressively target our performance for 
submission timeliness to ensure our Marines are able to submit timely 
disability benefit claims.
    Marine and Family Readiness Programs remain flexible, constantly 
adjusting to meet the needs of our geographically dispersed Marines and 
their families. A resilient force is primarily achieved by providing 
robust, relevant, and standardized training to our commanders, Family 
Readiness Command Teams, Marines, and their families. Our Marine Corps 
Family Team Building (MCFTB) program enhances readiness and maintains 
resiliency through proactive, non- clinical, preventative education, 
professional training, and community building support to service 
members and their families throughout mission, life, and career events. 
MCFTB training events are delivered both, in person, and through 
interactive webinars, at our 158 sites. During fiscal year 2019, the 
Marine Corps Reserve conducted 162 training events at which 10,422 
Marines and family members received valuable information to prepare for 
and thrive during deployments and to achieve a positive post-deployment 
reintegration experience.
    A key component to our quality of life and resiliency is the 
religious ministry support provided by 222 Religious Ministry Team 
(RMT) members. As Uniformed Members, RMTs support Marines and their 
families across the full spectrum of military life including combat and 
humanitarian engagements. Currently, 125 RMT personnel are embedded in 
46 Marine Corps Reserve units and 97 are integrated in Navy Reserve 
religious support units that directly support Active Component Marine 
Corps units. This support includes developing the Commandant's 
spiritual readiness initiatives, providing divine services across the 
spectrum of faith communities, advising on spiritual and ethical 
matters, and delivering pastoral care in a safe, confidential 
environment. Chaplain support is provided in numerous Funeral Honor 
Details for our Marines, Sailors, and families. The Chaplains provide 
spiritual guidance at the service and follow on care as needed, 
providing a source of healing for family members.
    One signature program is the Chaplain Religious Enrichment 
Development Operations (CREDO) program. The CREDO program provides 
transformational workshops: the Marriage Enrichment Retreat (MER), the 
Personal Resiliency Retreat (PRR), and the Applied Suicide Intervention 
Skills Training (ASIST) class. The MER and PRR equip Marines, Sailors, 
and their families with practical relationship and communication tools 
that strengthen marriages and individual resilience. The PRRs help 
Marines and Sailors set personal goals, make good decisions, deal with 
stress, and live lives with greater purpose and satisfaction. During 
fiscal year 2019, fourteen MERs and one PRR were conducted with 665 
participants. In response to suicidal events, the CREDO Program has 
been offering ASIST training. ASIST trains individuals on how to 
intervene in suicidal ideations and keep individuals safe until they 
can receive follow on care. 118 personnel have been trained at 8 ASIST 
classes since March 2019, providing commands with resources to offer 
positive outcomes in unit readiness.
    The Marine Corps emphasizes the importance of readiness for Marines 
and family members in many areas of life. Personal and Professional 
Development programs continue to provide training and educational 
resources to our Marines, Sailors, and their families in a variety of 
areas. One key program that assists commands, Marines, and family 
members with readiness is the Command Financial Specialist Program 
(CFS). The CFS provides assistance on a wide array of financial issues 
to include budgeting, savings, investing, insurance, Survivor Benefit 
Program (SBP), Veteran benefits, retirement, and financial counseling 
to all members of our dispersed forces.
    Our Transition Readiness Program emphasizes a proactive approach 
that enables Marines to formulate effective post-transition 
entrepreneurship, employment, and educational goals. A virtual 
transition readiness seminar remains available for Reserve Marines and 
Sailors that are unable to travel to attend an installation-based 
transition course. The Marine for Life Network links our Marines to 
employment, education, and community resources in their home town areas 
to support their overall life goals. Tutor.com offers our children 
access to 24/7 no-cost, live tutoring services for K-12 students. Our 
Marines are provided with remote access to language courses through 
Mango Languages. This program supports over 70 languages to include 
English as a Second Language (ESL). Peterson's Online Academic Skills 
Course helps Marines build math and verbal skills to excel on the job, 
pass an exam, and advance in their career or continued education.
    Our Semper Fit program continues to be fully engaged in partnering 
with our bases and stations to provide fitness education activities 
that promote physical and mental readiness, develop healthy positive 
self-esteem, and develop healthy lifestyles. The High Intensity 
Tactical Training (HITT) program focuses on physical resiliency, combat 
readiness, and injury prevention and provides hands-on, science-based 
strength and conditioning courses and online physical fitness tools to 
include instruction on injury prevention, nutrition, and weight 
management. Our Marines' and Sailors' quality of life is also enhanced 
through team building and esprit de corps activities, such as unit 
outings and participation in competitive events. These programs are 
crucial to unit cohesion and camaraderie.
    The Yellow Ribbon Reintegration Program is an invaluable part of 
our resiliency efforts. Since its inception in 2010, we have held more 
than 900 training events for more than 49,000 Marines, Sailors, and 
family members. In fiscal year 2019, we conducted 19 events with 2304 
participants.
    Our Marines, Sailors, and their families, who sacrifice so much for 
our Nation's defense, should not be asked to sacrifice quality of life. 
We remain a steadfast advocate for flexible Family Programs and 
Services that evolve and adapt to the changing needs of our Marines, 
Sailors, and their families. The combined effect of these programs and 
services are critical to the readiness and retention of our Marines, 
Sailors, and their families, and your continued support is greatly 
appreciated.
   supporting our wounded, ill, or injured marines and their families
    The Marine Corps ensures the availability of full spectrum care to 
all wounded, ill, or injured (WII) service members, whether they are 
Active or Reserve, through the Wounded Warrior Regiment (WWR). The 
Marine Corps Reserve ensures Reserve Marines' unique challenges are 
addressed through a WWR Liaison Officer who provides subject matter 
expertise and special coordination with the WWR staff.
    The WWR staff includes the Reserve Medical Entitlements 
Determinations Section, which maintains specific oversight of all 
Reservists requiring medical care for service-incurred and duty- 
limiting medical conditions. Reservists facing complex care and 
recovery needs have access to WWR's network of 45 Recovery Care 
Coordinators who provide one-on-one transition support and resource 
identification for WII Reservists and families often living long 
distances from military installations. WWR also has medical advocates 
at the regimental staff who are available to assist Reservists in need 
of medical care coordination and advocacy. District Injured Support 
Coordinators dispersed throughout the country also coordinate with 
Reserve units to ensure we keep faith with all Marines.
    The Marine Corps Reserve will not forget the sacrifices our Marines 
have made for this great Nation and we will continue to work with the 
WWR to establish resources and programs that address the unique and 
ongoing needs of our Reserve population.
                               conclusion
    The Marine Corps Reserve is manned, trained and equipped to provide 
individual Marines and units to the Active Component as part of the 
Total Force. We are forward deployed supporting Combatant Commanders' 
requirements, participating in multiple exercises at our training 
centers and around the world, and often the face of the Marine Corps to 
our local communities. Along with our Active Component, we are focused 
on force design, readiness and manpower to maintain and enhance our 
ability to increase the capacity of the Service's ability to deter 
against pacing threats. Given a worthy mission and a clear signal that 
their individual contributions are valued by the service, your Reserve 
Marine will continue to answer their ``irrational call to service.'' 
With your continued support, we will remain ready to augment, reinforce 
and sustain the Active Component. Semper Fidelis!

    Senator Shelby. Thank you. I will start it off. The fiscal 
year 2021 budget request continues investments that support the 
National Defense Strategy, allowing us to be preeminent in the 
world. Could you describe to us--I direct this to you General 
Lengyel.

   CONTRIBUTIONS OF THE NATIONAL GUARD AND RESERVE IN THE CYBERSPACE 
                                 DOMAIN

    Can you describe the contributions of our Guard and Reserve 
components to these critical war-fighting areas, particularly 
the cyberspace domain and what are the biggest threats that we 
face there, and how are our Guard and Reserve Forces uniquely, 
if they are, postured to respond to some of those threats. 
General.
    General Lengyel. Chairman, thank you for the question. 
Obviously, you know, the National Defense Strategy has postured 
and positioned us to address peer adversaries in the future. So 
addressing threats such as growing the Force, investing in the 
Force, modernizing the Force, and growing capabilities that 
allow us to address fighting an adversary of China or Russia in 
the future, as well as continuing to deal with threats such as 
Iran and North Korea and violent extremists as we go forward.
    The operational Force that we all represent here of the 
Reserve component, and in my case the National Guard, is a 
completely different and unique part of our Department of 
Defense compared to what it was even 15, 20 years ago. As I 
talk to you today, there are 16,000 members of the National 
Guard just in CENTCOM (United States Central Command), and we 
are in every mission set and every combat zone and every combat 
mission set, to include space and to include cyber, that the 
Department of Defense is doing.
    And in the cyber realm in particular, the National Guard 
has grown cyber capability to support the Department of 
Defense, which is also in many cases now being used in the 
State, in a domestic operations sense, but we have more than 
4,000 members of the Guard now in the cyber mission set. We 
have 23 cyber protection teams as part of the Cyber Mission 
Force. And every State, territory, and the District of Columbia 
has a cyber-capability that can now be used to address the 
continuous threat that we see day in and day out.
    And I think that, you know, as we speak today, we have some 
States using their cyber capabilities in a domestic sense, 
either dealing with ransomware or adversarial attacks on our 
Nation's communities, or even protecting some of our election 
systems around the country.
    So the investments made by this committee to help us buy 
the equipment that we need, not just in the cyber realm but new 
equipment such as the C-130Js. The NGREA (National Guard and 
Reserve Equipment Account) investments that we have made that 
allow us to modernize our Force, allow us to make our equipment 
more lethal, allow us to buy things for us in the National 
Guard in particular, and allow us to do not just our Federal 
mission, but also our mission here in the homeland.
    So without the investments made by this committee, the 
operational Force that we are today would not be possible. 
Thank you.

        SPACE FORCE COMPONENTS IN THE NATIONAL GUARD AND RESERVE

    Senator Shelby. General, you referenced the Space Force a 
minute ago. While the establishment of the U.S. Space Force did 
not include a National Guard or Reserve component, do you 
envision a role down the road for the National Guard in the 
Space Force?
    General Lengyel. Senator, thank you for the question, and 
not only do I envision it, but right now as we speak, the 
National Guard is in the space mission.
    Senator Shelby. Is the imperative in it?
    General Lengyel. We have been in a space mission for 25 
years as part of the United States Air Force. What I envision 
is without the creation of a Space National Guard is that we 
will begin to diverge from the Space Force as a service. We are 
very closely aligned with the Air Force in the National Guard. 
We have the same culture, the same training. We have the 
ability to program for resources and requirements inside that 
service. We have the same thing with the Army. We have the same 
training standards. We have the same discipline, the same 
service culture between the Army Guard and the United States 
Army.
    And as the Space Force stands up, as units move from the 
United States Air Force into the Space Force, I believe that it 
is imperative for readiness, for service culture, for the 
future of the Space Force and for the future of the National 
Guard that the National Guard Space Units also become part of 
the Space Force. And to do that, we have to have a component to 
move into.
    We have to have a Space National Guard component which we 
currently do not have. So we have been in this mission for 25 
years. It seems--it is a zero cost option right now. They are 
all bought. They are paid for. There is no proposal to create 
Space Guards in 54 States and territories right now. It is in 
seven States and one territory. That is the proposal, and it 
wouldn't grow other than that required by the U.S. Space Force, 
the Secretary of the Air Force, and the requirements therein.
    So, I do. I see it as a natural fit. It is a natural 
partner. As the space enterprise grows into the commercial 
sector, it will need a Reserve component to leverage those 
talents to be part of the Space Force. So I do feel that way, 
sir.
    Senator Shelby. Thank you. I have a number of other 
questions. I will submit them to all of you for the record, 
without objection, and hope you will answer them forthwith. 
Thank you.
    General Lengyel. Absolutely, sir.
    Senator Shelby. Senator Durbin.
    Senator Durbin. Thanks, Mr. Chairman. Let me specifically 
recognize General Lengyel and General Luckey and Vice Admiral 
McCollum. As I understand, this we may be your last time 
testifying before the committee. Thank you all for your service 
to our country and especially to those who are wrapping up many 
years of contributions to our National Security.
    I am going to disclose something which is kind of a secret. 
It is not classified. It is not top secret. It is a budget 
secret and here is the budget secret. Presidents have come to 
know that when it comes to the men and women who serve in the 
Guard and Reserve there is a special affection and attachment 
to them by members of Congress.
    My colleague here, Senator Leahy, co-chaired the Guard 
Reserve Caucus for many years and he typifies the feeling we 
all have about what you do. Not to take anything away from the 
other branches of the service of the active military, but the 
Guard Reserve are near and dear to us. Now, the secret is this. 
Presidents can ask for less money for the Guard Reserve because 
they know full well that Congress is going to step up and put 
more money in whatever year because we believe in your mission. 
We believe in what you do. We feel a special, personal 
attachment to you.

       EFFECTS OF THE DEPARTMENT OF DEFENSE'S WALL REPROGRAMMING

    And so what does the President decide to do to build his 
wall, he decides to cut out the money that Congress added for 
the Guard Reserve, up to $2 billion worth from the men and 
women who are sitting here today and those they represent. The 
net result of that, of course, is that there is less money for 
equipment, accounts, and training, and other things that are 
important. And you say to yourself, well, wait a minute, if 
that wall is so darn important for our National Security that 
is the President making that decision. That might be a decent 
argument were it not for the fact the President has over $9 
billion in unspent funds he has taken out of the military 
already to put in his wall account that he hasn't spent yet.
    And now he comes and asks us for $3.8 billion more out of 
appropriated funds for our military, $2 billion out of the 
Guard Reserve to build up the balance in his unspent funds for 
his wall. I think that is entirely upside down and wrong and 
have a bill to restore those funds. And I hope that my friends 
on the other side of the aisle will stand up for the Guard 
Reserve and for the money that we have already appropriated for 
our National Defense which the President wants to put into the 
wall account that is unspent to build up a double-digit balance 
in this wall account for the November election. That is what 
this comes down to.
    Now, I have disclosed the secret. It is no longer a secret. 
The fact is we believe in you. We believe in what you do, in 
the men and women who sacrifice their personal and family lives 
to serve our country. So I just ask you in the time remaining, 
2 minutes remaining, if you could take 15 or 20 seconds and 
tell me what the President's reprogramming of these funds you 
believe, what aspect of it is the most difficult and 
challenging for each of you. Why don't you start, Admiral 
McCollum?
    Admiral McCollum. Sir, we typically use this account to 
provide intermediate upgrades such as avionics upgrades, 
modular inputs to our aircraft for tactical communications 
capability for our small builds, and for supply and logistics 
water fuel systems.
    Senator Durbin. So if the money is not there, what happens?
    Admiral McCollum. It is kind of like taking your car to a 
garage. You can take it--you will take it less often to the 
garage to get those upgrades, and we will defer some of our 
upgrades in hopes that we can pick that up in the future.
    Senator Durbin. General Bellon?
    General Bellon. Senator, as you probably know--thank you 
for the question first of all. As you probably know, the Marine 
Corps represents about 1 percent of the NGREA budget. So my 
ability to meet my task to support an augment of the active 
component, while it is affected, it is not tremendously 
impacted.
    However, I know the subcommittee is curious about how we 
might make better use of NGREA when it returns, and from the 
Marine Corps' perspective, what we really need in the Reserve 
Force is the ability, the flexibility to use that money that 
you bestow on us on behalf of the taxpayers to buy individual 
combat and clothing equipment. And by that, I mean the literal 
body armor that our Marines and sailors when they go----
    Senator Durbin. So, upgrading avionics protective equipment 
for the men and women who might face combat, General Lengyel?
    General Lengyel. Sir, this money is a critical source that 
keeps our platforms lethal, capable, and more survivable. No 
question about it. So because we lost this money this year 
there will be delayed upgrades to our systems. We are taking 
$790 million out of the upgrade system for the National Guard 
equipment in the Army and Air National Guard. We will lose the 
ability to put radar warning receivers to let crews know when 
they are being attacked by other planes. These will slip to the 
right.
    Senator Durbin. General Luckey.
    General Luckey. Senator, as I said in my opening remarks, 
as you know, I have appreciated for the last 4 years the 
largesse of this committee in providing NGREA funds for the 
America's Army Reserve. It has grown, from my perspective, to 
about 35 percent, 37 percent of the procurement dollars that 
the Army Reserve has on an annual basis to acquire.
    Senator Durbin. So what will this budget decision mean to 
you?
    General Luckey. So again, I would say the same thing my 
colleagues have. It slips out, it extends if you roll, the 
purchasing and the fielding of systems for command and control 
for----
    Senator Durbin. Assistance that you asked for and believed 
that are needed?
    General Luckey. Yes, sir.
    Senator Durbin. General Scobee.
    General Scobee. Vice Chairman, thank you. And thank you for 
your comments. I would say this, the reason that you have put 
me in this job is to make sure that I produce combat power for 
America and I don't ask for anything I don't need. The money 
that we have put into this we absolutely need to do the 
upgrades that we talked about and my job is to make sure I 
articulate that risk.
    So the risk to our systems right now is, what I am trying 
to solve is capability gaps across combat airplanes, mobility 
systems, our personnel recovery systems, and special operations 
weapons.
    Senator Durbin. I hate to cut you short but listen to what 
we are sacrificing to build up the balance in an account of 
unspent funds for the wall. Listen to this. Does this make any 
sense at all? Thank you, Mr. Chairman.
    Senator Shelby. Senator Hoeven.

                       REAPER MISSION PERFORMANCE

    Senator Hoeven. Thank you, Mr. Chairman. Thanks to all of 
you for being here. And thanks for what you do. We truly 
appreciate it. General Lengyel, I see Air Force in the 2021 
budget is not asking for funding for more Reapers. And of 
course, we fly the Reaper in our Guard mission in North Dakota 
and other Guard units fly Reaper as well, as active duty Forces 
and reserves. What is your sense of where that leaves you in 
terms of the Guard performing its Reaper missions without 
additional procurement at this point?
    General Lengyel. So Senator Hoeven, I would say that I am 
not aware of additional Reaper requirements for our National 
Guard units. We are a big part of the Air Force Reaper Mission, 
as you well know. Continued modernization and upgrades of those 
systems are very important----
    Senator Hoeven. Is there are particular upgrades that you 
want to mention at this point in regards to an operations 
facility in Fargo by any chance that----
    General Lengyel. Obviously, we are looking to not interrupt 
the operations, the very important operations going on in Fargo 
as they do military construction to make sure that there is no 
break and operations of the Reaper mission going on in Fargo.
    Senator Hoeven. And I want to thank you for putting that 
number one on your unfunded priority list. I deeply appreciate 
that. That is an important mission and that would enable that 
Reaper unit to continue that mission without interruptions.
    General Lengyel. Yes, sir.

                        MONTGOMERY GI PARITY ACT

    Senator Hoeven. That is very important and I want to thank 
you for your commitment to it. For all of you, and starting 
with you General Lengyel, I have introduced a bill along with 
Senator Leahy and Senator Boozeman. It is the Montgomery GI 
Parity Act, and I want to thank Senator Leahy for that and 
making the bill bipartisan. It is very important.
    I also want to commend you for standing up an education 
program for Air Guard similar to the Army education program. I 
think there is 14 units that are initially in it, but obviously 
that needs to be Air Guard wide on the same basis we have for 
Army Guard, but in a broader sense Guard and for Reservists. 
They need to be able to use both their Federal tuition 
assistance and the GI Bill education benefit together. Active 
duty Forces do it. It is a wonderful thing. It is very 
important. And it is critically important in the Guard where we 
get these fantastic young people that use that education 
better.
    That is how we get these really smart, capable young people 
in, for example, intelligence group targeting unit. Again, that 
is another unit we have in North Dakota. But we don't want to 
get those smart guys and gals without those education benefits.
    So this legislation would provide that Guard Reserves can 
use both Federal tuition assistance and GI Bill education 
benefits at the same time, same way as active duty. And, do you 
support the legislation and will you so state on the record? 
Also, I feel that the DOD (Department of Defense) could 
implement this administratively as well. So, please tell me 
about your thoughts on that important legislation and I am 
going to ask the others the same question.
    General Lengyel. Senator, I fully support simultaneous use 
of Federal tuition assistance with the Montgomery GI bill. It 
is important that one of the greatest retention tools and 
frankly recruiting tools we have in the Guard is our access to 
additional ways that people can expand their education.
    And simultaneous use. It is still a bargain for the 
Department of Defense and the government to have simultaneous 
use when you compare the cost with our active-duty 
counterparts. It is like five times more expensive if you are 
an active duty who can use both. So I thank you very much for 
pushing that legislation. Absolutely support it.
    Senator Hoeven. Thank you. These young guys are telling me, 
they come into the Guard for that reason. They get in the 
Guard, they get their education, and they find out it is a 
great organization and they stay--that is what they are telling 
me because of those educational benefits.
    General Lengyel. Absolutely correct, sir. Thank you very 
much.
    Senator Hoeven. I would like to thank you, General. And 
General Scobee maybe starting with you, I would like to get the 
sense from the Reservists.
    General Scobee. Senator, thank you very much. Absolutely 
support the legislation as well, and I couldn't have said it 
better than General Lengyel, it is really one of those benefits 
that whether our Airmen are coming from other components or 
other services into the Reserves component, it is what they are 
looking for, and there is nothing better than having a well-
educated and trained Airmen in your command. It makes them 
great for our workforce and it also makes them fantastic as 
service members in the United States Air Force.
    Senator Hoeven. Thank you.
    General Luckey. Senator, I am always in favor of anything 
that is going to facilitate and enable our soldiers to get the 
quality education that they need to remain effective members of 
this team. So I support you in that regard. The other thing I 
would say is, you know, I am very aware of the fact that in 
many cases, there is a little bit of--there is a difference 
sometimes between what the States are willing to provide in 
addition to Federal benefits and then of course the incentives 
that are provided by the Federal Government.
    So I will just tell you candidly and one of the things I 
continue to do as I engage in the States, with the leadership 
in the various States in the country, I encourage State 
legislatures and Governors to look at again parity between how 
they treat Army Reserve soldiers in their States and the way 
they treat their Guardsmen. And I acknowledge the difference 
between the components, but I am always looking for places to 
do better for my soldiers. Thank you, sir.
    Senator Hoeven. Thank you.
    General Bellon. Senator, thank you for the question. I do 
think that the benefits are important, but maybe I will reframe 
the opportunity from a Marine Corps perspective. These young 
men and women joined the Marine Corps to be challenged. They 
come in--they want to do hard things, and I think it is on us, 
our moral obligation as the leadership to develop them.
    We are in a ruthless competition for talent and when these 
young people come in and answer their call to service and 
demonstrate this capacity, this is a critical tool for us to 
develop and then retain that talent for future service to help 
defend the Nation.
    Senator Hoeven. Thank you, General. Admiral.
    Admiral McCollum. Senator, thank you. I think anybody in 
the HR business, talent management would tell you if you can 
provide measurements and tools to increase accession and 
retention is a win.
    And then, we in the military, if we can do those things 
with any program or policy such as the one you have outlined, 
tie that to the National Defense objective to fight and win 
then the Nation, and in our case the Navy, wins.
    Senator Hoeven. Thank you, Mr. Chairman.
    Senator Shelby. Senator Tester.
    Senator Tester. Thank you, Mr. Chairman. It is great to 
have all of you here. I just want to recognize a few folks that 
this is their last time to testify in front of this committee, 
General Luckey, General Lengyel, and Admiral McCollum. You 
know, I am not good enough at math to add up all the years you 
guys have had in service, but I just want to say thank you very 
much for your service to this country and thank you for being 
here today.

                      C-130 RECAPITALIZATION PLANS

    General Lengyel, I am concerned with the lack of clarity 
about the details of recapitalization plan for our Nation's 
aging C-130H fleet. We have talked about this before but so to 
keep things moving, and I will ask you to do this because they 
are not those tough questions, if you could just answer yes or 
no, it would be great. Would you agree that the C-130s perform 
vital missions on behalf of our Nation's security?
    General Lengyel. Yes, sir.
    Senator Tester. That is true today. Will it be true in the 
future?
    General Lengyel. Yes, sir.
    Senator Tester. As we visited yesterday, you told me that 
the Air Mobility Command believes that the Air Force requires 
300 C-130s to adequately address the military's tactical 
airlift needs. Is that correct?
    General Lengyel. Sir, I told you that the mobility 
capability requirements study, which was done last year, says 
we need 300 C-130s.
    Senator Tester. And the Air Force is planning to reduce the 
C-130 inventory to 255 within 5 years. Is that correct?
    General Lengyel. That is correct.
    Senator Tester. As part of that reduction, the Air Guard 
will go from 13 squadrons with C-130 missions to 9, correct?
    General Lengyel. There will be four Air National Guard 
squadrons that changed missions to some platform. It could be a 
different kind of C-130 but doing a different mission. But 
without a doubt, yes, there will be changes.
    Senator Tester. So I have talked to you yesterday. You know 
why I am nervous. There are no longer any H models active in 
the active Air Force. They are all in the Guard. The 120th 
airlift wing in Great Falls, Montana is flying the oldest 
aircraft of the entire inventory planes built during the Gerald 
Ford Administration.
    I have got some old equipment on my farm. None quite that 
old though, I will tell you that. This summer, it is my 
understanding that there will be an Air Force basing decisions 
that will determine which three Guard squadrons will receive 
the C-130Js, is that correct?
    General Lengyel. Yes, sir.
    Senator Tester. So that will bring good news for three 
Guards squadrons, but in my opinion, and this is my opinion, 
the flying missions of all those other squadrons will all be in 
jeopardy. Can Congress--well, let me put it this way. Congress 
can continue to step up to the plate and secure funding for new 
J-models, but it doesn't get us far if the Administration is 
going to take those funds, going to raid those funds to put it 
into an ineffective border wall.
    So why--we only have a finite amount of funding for a 
finite amount of aircraft. So is it fair to say that this 
recent programming will delay the procurement of more J-models?

   EFFECTS OF THE DEPARTMENT OF DEFENSE WALL REPROGRAMMING ON C-130 
                         RECAPITALIZATION PLANS

    General Lengyel. I think that is a possibility. Yes, sir. 
Unless you give it back to us in some other future year.
    Senator Tester. That is right. But if the money is gone, 
unless we restore it, it is going to delay this procurement. 
Okay, this will Force the Air Guard to sustain the H-models 
even longer, relying on aircraft that will require more and 
more maintenance and become less and less safe and effective.
    To make things worse, the President is raiding over $1 
billion from an account that is being used by the 120th in 
Great Falls to modernize the C-130Hs. I believe Senator Durbin 
talked about that in his questioning. What does a draining of 
the National Guard equipment account do to C-130s in a State 
like Montana, in Montana, and talk about what the immediate and 
longer impacts are.
    General Lengyel. Yes, sir. I mean as you know, the National 
Guard Reserve Equipment Account is a critical source of funding 
for us to modernize our platforms. And we frequently have to 
use that money because platforms that the active component no 
longer has falls below the cut line when they want to have--
when they make tough financial decisions on what they are going 
to do with their funding to upgrade platforms.
    So things like threat warning systems, things like avionics 
upgrades, things like cockpit situational awareness programs, 
things like displays that allow us to find and to pick threats 
on the ground, those things will be delayed on implementing 
into our aircraft and the aircraft will be affected including 
those in the 120th in Montana. That is a near-term threat.
    The longer term issue is it is just unknowable. It is 
depending on how much NGREA we continue to get into the future. 
The applicability--availability of those funds for us to use as 
they were intended in the NGREA so, that is the near term 
threat.
    Senator Tester. Well, I want to thank you for that. I want 
to thank you for leadership. I will tell you this incredibly 
frustrating for me. This isn't on you. We have a Commander-in-
Chief, you are in the chain of command, I get it, you do what 
you are ordered to do, but I am going to tell you, when we talk 
about building the wall and I talk about how silly it is.
    It has been $25 million a mile, and they say, well, there 
is technology on top of it. Well, let's put the technology in 
place and then we are going to fund it not with the Mexicans 
folks, not with the taxpayers from Mexico, but by raiding funds 
that are necessary to keep this country safe. Congress needs to 
stand up. You need the equipment you need to do your job. Thank 
you for being here, but more importantly thank you for your 
wife for being here.
    General Lengyel. Thank you, sir. I am glad she is here too.
    Senator Shelby. Thank you, Senator Tester. Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman, and thank all of 
you all for being here and all of you represent in your hard 
work. It really is an honor to work with you. I would like to 
ask you a little bit about, the 2018 National Defense Strategy 
describes our need to build a more lethal Force by restoring 
readiness. This requires the military to be the right size and 
mix to meet future objectives. Beginning with you at Admiral 
McCollum, do you believe you have the appropriate level of full 
time support and the proper flexibility and authority of meet 
the National Defense Strategy?
    And then tell me also, one of the things that I am hearing 
as I visit with you all and visit with my Guard Reserve is 
things like employer fatigue. You know, that really is--with 
the op tempos that you are doing. Do we have flexibility even 
in those regards to try and make the Force--these are the 
underpinnings, you know. These are the little things that we 
have to do right.

                  FORCE READINESS AND EMPLOYER FATIGUE

    Starting with you, Admiral McCollum is a favorite son of 
Arkansas. We are so proud of him and he and his family are 
pillars of his community, and we do appreciate you representing 
us in such a great way.
    Admiral McCollum. I thank you, Senator, for those comments 
and certainly for the question. And as the Navy and our Nation 
look at the National Defense Strategy, and as a fighting Force, 
what are the great enablers? For the Reserve Force, 
predictability I would say is one of the great enablers. 
Predictable with a part-time--sailors predictable with their 
families, with their civilian employer, and their military.
    That predictability comes--is reinforced through enablers 
such as predictable funding and appropriations that deliver on 
time. The National Security strategy that you have actually 
outlined, warfighting readiness and lethality. The Navy's focus 
in this budget is lethality and readiness, Navy Reserve 
readiness. As we look into components, one is personal 
readiness, and the other one is readiness associated with a 
service member's job that they do.
    This committee has been very gracious in providing the 
funding as we deliver capability, but I will have to tell you 
that the demand signal that the Navy and our Nation places on 
its Reserve Forces is ever increasing as we look at our near, 
peer competitors. And what it requires for that readiness, and 
great capability raises that training requirement. So continued 
dialogue with this committee and support thereof was very 
beneficial.
    Senator Boozman. Thank you. General Bellon.
    General Bellon. Senator, thank you for the question. I 
think, to give you a pointed answer, full-time support. The 
Marine Corps, I think, is the only service to use the paradigm 
that we use which is we actually use active component and 
strength, and we place those down in our tactical units in the 
Reserves. And we rotate those active unit Marines through the 
Reserve Forces in order to ensure readiness, training, and the 
most current understanding of the threat.
    So that works very well for us. To answer your question 
about fatigue, from the Reserve Force itself and anywhere you 
travel, the Commandant travels, where I travel, the young 
Marines and sailors always ask the same question, when can they 
go? That is why they join, but however, it is a different 
perspective from the employers. And I think you know, we have 
gotten very comfortable in our generation of being thanked for 
our service and feeling as though our service is valued, but 
that has got to extend to employers and families and those--
that network that makes our service possible. So we are very 
conscious of that as well, Senator.
    Senator Boozman. General.
    General Lengyel. Sir, in a short answer for full-time 
support, on the Air Guard we have about the right mixture, on 
the Army Guard we do not. For 4 years I have tried to increase 
the level of full time support inside the Army National Guard 
and I have been patently unsuccessful. We are manned at 63 
percent of what the Army says we need for this new operational 
Force that we are.
    Keep in mind we are in a continuous rotation, always 
deploying, and the levels of full time support is just not able 
to maintain the readiness. So I would tell you that we need 
improvement there. We need improvement in readiness. We have--
in order to train the Force, we need places to train them. Some 
of our facilities are so old we don't have enough MILCON 
(Military Construction) or FSRM (Facilities, Sustainment, 
Restoration and Modernization) to sometimes keep the places 
available to train the Forces so that we have Forces ready to 
go, on demand when we can.
    And, you know, continuous things that we are doing to 
attract and retain it. We are in the midst of duty status 
reform, which is helping, but things such as specialty pay and 
allowing people who will choose to continue serving, those 
kinds of things are very helpful to us and will be in the 
future.
    Senator Boozman. Good. I am going to get cut off here. I am 
going to get gaveled, so I will talk to you in person. I don't 
want the chairman getting down on me.
    General Lengyel. Okay. I don't want him getting on me 
either, Senator.
    Senator Boozman. Right.
    Senator Shelby. Thank you, Senator Boozman. Senator Leahy.
    Senator Leahy. Thank you very much, and thank you for yours 
and Senator Durbin's comments about my co-chairmanship of the 
Guard Caucus. You know, that--when Kit Bond and Wendell Ford 
ran it and they asked me to take Wendell Ford's position and 
Lindsey Graham, Kit Bond's, all the way through we were told, 
keep it nonpartisan. And that is why on Guard matters we have 
usually had, I think chairman, we have had usually 85, 95 votes 
in the Senate. You sometimes can't get that many to say the sun 
rises in the East so that is what we have tried to do and you 
worked very much with us.
    I might say, General Bellon, what you were saying about 
equipment for the Reserves. When our youngest son was called up 
for Desert Storm in the Reserves, I was glad to think that he 
was going to get first-rate equipment because they--of course 
the war got over so quickly he didn't get in danger, but he's 
good. Caring aside, he was going to be the first in the point 
of a three person team, and you know what that means, and that 
is why you have to be equipped.
    And General Lengyel, I appreciate all the times you and I 
have talked, as I have an all of you, discussed these so many 
times. I will just add before we have to go to vote, I worry 
about this money being taken for the wall, these funds, you 
know. The Guard has to respond on domestic emergencies. I saw 
how important that was in my State of Vermont in a hurricane.
    But every one of us could talk about a hurricane. Imagine, 
down in Tennessee right now, I am sure the Guard is out there. 
It is an easy question. Are you going to be more or less 
prepared to respond to domestic emergencies if $1.9 billion is 
taken out of your coffers for this wall?

 EFFECTS OF THE DEPARTMENT OF DEFENSE'S WALL REPROGRAMMING ON DOMESTIC 
                              EMERGENCIES

    General Lengyel. I would say over the next 3 years, we will 
be less equipped to do our domestic operations missions than we 
otherwise would have been.
    Senator Leahy. Thank you. I know you and I have discussed 
this and those discussions have been private, but as your staff 
knows and the concern we have that money being gone is not a 
Democratic or Republican concern, it is every one of us in our 
own States. We pray they will never be a natural disaster, but 
we know it is not impossible.
    And we know that the Adjutant General's phone is going to 
be one of the first things to ring and then your phones are 
going to ring saying, well, can you back us up? Don't the Guard 
Reserves routinely have to turn down request for equipment each 
year because the amount provided by Congress is still not 
enough to meet those needs across country?
    General Lengyel. Yes, sir. We have lots of things that we 
say we need that we can't afford to buy.
    Senator Leahy. You all agree with that? Does anybody 
disagree with that?
    [No response.]
    Senator Leahy. I don't see any hands going up. Thank you. 
And because we do have a vote on--what might you have purchased 
with that money if it had not been diverted?
    General Lengyel. So I will focus my comments on the 
domestic portfolio. There is lots of things that we buy for the 
critical due things with that fund. We buy buckets that fit on 
helicopters that put out fires. We buy hoists that allow our 
helicopters to be modified to rescue people. We buy command and 
control systems that are specifically designed for our 
chemical, biological, radiological enterprise, the CBRNE 
enterprise.
    We buy equipment for things that only the National Guard 
does such as the crowd civil disturbance operations. Relevant 
today is things such as personal protective equipment that 
these folks might use for COVID-19 response if a State were to 
use their National Guard in that sort of a sense. So these are 
the types of things that our only source of revenue is to buy 
things for our homeland mission, Senator. Thanks.
    Senator Leahy. Thank you. And I would like to thank General 
Bellon, and that if another Lance Corporal Leahy gets called--
not me but my son Mark gets called up, that the equipment is 
there for them. But I would say the same to the Navy and to all 
of you because it is necessary. We have a vote on, Mr. 
Chairman. I am going to stop there. I am just proud of you and 
I think I can speak for Lindsey Graham and all the members of 
the Guard Caucus. We are on your side.
    Senator Shelby. Thank you. Senator Baldwin.
    Senator Baldwin. Thank you, Mr. Chairman. General Luckey, 
first let me thank you for continuing to improve the 
operational capability of the total Army. Your job isn't easy 
in an environment where insufficient and inconsistent funding 
makes it difficult for the Reserves to support the Joint Force.
    At this hearing last year, you referenced how crucial the 
National Guard and Reserve Equipment Account, NGREA, 
appropriation was to making sure Army Reserve units could 
modernize as fast as the active component. As you are aware and 
has been discussed already, DOD has decided to divert $1.3 
billion in fiscal year 2020 in National Guard and Reserve 
equipment funding to help pay for construction of the 
President's border wall.
    My question for all panel members is, have you identified 
specific requirements that will be impacted because of this 
reprogramming?

   SPECIFIC IMPACTS OF THE DEPARTMENT OF DEFENSE'S WALL REPROGRAMMING

    General Luckey. So to the extent that you called me out by 
name Senator, let me start. So the answer is, yes. Thank you 
for the question. As I said in my opening remarks, this is--as 
you all know, for the last 4 years, I have thanked and 
appreciated the support we have received from both the Senate 
and the House as it pertains to this particular source of I 
will just say procurement capability for the Army Reserve.
    And as I said here earlier this morning, represents about 
35 to 38 percent of the procurement dollars that I have 
received over the last couple of years. And that is frankly a 
larger--that is a significant increase percentage wise than 
what has been over the last 10 years. So it has become, I will 
just say, increasingly impactful and that is why I have 
expressed here year after year my sincere appreciation for the 
support that you have given us in that regard.
    As I think I noted earlier this morning, I have sort of 
bend this into terms of capability sort of like General 
Lengyel. I look at different aspects of this particular ability 
to procure capability, and I acknowledge that, you know, we are 
basically talking right now about a 1-year sort of delay in 
some things, but to the extent that you are asking me, what are 
some of the bins of things that we would have been procured 
with it with a 2020, with the funds for this coming year, I 
would say command and control systems, some aspects of the 
medical readiness elements of the Army Reserve.
    The command and control system being key because that is 
really how we get to interoperability from a communications 
perspective on a battlefield. As you well know inside our RFX 
(Ready Force X) contract we are looking at putting about 38,000 
soldiers in America's Army Reserve into combat and in a very 
lethal environment in less than 90 days. So the criticality of 
being able to be interoperable is key for us in terms of our 
relevance and combat.
    And I would just say, I would key on a those aspects. There 
are some other things. There is the ability to distribute 
petroleum products and all kinds of things to the battle phase, 
but I would just say bending it, those are some of the key 
things I am concerned about. Thank you.
    General Scobee. Senator Baldwin, I would say we fall into 
that same category and if I could bend it this way, it is 
capabilities that will have to be slipped and not necessarily 
any of the readiness issues that we have. But I will tell you, 
it will be in some self-protection systems that we have for A-
10s and F-16s all the way to B-52s that we have at Barksdale 
where we have some debriefing capabilities that we really need 
for our aircrews.
    It will also be in some self-protection for our pararescue 
folks that are flying helicopters in harm's way. But it will be 
in those capabilities. Some of the money that we have, because 
it is a 3 year money, we will be able to bring forward for the 
very critical systems, but some of those we will have to delay 
and continue to fund those in future years' dollars. Thank you.
    General Bellon. Thank you, Senator. As I commented earlier, 
we account for about 1 percent of the NGREA budget. However, to 
put this into context of Senator Leahy's comments, if we had 
the flexibility to spend our portion of the NGREA budget on 
things like individual combat equipment, we could close our 
Delta within 3 years.
    Admiral McCollum. Senator, thank you. One of the important 
things that the Navy ask of its Navy Reserve is to be 
interoperable and that is skill wise on an individual level but 
also when our equipment operates side-by-side the active 
component. We use NGREA to provide the necessary upgrades to 
allow us to be interoperable. So at a broad picture, those are 
some impacts.
    General Lengyel. And ma'am, we get over half of the money. 
Half of that $1.3 billion comes to the Guard and we will lose 
avionics upgrades, system survivability upgrades. That is the 
tactical lethality piece, the domestic operations portfolio, 
bridging equipment, CBRNE communications equipment, all delayed 
or deferred provided you give us the money again next year.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Shelby. Senator Baldwin, thank you. We, as I told 
you at the outset, we are pushed now for time for our vote, 
Senator Baldwin. I hope we will make sure we get there, you 
know. In the meantime, I want to thank all of you for your 
assistance to the committee, for your dedication to your jobs.
    And the other Senators, there are other committees going 
on, will probably have additional questions for the record and 
we would request all of you to respond to those.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
            Questions Submitted to General Joseph L. Lengyel
            Questions Submitted by Senator Susan M. Collins
    Question. The Air Force budget proposal seeks to retire thirteen 
KC-135 tankers from the Active Duty and Reserve fleet. Do you have any 
concerns that these retirements, which come amid delays in the new KC-
46 tanker program, will put pressure on Guard refueling units to carry 
the burden of addressing any gaps in capacity?
    Answer. The National Guard Bureau is cognizant of the potential 
aerial refueling capacity gap created due to a combination of KC-46 
delivery delays, mission capability gaps and the fiscal year 2021 
budget proposal to accelerate KC-135 retirements from the Total Force 
fleet between fiscal year 2021-2025. The accelerated retirement of 13 
KC-135s in fiscal year 2021 increases risk to steady State requirements 
in the near-term until they are replaced by operational KC-46s in the 
mid- term. The Service is considering options on how to address the 
associated capacity gap. These options include increasing taskings on 
remaining operational aircraft, reducing operational taskings from 
Transportation Command and the Combatant Commands, or increasing 
efficiency utilizing operational aircraft already in service.
    Question. The Maine National Guard's 101st Air Refueling Wing and 
the City of Bangor maintain an exemplary partnership supporting over 
1,000 transient flights annually given its strategic location. Although 
the city successfully shoulders part of this mission, I have concerns 
that sometimes the Maine Air National Guard does not receive the 
appropriate recognition of the workload and manning required to 
continue supporting this important mission. How can the National Guard 
ensure these sorts of shared missions receive the recognition needed 
within the Guard to make sure they are provided adequate manning?
    Answer. Full-Time manpower requirements are derived from a Manpower 
Study utilizing the Logistics Composite Model. The unit can request an 
updated evaluation from the National Guard Bureau at any time. The Air 
National Guard continuously evaluates the national security environment 
and must periodically move force structure and resources to meet 
emerging requirements. The fiscal year 2020 and fiscal year 2021 
President's Budgets (PB) restructured Tanker Task Force manpower at the 
101st ARW by divesting the maintenance and mission support functions. 
To meet the readiness requirements of the National Defense Strategy, 
the positions were repurposed to aircraft maintenance in order to 
increase the Full-Time ratio and improve readiness through increased 
mission capability rates.
    Question. The Maine National Guard has been a long-time partner of 
Montenegro through the Guard's State Partnership Program and in fiscal 
year 2019, they conducted over 30 SPP engagements. This has been a 
vital partnership which was essential to assisting Montenegro access 
into NATO in 2017. Montenegro also recently agreed to purchase 67 Joint 
Light Tactical Vehicles from the United States, the largest acquisition 
of military equipment in that country's history, and the Maine National 
Guard plans to support the Montenegrins' vehicle tactical training, 
maintenance, and sustainment planning. With the reduction in the 
Department's stated needs in the budget request for the European 
Deterrence Initiative, do you believe the State Partnership Program 
takes on additional importance with respect to assuring our Eastern 
European allies and countering Russia in the region?
    Answer. The State Partnership Program is an important tool at the 
Combatant Commander's disposal to help counter Russian malign 
influence, and this is a great example of the value of the program. 
Montenegro finalized a $36 million Foreign Military Sales (FMS) deal in 
2019 for the purchase of 67 Joint Light Tactical Vehicles also known as 
the JLTV. They are expected to receive the first delivery in 2020. The 
Maine National Guard is planning at least five State Partnership 
Program events through fiscal year 2021, specifically to support the 
Montenegrins' operation and maintenance of the JLTV. State Partnership 
Program events were added during this fiscal year in support of both 
the Country Team and Combatant Command's security cooperation goals. 
This highlights the importance of the enduring nature of State 
Partnership Program relationships. The Maine National Guard will be 
there helping Montenegro with their JLTV program long after the initial 
FMS case is concluded, and its related training is over. By building 
lasting, mutually beneficial relationships based on trust and shared 
understanding, the State Partnership Program plays an important role in 
reassuring our allies and countering the influence of malign actors, 
not just in Europe, but around the globe.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski
    Question. Can you provide a list of Unfunded Requirements that you 
were asked to provide to the House Appropriations Committee?
    Answer. The NGB's unfunded priority list is in the table below. The 
National Guard Bureau requests Congress' support for the critical 
personnel, operation and maintenance, procurement, and military 
construction funding included in the fiscal year 2021 President's 
Budget request that will support the National Guard. Funding for these 
items are the highest priority for the National Guard Bureau, and 
necessary for the National Guard to support the National Defense 
Strategy.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Question. How are you working with the Active Duty component to 
prioritize the Guard's delivery timelines for equipment and aircraft? 
Should Congress look at how the Services are prioritizing Guard 
deliveries?
    Answer. The Air National Guard continues to work in concert with 
Headquarters Air Force and the Major Commands on deliveries of aircraft 
and equipment with an emphasis of balanced and proportional fielding. 
Based on the requirements of the current National Defense Strategy and 
the preponderance of legacy force structure within the Reserve 
Component, significant adjustments are required in order to ensure 
relevance and readiness across the Total Force. The components are 
actively collaborating on those adjustments but a great deal of work 
remains. This includes programs where proportional fielding is planned 
but the timeline places the Air Guard towards the end of the fielding 
schedule. Since prioritization varies across the Components and for 
each of the major programs, the Service should be allowed to continue 
to work the progressive efforts that are currently underway; each 
annual budget position will convey the Services' overall status.
    The Army National Guard participates as a full partner in the 
Army's procurement budget development and submission, from requirements 
determination through validation and prioritization, including a post-
appropriation reconciliation at the component level. The Army 
prioritizes equipment fielding to units based on prioritization to 
``first in contact'' units--regardless of component. The budget 
submission includes the plan for future distributions to the Army Guard 
based on requirements and known employment, and are again staffed and 
agreed with by the Army National Guard during post-appropriation 
reconciliation.
    Question. If a National Guard Space Force is not created, will 
there be an impact on operations?
    Answer. Most likely, over time. While the National Guard's space 
mission will continue, they will face growing challenges over the next 
few years if National Guard space units are not aligned with their 
active duty counterparts under the United States Space Force (USSF). 
For example, Air National Guard space units would be managed under a 
different organizational construct than their active duty counterparts. 
As a result, funding gaps could occur due to the fact that the programs 
would no longer have funding lines under the Air Force, therefore could 
not be funded in the Air National Guard. This would result in issues 
with equipment and weapon systems. Operational gaps could occur from 
misalignment of tactics, techniques, procedures, and doctrine.
    Additionally, National Guard space units would be managed by an Air 
Force Major Command that does not manage or operate space missions, so 
their oversight could run counter to how USSF manages their active duty 
units, thus increasing operational, funding, and cultural gaps. These 
issues would require an inordinate amount of oversight and coordination 
to mitigate these disconnects between the USAF, ANG, NGB and the USSF.
    Question. If a National Guard Space Force is created, will there be 
additional costs?
    Answer. National Guard Bureau is aware that CBO assesses an annual 
cost of $100 million for a National Guard Space Force, however, the 
National Guard Bureau assesses that the costs of establishing a Space 
National Guard would be negligible, due to utilizing existing personnel 
and facilities with no additional requirements.
    Question. What are you doing to improve the quality of life to 
prevent suicides?
    Answer. In 2019, the National Guard expanded its approach to 
suicide prevention. The Warrior Resilience & Fitness (WRF) Division was 
established to synchronize Air and Army National Guard well-being, 
resilience, and suicide prevention efforts across the 54 States, 
territories, and DC. The goals are to: (1) align, promote, and enhance 
wellness and prevention best practices; and, (2) provide strategic 
oversight for outreach, innovation pilots, and data analysis.
    Question. What programs have you requested appropriations for to 
help with these issues?
    Answer. For fiscal year 2021, the National Guard requested 
approximately $36,200,000 for behavioral health and resiliency 
training. This includes $8,400,000 for suicide prevention in personnel 
and operation and maintenance funding. The National Guard Warrior 
Resilience & Fitness program has been funded strictly by congressional 
adds and discretionary funds.
    Question. As proven cases of the novel coronavirus increase, a 
governor may soon call on the National Guard to help with response. 
Whether the elite chem-bio response teams, a more general medical 
detachment, or even military police, I am concerned about the men and 
women who serve as or support first responders being exposed. What gaps 
currently exist in the equipment or capabilities of the National Guard 
to prepare or respond to a governor's request for assistance?
    Answer. The National Guard Chemical Biological Radiological Nuclear 
Response force to include the Weapons of Mass Destruction Civil Support 
Teams are ready to respond at a moment's notice to support the needs of 
governors and the nation. They are equipped with the latest protective 
equipment and are adequately resourced for a COVID 19 response. Other 
general purpose medical, security, and logistic units do not have 
stockpiles of protective clothing and must rely on the same supply 
chain their civilian counterparts at the State and Federal levels. 
There were no fiscal year 2020 NGREA request for additional protective 
equipment. As a result of our Nation's COVID 19 response, the National 
Guard, working with DoD, other Federal and State partners may need to 
address contingencies supplies.
    Question. Are you aware of the medical readiness issues for Reserve 
and Guard in regards to continuity of care when they go on and off 
orders?
    Answer. Individual medical readiness is hampered when a member 
comes off orders and there is a delayed onset of a condition related to 
their service. It is in this situation when the member will go back to 
try to get the medical issue resolved, but because they are no longer 
on orders they are not covered. Additionally, members are entitled to 
the benefit of Tricare prior to deployment to resolve issues. Often, 
this benefit is not authorized with enough time to process prior to 
their deployment. The Tricare entitlement is for 6 months prior to 
deployment, however the authorization is dependent upon a mobilization 
order which often doesn't come until shortly before the deployment.
    Question. What measures are in place to ensure continuity of care?
    Answer. Members injured in the Line of Duty (LOD) have up to 1 year 
to receive medical and dental care. Additionally, the Transition 
Assistance Management Program (TAMP) is available for the continuation 
of medical care given upon ending a contingency order for 6 months.
    Question. What specific programs or equipment will be impaired or 
jeopardized by the redesignation of NGREA funds, especially for units 
that rely on this funding to maintain and modernize their vital 
equipment? Please provide the specific line item for the program and 
the funding amount redesignated from the program in comparison to its 
required funding amount.
    Answer. According to the Joint Explanatory Statement accompanying 
the fiscal year 2020 Defense Appropriations Act, Congress's intent for 
providing NGREA funding is to ``allow the reserve components to procure 
high priority equipment that may be used for combat and domestic 
response missions.'' The loss of $790 million in NGREA funding will 
limit the ability for the National Guard to accelerate fielding 
capabilities ahead of the timeframe planned by the Army and Air Force. 
This delays equipping parity between service components.
    The following items will be delayed or deferred without the fiscal 
year 2020 NGREA funds: avionic upgrades, system survivability upgrades, 
bridging equipment, CBRN response equipment, and communications 
equipment. Also on the fiscal year 2020 buy list was equipment for 
National Guard activities in support of State responses to emergencies 
or disaster response, such as de-crowd civil disturbances, personal 
protective equipment that might be used by the National Guard for its 
COVID-19 response, water buckets for helicopters to fight fires, and 
search and rescue helicopter hoists. These items are for the National 
Guard's State response to emergencies or disasters, which are only 
purchased out of NGREA and are not found in the annual DoD budget 
request, where the National Guard's Federal mission requirements are 
requested.
    The National Guard does not procure by State, rather it procures 
capabilities that support many States and air wings within States. The 
charts below contain the funding and systems planned for the Army and 
Air National Guard NGREA purchases. The overall impact of the loss of 
this funding is a delay of up to 12 months for the quantities of these 
capabilities.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Question. As global threats shift, arctic weather conditions mimic 
the kind of environment our forces could face in the future.
    How are you ensuring that your troops receive Arctic and cold 
weather training? How does the Guard and Reserve provide Arctic and 
cold weather training?
    Answer. The 109th Airlift Wing, NY, is operationally tasked with 
polar airlift in both the Arctic and Antarctic. Qualification and 
proficiency training for this unique capability is accomplished 
primarily on the Greenland ice cap as well as through participation in 
USNORTHCOM exercises above the Arctic circle. The 109th also operates a 
specialized, barren-land Arctic survival school on the Greenland ice 
cap to support their operations in collaboration with the Survival, 
Escape, Resistance, and Evasion (SERE) instructors out of Eielson AFB, 
AK. Additionally, the 109th operates a Maintenance Recovery Team school 
for its LC-130H maintainers, training how to troubleshoot and fix 
aircraft that are stranded on the ice caps.
    Question. Are there plans to increase Arctic and Cold weather 
training for Reserve/Guard?
    Answer. The National Guard trains to meet the readiness 
requirements set forth by the active component in order to meet the 
National Defense Strategy.
                                 ______
                                 
                Questions Submitted by Senator Roy Blunt
    Question. General Lengyel, we talked earlier this week about 
Rosecrans in St. Joseph, Missouri. The 139th Airlift Wing is a premier 
C-130 base providing critical security for our national defense. 
Rosecrans is currently under consideration to host the next Aeromedical 
Evacuation Squadron. In addition to the skilled personnel already 
supporting, maintaining, and operating the C-130 fleet, Missouri's 
nursing and medical schools could provide the Air Force with excellent 
personnel to support this mission. The St. Joseph and Kansas City metro 
region produces over 4,000 nurses annually. Qualified medical 
candidates are being deferred due to limited positions because so many 
Missourians want to serve. It is easy to see how the Air Force could 
utilize this additional capacity in the Aeromedical Evacuation Squadron 
at Rosecrans. Could you talk a little about where that basing decision 
is in the process? And based on everything we know about how well 
suited Rosecrans is based on the criteria established by the Air force, 
could you talk a little about why Rosecrans wouldn't be a top 
candidate?
    Answer. The Air Force continues to work through the Strategic 
Basing Process to determine where to base the new Air National Guard 
Aeromedical Evacuation Squadron. Late last year, the Air Force narrowed 
down the candidate list from 14 units to seven units, of which 
Rosecrans is one of those seven. The Air Force began conducting the 
site surveys on those seven locations earlier this month and initially 
expected to select the preferred and reasonable alternatives in the 
next few months. That timeline may be delayed based on the current 
travel restrictions for military personnel in response to the COVID-19. 
In addition to looking at a unit's ability to recruit nurses and other 
medical positions from the local area, the basing process also looks at 
mission, capacity, environmental, and cost criteria to provide a 
holistic assessment to determine the best location for new missions.
    Question. General Lengyel, we also discussed the AVCRAD in 
Springfield, Missouri, which was established in 1961. It is one of four 
National Guard rotary wing aviation depot repair facilities. It 
directly supports 14 States and employs over 300 personnel in Missouri.
    Wise resource investments and a business model approach has allowed 
the AVCRAD to outperform its peers. It uses cutting edge technology to 
improve quality and save taxpayer dollars. For every $1 invested in the 
AVCRAD, the taxpayer saves almost $2-$3.
    Thanks to your support, $32 million in military construction 
funding for a Phase 3A maintenance facility is currently under 
construction with an expected move-in date in August 2020.The AVCRAD's 
current undersized facilities drastically slows repair throughput. Slow 
throughput both decreases national aircraft fleet readiness and 
requires higher cost repair solutions. Quite frankly, the AVCRAD 
requires additional space for new equipment and growth.
    This could be accomplished with a $40 million military construction 
Phase 3B project. The annual AVCRAD cost avoidance would rise from $212 
million to $281 million with this project. The $69 million cost 
avoidance increase would payback in less than a year.
    Since the AVCRAD is a regional facility that supports multiple 
States they are prioritized separately from individual State Adjutant 
General priorities within the Infrastructure Requirements Plan (IRP) 
process.
    I understand the IRP process allows the Director of the Army 
National Guard to select up to three regional facility projects to 
submit for inclusion in the Future Years Defense Plan. However, due to 
the low level of Army National Guard military construction funding, the 
Director of the Army National Guard has not consistently selected any 
regional projects in order to provide all available military 
construction funds to individual State requirements.
    While I am totally sympathetic to tight military construction 
budgets and individual State needs, I would like to find a way to work 
with you to move this project forward.
    Could you please take a look at that IRP process and see if there 
is a way to include more regional projects like the AVCRAD in Missouri 
for funding in future years?
    Answer. The Missouri project, Aircraft Maintenance Hangar Facility 
Phase 3B (PN 290110), will complete the consolidation of all operations 
under a newly modern facility at the Springfield Airport. It will 
provide critical maintenance hangar space for aircraft lifecycle 
maintenance operations. This project is a high priority with regional 
and national impacts on readiness and maintenance costs.
    Funding limitations and decisions to fund other Army National Guard 
priorities makes it difficult to recapitalize and expand these 
facilities. The Connecticut AVCRAD provides the same regional and 
national readiness, and requires an upgrade to their corrosion 
prevention facility. The National Guard is committed to exploring ways 
to balance resources between unit level needs and national level 
requirements. The Army National Guard looks forward to working with 
Congress to address these issues.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
    Question. In response to questions on the use of funds appropriated 
under National Guard and Reserve Equipment, you provided a few examples 
of Guard equipment purchased through the fund. Please elaborate on the 
types of equipment approved for purchase with fiscal year 2020 funding 
and its utility to the Federalized or non-Federalized mission. Please 
also identify what equipment will no longer be purchased given the 
administration's raid of the fund to support the border wall. For the 
Air National Guard?
    Answer. The most serious impacts for the Guard are to the readiness 
of our forces for domestic missions. The fiscal year 2020, National 
Guard and Reserve Equipment Account funds would mitigate modernization 
gaps or quantity shortfalls in capabilities with Critical Dual Use 
equipment and select commercial off-the-shelf items required to 
optimize National Guard domestic response capabilities to support and 
interface with first responders. A detailed summary of the impacted 
programs and equipment is below. As the money was reprogrammed for a 
higher Administration priority, none of the items in the attached list 
have been procured.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Question. In response to questions on the use of funds appropriated 
under National Guard and Reserve Equipment, you provided a few examples 
of Guard equipment purchased through the fund. Please elaborate on the 
types of equipment approved for purchase with fiscal year 2020 funding 
and its utility to the Federalized or non-Federalized mission. Please 
also identify what equipment will no longer be purchased given the 
administration's raid of the fund to support the border wall. For the 
Army National Guard?
    Answer. The ARNG uses NGREA funding to both accelerate 
modernization timelines for ARNG units and for unique, State-required 
equipment used for domestic operations performed by units such as the 
Weapons of Mass Destruction--Civil Support Teams (WMD-CSTs). The below 
table shows the items that were approved to be procured using the $395 
million in NGREA appropriations for the ARNG.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Question. In response to questions on the use of funds appropriated 
under National Guard and Reserve Equipment, you provided a few examples 
of Guard equipment purchased through the fund. Please elaborate on the 
types of equipment approved for purchase with fiscal year 2020 funding 
and its utility to the Federalized or non-Federalized mission. Please 
also identify what equipment will no longer be purchased given the 
administration's raid of the fund to support the border wall. For joint 
functions?
    Answer. The National Guard planned to use NGREA funding to procure 
equipment for the National Guard Chemical, Biological, Radiological, 
and Nuclear Response Enterprise (NG CRE) consisting of the Weapons of 
Mass Destruction-Civil Support Teams (WMD-CSTs), Homeland Response 
Forces (HRFs) and Chemical, Biological, Radiological, Nuclear, and 
High-Yield Explosive Response Force Packages (CERFPs). Equipment in 
these areas would support civil authorities at a domestic incident 
site, which include use or threatened use of a WMD; terrorist attack or 
threatened terrorist attack; natural or manmade disasters in the United 
States that result, or could result, in the catastrophic loss of life 
or property; by deploying critical command and control and life-saving 
capabilities, search and extraction, mass casualty decontamination, and 
medical stabilization in order to save lives and mitigate human 
suffering. Specific equipment not being procured for the NG CRE is 
below.
    Chemical Detector to detect unidentified compounds--Non-Traditional 
Agents (NTAs), such as Novichok use by the Russians in the United 
Kingdom, and Pharmaceutical based Agents (PBAs), specifically Fentanyl. 
The current down range Chemical Detector used by the WMD- CSTs does not 
have the capability to detect low level concentration of NTAs and PBAs. 
Fiscal year 2020 NGREA funding of $2.06 million for advanced chemical 
detection capability was necessary to fill the gap in capability until 
a Program of Record (POR) within the Chemical, Biological Defense 
Program can develop and field a man-portable down range capability to 
the WMD-CSTs to meet this requirement.
    NG CBRN Response Enterprise Information Management System (NG 
CIMS): CIMS provides all NG CRE forces the equipment and software 
capability to develop and share a common operating picture (COP) with 
NG CRE forces and with local, State and Federal responders during a 
domestic CBRN incident. NG CIMS supports the United States Northern 
Command (USNORTHCOM) COP effort for response in the homeland. Each 
year, the NGB is required to brief Congress on the status of the NG 
CIMS program. fiscal year 2020 NGREA funding of $2.7 million for CIMS 
would have completed procurement of essential equipment. Radiation 
Portal to screen civilian victims for radiation contamination for 
sustaining large population decontamination throughput for a major or 
catastrophic radiological or nuclear incident. Radiation Portals enable 
rapid screening of victims prior to entering and exiting the 
decontamination process. fiscal year 2020 NGREA funding of $1.2 million 
for Radiation Portals would have completed the procurement and 
eliminated the need for time consuming ``wanding'' of victims, 
significantly improving the decontamination process and victim 
throughput.
    NG CRE forces would use Unmanned Aerial Vehicle (UAV) with day/
night infrared systems to conduct reconnaissance prior to sending 
soldiers and airmen downrange into a potentially life- threatening 
environment. UAVs provide the stand-off reconnaissance of collapsed 
structures, wide area search for casualties, and the location of 
obstacles, safety hazards and force protection requirements within 
known or suspected CBRN contaminated areas. fiscal year 2020 NGREA 
funding of $1.4 million would have been used to purchase and field UAVs 
to the HRFs and CERFPs.
    The legacy radiation detector (UDR-14) mounted on the National 
Guard WMD-CST TALON IV CBRN Robot has limited capability and has become 
obsolete. WMD-CSTs require a capability to detect all radiation hazards 
to include alpha, beta, gamma, and neutron as well as identify 
isotopes. Radiation detector integration on the WMD-CST Talon IV Robot 
is required for the WMD-CST mission of confirming or denying the 
presence of all types of hazards in a radiation environment. fiscal 
year 2020 NGREA funding of $3.8 million would have been used to replace 
the UDR-14 mounted on the 62 WMD-CST Talon IV Robots.
    Question. In response to questions on the use of funds appropriated 
under National Guard and Reserve Equipment, you provided a few examples 
of Guard equipment purchased through the fund. Please elaborate on the 
types of equipment approved for purchase with fiscal year 2020 funding 
and its utility to the Federalized or non-Federalized mission. Please 
also identify what equipment will no longer be purchased given the 
administration's raid of the fund to support the border wall. 
Specifically for pandemic preparedness and response?
    Answer. NGREA funding was necessary to fill equipment gaps for the 
National Guard Chemical, Biological, Radiological, and Nuclear Response 
Enterprise (NG CRE) consisting of the Weapons of Mass Destruction-Civil 
Support Teams (WMD-CSTs), Homeland Response Forces (HRFs) and Chemical, 
Biological, Radiological, Nuclear, and High-Yield Explosive Response 
Force Packages (CERFPs). Equipment in these areas would support civil 
authorities at a domestic incident site, which include use or 
threatened use of a WMD; terrorist attack or threatened terrorist 
attack; natural or manmade disasters in the United States that result, 
or could result, in the catastrophic loss of life or property; by 
deploying critical command and control and life-saving capabilities, 
search and extraction, mass casualty decontamination, and medical 
stabilization in order to save lives and mitigate human suffering. 
Specific equipment not being procured for the NG CRE is below.
    Question. As proven cases of the novel coronavirus increase, a 
governor may soon call on the National Guard to help with response. 
Whether the elite chem-bio response teams, a more general medical 
detachment, or even military police, I am concerned about the men and 
women who serve as or support first responders being exposed. If a 
multi-State response is required, what gaps currently exist in the 
Guard's equipment or capabilities?
    Answer. The National Guard, as the Nation's first military 
responders, is supporting the governors' request for COVID 19 response 
support in addition to all other emergency and disaster response needs 
or requests. Of note, there is currently no National Guard stockpile of 
personal protective equipment for a pandemic response. All stocks that 
have been used were bought during the H1N1 response in 2009, or from 
State medical supplies, and both were of limited quantity. In addition, 
PPE supplies, associated with a pandemic response, have been bought by 
OSD and have been distributed to the States. The expectation is all PPE 
requirements will be provided by the supported State or Federal agency 
or facility.
    Question. Your position on the Joint Chiefs was established to 
provide the President with the best military advice in service of the 
Guard, in particular the advice that only you can give related to the 
Guard in its non-Federalized mission supporting the States.
    Has the Coronavirus Task Force requested advice from you or the 
Bureau on the possible use of the Guard under command of the governors 
to respond to the current outbreak or prepare for pandemic response?
    Answer. The National Guard Bureau (NGB) has General Officer 
participation in the Department of Defense Coronavirus Task Force and 
one officer embedded in the team. NGB has daily communication with the 
Task Force and is providing staff input as the department considers how 
to support the response. The Secretary of Defense and Chairman of the 
Joint Chiefs of Staff participated on an ``All States Call'' between 
the 54 Adjutants General and the Chief of the National Guard. The 
Adjutant Generals were clear on their States needing 502(f) assistance 
from the Secretary of Defense in order to protect the citizens of their 
States.
    Question. Has NORTHCOM requested information for the purpose of 
planning coordination on the prospective use of Guard units under 
command of their governors?
    Answer. The National Guard Bureau (NGB) and NORTHCOM share 
information. NGB provides NORTHCOM a daily operations summary of each 
State's actions. The summary aids NORTHCOM in planning for the future. 
NGB anticipates an increased coordination requirement if the number of 
Title 10 forces supporting the response increase. NORTHCOM is 
coordinating with NGB and the Office of the Secretary of Defense on 
Policy regarding all State Dual-Status Commander (DSC) requests from 
the Governors.
                                 ______
                                 
                Questions Submitted by Senator Tom Udall
    Question. Can you identify how many National Guard troops are 
currently at the border?
    Answer. As of 23 March 2020 there are 2,523 personnel supporting 
southwest border effort.
    Question. What States are they supporting?
    Answer. As of 23 March 2020 California, Arizona, New Mexico, Texas 
are supporting the southwest border mission.
    Question. What is their current mission set or role?
    Answer. The National Guard (NG) is providing U.S. Customs & Border 
Protection (CBP) both ground and aviation support. The NG is assisting 
CBP with various missions to include: detection and monitoring, 
involving ground-based mobile and fixed security camera systems as well 
as aircraft based cameras and sensors. Other ground missions include 
supporting information analysis; vehicle, equipment, and infrastructure 
maintenance support; administrative, paralegal, and logistics 
management support. Aviation support additionally provides light and 
medium helicopter lift capacity to enhance CBP agent response times.
    Question. What is the breakdown by service?
    Answer. The breakdown by Service on the border is Army National 
Guard: 2,329 and Air National Guard: 194
    Question. How much money has been diverted from Department of 
Defense and National Guard budgets to date as a result of the 
deployments?
    Answer. In reference to the fiscal year 2020 Title 32 National 
Guard support to Southwest Border, the National Guard continues to cash 
flow the Southwest Border Mission with its appropriated resources. The 
projected fiscal year 2020 fully burdened cost estimate for this 
mission is $319 million and as of 3 June 2020, the National Guard 
executed a total of $227 Million (Personnel--$185 Million and 
Operations and Maintenance--$42 Million). As of 11 June 2020, the Army 
National Guard and Air National Guard are funding the SWB activities 
using offsets from appropriated funding.
    Question. The Department of Defense established new policies for 
maternity leave as part of the ``Force of the Future'' initiative in 
2016. This new policy authorized 12 weeks fully paid maternity leave 
after normal pregnancy and childbirth for active duty service members.
    However, there was no such change for reserve personnel. In the 
reserves, if the female service member does not perform duty within the 
allotted timeframe, the service member is in jeopardy of not receiving 
credit for their military service and points towards retirement.
    Under the current law, reserve component members in reserve 
training status are required to attend unit training assemblies 
(weekend drill) in order to receive points towards creditable military 
service.
    If the female service member does not perform duty within the 
allotted timeframe, the service member is in jeopardy of not receiving 
credit for their military service and points towards retirement. Would 
you support a legislative fix for this problem, such as the MOMs Act I 
introduced this Congress?
    Answer. Members of the Reserve Component, serving in a full-time 
capacity are already entitled to the same parental leave benefits as 
Active Component members. For our drilling status Guardswomen, I 
support any action that cares for our families appropriately. Doing so 
will enable us to recruit and retain the very best men and women.
    Question. Do you agree with the Congressional Budget Office that 
the price would be negligible to make this legislative fix?
    Answer. Currently, each member is expected to attend, and get paid 
for, 12 Unit Training Assembly drill periods. There are approximately 
6,500 female Reserve Component members who give birth per year. Paying 
for 12 IDT periods, such as provided for in this language, for each of 
these members, would cost approximately $8.9 million per year (fiscal 
year 2019 estimate) in lost manpower. That is, members who give birth 
and may have previously been excused and did not make up the missed IDT 
periods would now be paid directly for those periods.
    Question. I asked last year whether there was a plan in place to 
ensure New Mexico will be unit equipped with a sustainable and viable 
mission in the near future. I mentioned that the CV-22 mission was one 
possible option for the 150th ANG, and last year I led a letter from 
the New Mexico delegation to Secretary Wilson urging the transfer of 
HH-60G's to the 150th. What is the current status of getting a flying 
mission back to New Mexico? Is there any reason why New Mexico, a 
border State with excellent flying conditions and mountainous terrain 
perfect for training should be without a flying mission?
    Answer. In collaboration with the Air Force, the National Guard 
Bureau continually evaluates potential unit equipped missions for 
various units including the 150 Special Operations Wing (SOW). There 
are currently no validated and funded mission requirements. Any new 
mission beddowns are determined via the Air Force's Strategic Basing 
Process. Ongoing evaluations include the AC-130J, MC-130J, CV-22, HH-
60G and Armed Overwatch. The 150 SOW's manpower presents a cost-
effective option to resourcing future requirements. While having a 
unit-equipped mission in each State is an ANG Capstone principle it is 
not a sole determinate in validating and resourcing AF requirements.
    Question. When will the New Mexico National Guard receive a flying 
mission? What is the plan?
    Answer. The 150 Special Operations Wing (SOW) is executing the HH-
60, HC-130 and CV-22 flying training mission. There is currently no 
timeline for the 150 SOW to receive a unit-equipped flying mission. In 
collaboration with the Air Force, the National Guard Bureau continually 
evaluates potential unit equipped missions for various units including 
the 150 SOW. Air Force Special Operations Command (AFSOC) led a site 
visit to the 150 SOW earlier this month to initially determine the 
feasibility of transferring the AC-130 flight training mission to 
Kirtland Air Force Base. Other mission requirements such as HH-60s and 
MC-130s continue to be evaluated for feasibility.
    Question. Can you provide a timeline for when the New Mexico 
National Guard will once again receive a flying mission? If not, when 
can the delegation expect a timeline for a new mission?
    Answer. The 150 Special Operations Wing (SOW) is executing the HH-
60, HC-130 and CV-22 flying training mission. There is currently no 
timeline for the 150 SOW to receive a unit-equipped flying mission. In 
collaboration with the Air Force, the National Guard Bureau continually 
evaluates potential unit equipped missions for various units including 
the 150 SOW. Air Force Special Operations Command (AFSOC) led a site 
visit to the 150 SOW as of March 2020 to initially determine the 
feasibility of transferring the AC-130 flight training mission to 
Kirtland AFB. Other mission requirements such as HH-60s and MC-130s 
continue to be evaluated for feasibility.
    Question. National Guard and Reserve troops are an essential part 
of America's national defense strategy. Over the past two decades, they 
have been used in an operational capacity, constantly serving on 
domestic and international missions to help protect our country. 
Despite conducting the same duties as their active duty counterparts, 
they are not receiving the same credit for their active time. To 
support our service members in reserve components, changes must be made 
to reflect the total force mentality. The National Guard's suicide rate 
has climbed higher than the active duty and Reserve's, according to an 
annual Pentagon study released September 2019. In response, officials 
are looking for new ways to help troops feel comfortable coming forward 
about their issues and getting help they need. The most recent figure 
is about 30.6 deaths per 100,000 service members, according to the 
Defense Department Annual Suicide Report for calendar year 2018, well 
above the Reserve's 22.9 per 100,000 and the active component's 24.8.
    What is the guard and reserve doing to address the high suicide 
rates?
    Answer. In 2019, the National Guard (NG) expanded its approach to 
suicide prevention and established the Warrior Resilience & Fitness 
(WRF) Division to synchronize Air and Army National Guard well-being, 
resilience, and suicide prevention efforts across the 54 States, 
territories, and DC. The goals are to: (1) align, promote, and enhance 
wellness and prevention best practices; and, (2) provide strategic 
oversight for outreach, innovation pilots, and data analysis.
    Question. What are the current programs and how are they 
implemented in a part time force?
    Answer. The current Army National Guard (ARNG) initiatives include 
Suicide Prevention Training, Master Resilience Training, Suicide 
Prevention Proof of Concept, and Unit Risk Inventory.
    The ARNG provides a Suicide Prevention Program Manager to each 
State, territory, and DC to conduct prevention and advanced 
intervention training for all members. These trainings enable them to 
recognize the signs of suicide in themselves and others, have the 
confidence and skills to intervene appropriately, and connect those in 
need to military and community resources.
    Master Resilience Training: ARNG provides one Master Resilience 
Trainer per company to advise commanders on increasing unit resilience, 
and to train Soldiers in specific resilience skills on an ongoing 
basis. Soldiers and Families use these skills at drill, during 
deployment, and at home in their communities to persevere and thrive 
through adversity.
    ARNG Suicide Prevention Proof of Concept: A Brigade from the South 
Carolina ARNG is actively participating in the SECARMY's Suicide 
Prevention Proof of Concept through fiscal year 2021. This proof of 
concept targets several new trainings to particular ranks and 
leadership levels, provides commanders with new risk assessment tools, 
and embeds Performance Experts into each company that will 
operationalize resilience in their units.
    Unit Risk Inventory (URI): The ARNG provides trained personnel who 
directly assist commanders to evaluate unit risk, to include substance 
abuse, interpersonal violence, and suicide. These personnel then help 
the commander develop and implement mitigation strategies that are 
tailored to their unit.
    The current Air National Guard (ANG) initiatives include Leadership 
Suicide Prevention Talking Points, Suicide Analysis Board (SAB), 
Prevention Action Group,
    Quarterly Leadership Talking Points to assist ANG leadership with 
ongoing conversations with their members using safe messaging. The 
intent of these talking points and videos is to spend a few minutes 
during a regularly scheduled meeting/briefing to discuss suggested 
topics and engage with their members in a meaningful way, building 
connections and strengthening relationships. Topics included: Social 
Media, Time based prevention, Resiliency, Connectedness, etc.
    In March 2019, the ANG conducted the first ever ANG SAB, which 
consisted of an in-depth review of 12 ANG suicide deaths from CY18. The 
multidisciplinary board developed 11 ANG recommendations aimed at 
preventing future ANG suicide deaths.
    The Preventions Action Group was established to bring together six 
disciplines (Drug Demand Reduction (DDRP), Sexual Assault Prevention 
and Response (SAPR), Directors of Psychological Health (DPH), Equal 
Opportunity (EO), Chaplains, and Suicide Prevention Program (SPP)) to 
provide synergy towards effective resiliency prevention, education, and 
outreach.
    Question. What actions are you taking to reduce the stigma for 
getting help?
    Answer. The National Guard (NG) is committed to developing and 
sustaining a culture that values support seeking behaviors for all 
Service members. As such, we are building targeted solutions that 
reduce stigma and increase wellness by reinforcing that seeking help is 
a strength.
    The NG is reducing the stigma of seeking support by increasing 
access to care and expanding local counseling services through multiple 
efforts.
    Star Behavioral Health Providers Program is a partnership with the 
Uniformed Service University and Purdue University to develop networks 
of civilian providers trained in military culture, the deployment 
cycle, and mental health treatments relevant to the NG. By breaking 
down barriers between the military and civilian communities, this 
initiative encourages help seeking behavior, builds trust between 
Service members and their providers, and allows for open and honest 
dialogue.
    In fiscal year 2019 the Warrior Resilience & Fitness program 
established a pilot program. One phase of the program is for embedded 
clinician to engage with Service Members, offer initial support 
services, and provide referrals as needed during drill weekends. This 
pilot program is helping to reduce stigma by making community providers 
readily available and part of the team.
    The pilot also provides NG Service members a variety of services 
including: ID cards, employment advisors, behavioral health 
specialists, Veterans Affairs advisors, health and wellness coaches, 
and transitional assistance at a centralized location. This pilot 
program is helping to change the way Service members view counseling by 
making it a standard resource available among other common support 
services.
    Several other pilot proposals are under review that would help to 
shift the culture to one that values support seeking behaviors by 
providing training aimed to reduce stigma across a broad range of 
prevention domains, mobile applications to enable easy access to 
resources and crisis support, and confidential consultation with 
community providers.
    The NG is working with leaders to promote a culture of seeking help 
early and often. The Air National Guard (ANG) conducted a resilience 
pause to provide an opportunity for commanders to engage with their 
Airmen to promote trust and confidence and to gain much needed feedback 
about how to better support our Airmen. A ``playbook'' with resources 
were developed to help guide the discussions and activities around 
acknowledging that seeking help is a strength.
    Question. The current Air National Guard space units will be 
located in California, Guam, Alaska, Hawaii, Colorado, New York, Ohio 
and Florida. I would like to get in the record that New Mexico has many 
assets that can both contribute to the new Space Force and a National 
Guard mission focused on Space. New Mexico is well suited to support 
and test multiple space capabilities and acquisitions and request the 
guard and reserve to look at New Mexico has a future hub for space 
initiatives. Will you work with the New Mexico National Guard to 
identify equities that can support the Space Force mission in New 
Mexico?
    Answer. Yes.
    Question. The Department of Defense established new policies for 
maternity leave as part of the ``Force of the Future'' initiative in 
2016. This new policy authorized 12 weeks fully paid maternity leave 
after normal pregnancy and childbirth for active duty service members.
    However, there was no such change for reserve personnel. In the 
reserves, if the female service member does not perform duty within the 
allotted timeframe, the service member is in jeopardy of not receiving 
credit for their military service and points towards retirement.
    Under the current law, reserve component members in reserve 
training status are required to attend unit training assemblies 
(weekend drill) in order to receive points towards creditable military 
service.
    If the female service member does not perform duty within the 
allotted timeframe, the service member is in jeopardy of not receiving 
credit for their military service and points towards retirement. Would 
you support a legislative fix for this problem, such as the MOMs Act I 
introduced this Congress?
    Answer. We support a legislative change that permits a member of 
the Reserve Component (RC), who is the primary or secondary caregiver 
in the case of the birth or adoption of a child, to receive retirement 
points while on leave in connection with such birth or adoption. This 
change would align with current Active Component (AC) authorities that 
allows a primary caregiver up to 12 weeks of total leave associated 
with a birth or adoption of a child, and up to three weeks of leave for 
a secondary caregiver. Today, this is not the case for servicemembers 
of the RC, who are only eligible for the same benefits if on active 
duty for certain qualified periods. This newly proposed bill offers 
parity between the AC and RC, providing a parental leave policy that 
takes care of servicemembers across the Total Force.
    Question. Do you agree with the Congressional Budget Office that 
the price would be negligible to make this legislative fix?
    Answer. Yes, we concur that cost would be negligible. As proposed, 
members who give birth would be entitled to receive 12 points toward 
retirement (or equivalent of 3 months of missed drill periods), 
alleviating concerns about missing a good (qualifying) retirement year 
due to maternity absence and affords the ability to flexibly reschedule 
drill periods missed during maternity periods for compensation. 
Supporting information: Flexible rescheduling is already practiced by 
Navy and introduces no additional new cost. Further, the cost of a 
retirement point varies by rank and years of service and ranges between 
$0.25/month to $0.90/month. 12 points might equate to $100/year at age 
60 but would not change Retired Pay Accrual actuarial tables for a 
small target population.
    Question. National Guard and Reserve troops are an essential part 
of America's national defe nse strategy. Over the past two decades, 
they have been used in an operational capacity, constantl y serving on 
domestic and international missions to help protect our country. 
Despite conducting the same duties as their active duty counterparts, 
they are not receiving the same credit for their a ctive time. To 
support our service members in reserve components, changes must be made 
to refl ect the total force mentality.
    The National Guard's suicide rate has climbed higher than the 
active duty and the other Reserve Components, according to an annual 
Pentagon study released September 2019. In response, officials are 
looking for new ways to help troops feel comfortable coming forward 
about their issues and getting help they need.
    The most recent figure is about 30.6 deaths per 100,000 service 
members, according to the Defense Department Annual Suicide Report for 
calendar year 2018, well above the Reserve's 22.9 per 100,000 and the 
active component's 24.8.
    What is the guard and reserve doing to address the high suicide 
rates?
    Answer. To address suicide and other destructive behaviors, the 
Chief of Naval Operations established the Culture of Excellence, a 
Navy-wide framework designed to promote signature healthy behaviors and 
enhance warfighting excellence by instilling toughness, trust, and 
connectedness in Sailors. Navy is using evidence-informed primary 
prevention strategies to reduce destructive behaviors though decreased 
risk factors and to promote signature healthy behavior by increasing 
protective factors.
    Relationships, legal problems, financial difficulties, transition 
periods, and mental health issues continue to be common stressors in 
most suicides. Of note, over 40 percent of Sailors who died by suicide 
never deployed.
    As part of our Culture of Excellence, suicide prevention measures 
include increasing embedded mental health providers who deliver direct 
support to our warfighters as far forward as possible for early 
intervention. We have also placed deployed resiliency counselors, which 
are civilian social workers, onboard aircraft carriers and large 
amphibious ships. An Expanded Operational Stress Control program was 
developed to be used in conjunction with the Command Resilience Team 
Network to assist leaders in the use of chaplains, medical personnel, 
counselors, and community resources to build a culture that is 
supportive of help-seeking behaviors. The goal of the program is to 
assist Navy leaders build resilience within commands and individual 
Sailors by increasing the awareness and understanding of stress and 
providing strategies to mitigate detrimental effects. Navy's vision is 
to develop an environment in which all Sailors are trained and 
motivated to navigate stress, assist their shipmates, and, most 
importantly, seek help from available resources early.
    Question. What are the current programs and how are they 
implemented in a part time force?
    Answer. Suicide prevention measures for active and reserve Sailors 
under our Culture of Excellence framework include increasing embedded 
mental health providers who deliver direct support to our warfighters 
as far forward as possible for early intervention. We have also placed 
deployed resiliency counselors, which are civilian social workers, 
onboard aircraft carriers and large amphibious ships. An Expanded 
Operational Stress Control program was developed to be used in 
conjunction with the Command Resilience Team Network to assist leaders 
in the use of chaplains, medical personnel, counselors, and community 
resources to build a culture that is supportive of help-seeking 
behaviors. The goal of the program is to assist Navy leaders build 
resilience within commands and individual Sailors by increasing the 
awareness and understanding of stress and providing strategies to 
mitigate detrimental effects. Navy's vision is to develop an 
environment in which all Sailors are trained and motivated to navigate 
stress, assist their shipmates, and, most importantly, seek help from 
available resources early.
    Our primary suicide prevention program for the Navy Reserve is the 
Psychological Health Outreach Program (PHOP). PHOP was created in 2008 
to ensure reserve component service members and families have access to 
psychological health services prior to deployment, post- 
demobilization, and before retirement/discharge. PHOP is funded by the 
Navy's Bureau of Medicine and Surgery to provide support for both Navy 
and Marine Corps reserve component personnel who normally reside 
outside of fleet concentration areas. We are grateful for your 
continued support of this important program.
    Question. What actions are you taking to reduce the stigma for 
getting help?
    Answer. In addition to our Culture of Excellence, we are supporting 
a Defense Suicide Prevention Office funded pilot study that the Office 
of People Analytics is conducting: Resources Exist, Asking Can Help 
(REACH). REACH is designed to address barriers to help- seeking and is 
targeted for junior enlisted personnel. By using a model where leaders 
are trained to facilitate the small group discussions utilized in 
REACH, the leaders themselves are also learn the resources available 
and the importance of seeking help early. Our leaders are therefore 
better able to encourage Sailors to seek help as well as direct them to 
appropriate resources.
    Every member of the Navy community influences the conversation 
about suicide and psychological health. Leaders, Sailors, providers and 
family members must work together to create a culture where Sailors 
feel comfortable seeking help and have the support to maintain 
psychological and physical readiness. Staying connected and actively 
engaged can promote early recognition of distress, build community and 
break down barriers that may prevent intervention and care. The Every 
Sailor, Every Day Campaign is an evidence-informed health 
communications campaign designed to educate and empower active and 
reserve component Sailors and their families to practice ongoing self-
care, build resilience, navigate stress, recognize risk, seek help, 
intervene early and practice lethal means safety during times of 
increased stress. The campaign aims to reduce barriers and negative 
perceptions associated with seeking psychological healthcare by 
upholding a culture that supports and promotes seeking help.
                                 ______
                                 
              Questions Submitted by Senator Tammy Baldwin
    Question. The 2020 National Guard and Reserve Equipment Report 
states that the Army National Guard identified the Heavy Expanded 
Mobility Tactical Truck (HEMTT) as ``Significant Major Item Shortage.'' 
Specifically, the ARNG is short 435 HEMTTs which corresponds to a 
$213.75 million funding shortfall. What is the ARNG's plan to mitigate 
the impacts of this shortfall? What specific requirements will be 
impacted as a result of this shortfall?
    Answer. The shortage reflected in the National Guard and Reserve 
Equipment Report (NGRER) is a modernization shortage, rather than an 
equipment on hand shortage. The Army National Guard is currently at 90 
percent on hand for the Heavy Expanded Mobility Tactical Truck (HEMTT) 
of which 40 percent is =the least modernized; this ``modernization 
shortfall'' is included in the numbers reflected in the fiscal year 
2020 NGRER (435 HEMTTs, for a total of $213.75 million). The Army 
National Guard will continue to utilize the legacy HEMTT to mitigate 
the impacts of the modernization shortfall. With this mitigation, there 
are no current specific requirements that will be impacted as a result 
of the HEMMT shortfall. The Army's HEMMT strategy is to increase 
modernization. The Army National Guard will continue to coordinate with 
the Department of the Army and Congress to ensure modernization of the 
HEMTT fleet maintains pace with the active duty Army.
    Question. Currently, National Guard personnel assigned to Office of 
Complex Administrative Investigations (OCI) investigator positions or 
to the Special Victims Counsel (SVC) program are limited to serving in 
those positions for no longer than 3 years--or 1,095 days--in any 4 
year period. How would exempting these two positions from the ``1095 
rule'' improve the National Guard's ability to support victims of 
sexual assault?
    Answer. Exempting OCI personnel from the ``1095 rule'' would result 
in timelier sexual assault investigations and more efficient use of 
taxpayer dollars. The present system requires OCI to engage in constant 
recruiting and training, wasting time and money, which could be 
partially avoided with a 1095 exemption.
    All OCI investigators must meet stringent education, experience and 
background qualifications. One-year Active Duty for Operational Support 
tour funding, along with the limitation of said orders not to exceed 
1,095 days, disrupts mission continuity needed to respond timely to 
requests for investigation. The result is the constant turnover of 
highly trained and experienced personnel for untrained and 
inexperienced personnel. Every year, victims (and State Adjutants 
General who request the investigations) must wait as investigations are 
delayed while a new group of investigators is rotated through the 
required training. Exemption from the ``1095 rule'' would allow OCI to 
retain proven, trained, and experienced investigators.
    Exempting National Guard Special Victims' Counsel (NG SVC) 
personnel from the ``1095 Rule'' would directly improve the National 
Guard's ability to support NG SVC clients as well as NG SVC Program 
operations. Specifically, an exemption from the 1095 Rule would 
increase the likelihood that an NG SVC could continue client 
representation through the duration of a client's case without that 
representation being arbitrarily truncated regardless of case or client 
needs. In addition to the inherent inefficiency of switching legal 
counsel prior to the conclusion of representation, such actions 
significantly increase the likelihood of generating anxiety in clients 
who must then develop a new attorney-client relationship in the middle 
of what is often an already inherently uncertain and stressful period 
of their life.
    In addition to the challenges associated with all ADOS recruiting 
and retention efforts, NG SVC practice requires significant training 
and certification beyond those required of other Judge Advocate and 
paralegal positions. These requirements, when coupled with the 
requisite characteristics and temperament needed for personnel who 
support victims of sexual assault, create a constant and significant 
strain on recruiting and retention for the NG SVC Program. The 1095 
Rule limitations combined with the year-to-year ADOS construct often 
dissuade potential personnel in an already limited pool of qualified 
applicants from requesting appointment to the NG SVC Program.
    Finally, the 1095 exception process creates an administrative 
burden. NG SVCs must initiate discussions with each of their clients 
regarding potential retention, transfer, or termination of each case. 
While preparing requests for NG SVCs who require 1095 Rule exceptions, 
the NG SVC Program must prepare to transfer all of those NG SVC's cases 
to new NG SVCs in preparation for a potential denial of the exception. 
This process generates uncertainty, diverts program resources, and 
creates additional stress for NG SVCs and their respective clients.
                                 ______
                                 
      Questions Submitted to Lieutenant General Charles D. Luckey
             Questions Submitted by Senator Lisa Murkowski
    Question. What are you doing to improve the quality of life to 
prevent suicides?
    Answer. The Army Reserve is dedicated to Suicide Prevention and 
continues to work diligently to further reduce suicides across our 
force. As part of our mitigation strategy to prevent suicides, we 
examined and analyzed reports of ideations and attempts. In a sampling 
of the reports, we found the following percentages centered on the top 
four stressors in Army Reserve suicides: Financial Issues/Debt (50 
percent), Relationship/Family conflict (30 percent), Mental/Behavioral 
Health (10 percent), and Substance Abuse (10 percent). Our quality of 
life improvements that addressed suicide within the force focused on 
these areas.
    To address the financial stressors the Army Reserve is assisting 
Soldiers in acquiring employment through the Private Public Partnership 
Office (P3O). P3O is regionally aligned throughout Army Reserve 
Regional Support Commands and Functional Commands to provide support to 
Soldiers seeking employment. Services include resume building, 
interview skills, and corporate partnerships with local and national 
employers giving Soldiers direct access to company hiring personnel.
    With regard to the relationship and mental health stressors there 
are several efforts within the Army Reserve to connect with Soldiers 
and reduce suicides. Resilience efforts accomplished through Strong 
Bonds and the Yellow Ribbon Program supports Family resilience and 
Soldier reintegration from deployment to mitigate stressors. We have 
PhDs on staff at the Readiness Divisions who are licensed and trained 
to assist Soldiers with behavioral health issues and to advise 
commanders. In addition, Military OneSource--a DoD-Funded Program--
provides Army Reserve Soldiers with free access to non-medical 
counseling and peer to peer support. Further, Vet 4 Warriors\*\ serves 
Army Reserve Soldiers and Family members. Vet 4 Warriors\*\ provides 
immediate, free, and long-term peer support to the Army Reserve through 
confidential phone, chat, text, and email conversations to help those 
they serve live better lives. Give An Hour* Counseling Services is 
another resource available to our Army Reserve Family--Give An 
Hour's\*\ mission is to develop national networks of volunteers capable 
of responding to both acute and chronic conditions that arise within 
our society. By harnessing the skill and expertise of volunteer 
professionals, they can increase the likelihood that those in need 
receive the support and care they deserve. Give An Hour\*\ provides 
free mental healthcare to the Army Reserve Soldiers and Family members.
---------------------------------------------------------------------------
    \*\ Vet 4 Warriors and Give An Hour are private non-Federal 
entities. References to these 
organizations in this response is not intended to present an official 
endorsement by the Army Reserve.
---------------------------------------------------------------------------
    The Army Reserve substance abuse program directly addresses the 
substance abuse stressor. This program enables drug testing at all 
units to identify Soldiers with potential substance abuse problems. The 
program also enables Soldiers to get the necessary support to manage 
and recover from substance abuse.
    Question. What specific programs are supported by appropriations 
which help with these issues?
    Answer. The Holistic Health and Fitness, Suicide Prevention, Yellow 
Ribbon, Employer Support and Soldier and Family programs are all 
supported by appropriations. These programs help with suicide 
prevention issues.
  --Holistic Health and Fitness Program (H2F): H2F is a comprehensive, 
        integrated, and immersive health and fitness ``System'' of 
        governance, personnel, equipment/facilities, programming, and 
        education. The framework H2F encompasses all aspects of human 
        performance to optimize Soldier personal readiness, reduce 
        injury rates, improve rehabilitation after injury, and increase 
        the overall effectiveness of the Total Army.
  --Suicide Prevention Program: The Army Reserve Suicide Prevention 
        Program is based on four pillars: (1) provide resources; (2) 
        educate the force; (3) reduce the stigma; and (4) involve 
        Families. The top four stressors leading to Army Reserve 
        suicides are financial issues/debt, relationship/family 
        conflict, mental/behavioral health, and substance abuse.
  --Soldier and Family Programs: Army Reserve Family Programs provides 
        oversight of regional delivery of programs and services to 
        Soldiers, Family members, command teams, and Civilians. Family 
        Programs underwent a program review resulting in the transfer 
        of functions to Readiness Divisions, delivering programs closer 
        to Families that benefit from them.
  --Yellow Ribbon Program: The Army Reserve Yellow Ribbon Reintegration 
        Programs (YRRP) events and activities are an important part of 
        deployment cycle support. Preparation and execution of YRRP 
        events assist in administrative, logistical, mental and 
        behavioral preparedness.
  --Employer Support Program (P3O): P3O supports Soldiers, veterans and 
        military families across the business industry and academia. 
        The Private/Public Partnership (P3) initiative builds a 
        nationwide network of not-for-profit, for-profit and academic 
        organizations. P3 assists Soldiers in gaining access to unique 
        training opportunities that allow them to apply their expertise 
        and leadership skills to real-world projects correlating with 
        military experience.
    Question. Are you aware of the medical readiness issues for Reserve 
regarding continuity of care when they go on and off orders?
    Answer. The Army Reserve is aware of challenges relating to 
continuity of care for Soldiers while they transition between duty 
statuses. These challenges revolve around the lack of integrated Active 
Component and Reserve Component systems and processes to support the 
transition of the Soldier on and off active duty. Reserve Soldiers do 
not exclusively receive treatment on active duty installations. This 
creates the need for the Army Reserve to rely on multiple medical 
systems to capture the treatment plans, patient encounters and medical 
documentation for our Soldiers. This reliance compounded with the 
different orders types, durations, and the entitlements associated with 
each, creates frustration for our Soldiers.
    Care that originates within the Active Duty system is managed in 
Active Component databases and rarely transitioned to Army Reserve 
systems. Soldiers and their civilian providers lack immediate 
accessibility to individual medical records. Often, they must petition 
for copies of the records which can delay follow-on care.
    The Army Reserve continues to work with its Active component 
counterparts to overcome these challenges and we see the Military 
Health System Genesis, the Defense Health Agency (DHA) universal 
medical records system, as a key solution to many of the challenges we 
currently face.
    Question. What measures are in place to ensure continuity of care?
    Answer. The Army Reserve has many policies and programs in place to 
ensure a Soldier's continuity of care. First, the memorandums of 
agreement between the Army Reserve and the active component ensure that 
our medical administrators have access to patient encounters and 
treatment plans when Soldiers receive care at an active duty Medical 
Treatment Facility (MTF). The ability to view the patient records is 
vital to providing our Soldiers the best possible care when they are 
injured in line of duty or when their injury is aggravated in a 
qualified duty status. Our medical administrators have view-access to 
the Soldier's medical treatment notes to mitigate a lapse in care.
  --Line of Duty (LOD) Care is available for Soldiers who sustain an 
        injury while serving on active duty and are able return to 
        Reserve status. The Soldiers' unit coordinates LOD Care with 
        DHA-Great Lakes to provide pre-authorizations for care through 
        TRICARE. Upon approval, the Soldier can receive care within 
        their community for up to 365 days from the date of incident. 
        To receive treatment, the Soldier must have an approved LOD 
        investigation to determine their injury was caused or 
        aggravated by military service.
  --The Army Recovery Care Program (ARCP) provides medical treatment 
        for Soldiers who are found to have an unfitting medical 
        condition during transition from active duty status and/or are 
        injured in another duty status. Eligible Soldiers can volunteer 
        to remain on active duty orders (12301H) for medical care at 
        one of the ARCP's 14 Soldier Recovery Units. Soldiers who do 
        not meet entry criteria but are eligible to remain on active 
        duty for an injury aggravated by service, can volunteer for 
        entry into the Remote Medical Management Program upon SEC Army 
        Directorate approval.
  --The Deployment Health Assessment Program (DHAP) is a proactive and 
        preventive R2 (Ready and Resilient) commander's program that 
        enables the early identification and treatment of physical and 
        behavioral health issues at critical stages in the Deployment 
        Cycle Support (DCS). DHAP identifies emerging health-related 
        issues and supports the identification of an at-risk population 
        that could require support from programs and services such as 
        SHARP, Army Substance Abuse Programs, and Suicide Prevention. 
        DHAP tacks Soldiers' positive responses to DD Forms 2796 Post 
        Deployment Health Assessment and 2900 Post Deployment Health 
        Re-Assessment Form for indicators of needing follow-on care. 
        Soldiers with positive responses requiring further evaluation 
        are helped with coordination of an evaluation through an MTF, 
        the Department of Veteran's Affairs (VA) or Vet Center. DHA-
        Great Lakes authorization is needed when an MTF is not within a 
        50-mile radius (per DHA Great Lakes Guide). Our team of 
        dedicated medical administrators work together to identify the 
        most effective and efficient ways to leverage technology and to 
        update policies that maximize the care available to our 
        Soldiers as they continue to support our Nation.
    As the Department of Defense moves towards the department-wide 
healthcare system, Military Health System Genesis, the Army Reserve 
continues to engage with our DHA partners to ensure they understand and 
can fully support the unique continuity of care needs for the Army 
Reserve Soldier. The new system will ensure that medical documentation 
is accessible for our citizen Soldiers and their healthcare providers. 
It will also ensure that all military services can access the medical 
treatment plans for Soldiers.
    Question. What specific programs or equipment will be impaired or 
jeopardized by the redesignation of NGREA funds, especially for units 
that rely on this funding to maintain and modernize their vital 
equipment? Please provide the specific line item for the program and 
the funding amount redesignated from the program in comparison to its 
required funding amount.
    Answer. The re-designation of fiscal year 2020 NGREA funds will 
impact the modernization and fielding rate of vital equipment required 
for wartime and homeland missions. The table embedded lists specific 
equipment that will both be impaired and jeopardized by such re-
designation. This list is consistent with Army Reserve effort to 
modernize Command & Control, Liquid Logistics, Medical, and 
Transportation equipment.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Question. As global threats shift, arctic weather conditions mimic 
the kind of environment our forces could face in the future.
    How are you ensuring troops receive Arctic and cold weather 
training?
    Answer. Fort McCoy, WI currently conducts multiple iterations of a 
two-week Cold Weather Operations Course using a Program of Instruction 
from the Northern Warfare Training Center in Fort Wainwright, AK. The 
course is designed as a Train the Trainer course developed to give 
units Subject Matter Expertise in Cold Weather Operations. Soldiers are 
introduced to basic skills for cold weather operations and 
survivability.
    Question. How does the Reserve provide Arctic and cold weather 
training?
    Answer. Beyond the training offered at Fort McCoy, WI the Army 
Reserve conducts annual training with our Canadian partners to build 
the strategic alliance necessary to counter competitor's aggression in 
the Artic. Exercise Maple Resolve is a combined U.S. Army exercise with 
Canada that serves as brigade-level validation for the Canadian Army. 
The exercise seeks to enhance our professional relationships, training 
and overall coordination with our allies and partners. The exercise 
improves relationships between the two armies and allows them to work 
together to address mutual threats and hazards at home and in coalition 
operations abroad (Artic).
    Question. Are there plans to increase Arctic and cold weather 
training for Reserve/Guard?
    Answer. Currently, there are no plans to increase Artic and cold 
weather training. The current training allows units to experience 
leader, individual, and collective tasks in an arctic-like environment. 
Training focuses on firing and maintaining weapons, operating and 
maintaining vehicles and equipment, and performing unit Mission 
Essential tasks.
                                 ______
                                 
                Questions Submitted by Senator Tom Udall
    Question. The Department of Defense established new policies for 
maternity leave as part of the ``Force of the Future'' initiative in 
2016. This new policy authorized 12 weeks fully paid maternity leave 
after normal pregnancy and childbirth for active duty service members. 
However, there was no such change for reserve personnel. In the 
reserves, if the female service member does not perform duty within the 
allotted timeframe, the service member is in jeopardy of not receiving 
credit for their military service and points towards retirement.
    Under the current law, reserve component members in reserve 
training status are required to attend unit training assemblies 
(weekend drill) in order to receive points towards creditable military 
service.
    If the female service member does not perform duty within the 
allotted timeframe, the service member is in jeopardy of not receiving 
credit for their military service and points towards retirement. Would 
you support a legislative fix for this problem, such as the MOMs Act I 
introduced this Congress?
    Answer. Per Army Regulation (AR) 135-91 Reserve Component (RC) 
Soldiers are normally afforded up to 6 weeks of maternity leave, with 
variance based on the attending physician's advice. The Army Reserve 
Rescheduled Training (RST) policy provides flexibility for Soldiers 
requiring parental leave. Soldiers can make up missed duty days or 
training requirements from 60 days prior to scheduled duty to 60 days 
after the scheduled duty. This allows the Soldier and the unit to 
resolve any conflicts and ensure the Soldier is given the opportunity 
to earn all creditable retirement points and pay.
    Question. Do you agree with the Congressional Budget Office that 
the price would be negligible to make this legislative fix?
    Answer. Paying for 12 IDT periods, such as provided for in this 
language, for each of these members, would incur a cost in lost 
manpower (approximately $8.9 million per year (fiscal year 2019 
estimate) across DoD). That is, members who give birth and may have 
previously been excused and did not make up the missed IDT periods 
would now be paid directly for those periods.
    Question. National Guard and Reserve troops are an essential part 
of America's national defense strategy. Over the past two decades, they 
have been used in an operational capacity, constantly serving on 
domestic and international missions to help protect our country. 
Despite conducting the same duties as their active duty counterparts, 
they are not receiving the same credit for their active time. To 
support our service members in reserve components, changes must be made 
to reflect the total force mentality.
    Answer. The National Guard's suicide rate has climbed higher than 
the active duty and Reserve's, according to an annual Pentagon study 
released September 2019. In response, officials are looking for new 
ways to help troops feel comfortable coming forward about their issues 
and getting help they need.
    The most recent figure is about 30.6 deaths per 100,000 service 
members, according to the Defense Department Annual Suicide Report for 
calendar year 2018, well above the Reserve's 22.9 per 100,000 and the 
active component's 24.8.
    Question. What is the reserve doing to address the high suicide 
rates?
    Answer. The Army Reserve Suicide Prevention Program is based on 
four pillars: (1) provide resources; (2) educate the force; (3) reduce 
the stigma; and (4) involve Families. The top four stressors leading to 
Army Reserve suicides are Financial Issues/Debt, Relationship/Family 
conflict, Mental/Behavioral Health, and Substance Abuse.
    Since CY17, the Army Reserve has seen continued decreases in the 
number of deaths by suicide (CY17=62, CY18=47, CY19=37). As part of our 
mitigating strategy to prevent suicides, we examined and analyzed 
reports of ideations and attempts. In a sampling of the reports, we 
found the following percentages centered on the top four stressors in 
Army Reserve suicides: Financial Issues/Debt (50 percent), 
Relationship/Family conflict (30 percent), Mental/Behavioral Health (10 
percent), and Substance Abuse (10 percent). A few CCIRs may contain 
overlapping stressors. For example, an individual expressing an 
ideation may have experienced issues with finances, relationship, and 
substance abuse.
    The position the Army Reserve has taken and continues to take to 
prevent suicides include providing oversight and management in the 
following areas:
  --Mandate personal contact with Soldiers and Family between Battle 
        Assemblies
  --Standardize procedures for reporting ideations and attempts
  --Emphasize attention on ``newly'' assigned Soldiers, ensuring a 
        positive transition
  --Promote/advertise local resources
  --Increase suicide prevention training opportunities and disseminate 
        information to Family members regarding risk factors, warning 
        signs and contact assistance numbers
  --Developed an Army Reserve Supplement to Army's Soldier Leader Risk 
        Reduction Tool to help leaders facilitate dialogue with their 
        Soldier
  --Partner with outreach programs in local communities
    The Army Reserve provides intervention skills training to Soldiers 
and leaders. Training includes encouraging leaders to openly 
communicate with their Soldiers and Families to reduce the stigma and 
assist in decreasing suicides rates. Additionally, the Army Reserve 
will continue to improve awareness of available resources and access to 
training. The Army Reserve will continue to promote the use of the Army 
Soldier Leader Risk Reduction Tool (SLRRT) and the Army Reserve 
Supplement to the SLRRT to increase first-line leader involvement and 
assist leaders in identifying potential risks amongst their Soldiers.
    Suicidal ideations and associated behaviors are risks to unit 
cohesiveness, readiness, and individual Soldier welfare. There is a 
sustained leadership focus and resourcing to support suicide prevention 
within the Army Reserve. The Army Reserve is a Family, and as such, we 
will look out for our own and intervene when we determine a member is 
``at risk.'' We will remain vigilant on this issue, and continue to 
partner with our mental health professionals, chaplains, and Family 
Readiness personnel as we continuously refine and improve our program.
    The Army Reserve also has 10 units participating in the Army's 
Suicide Prevention Pilot Program. The aim of the pilot is to decrease 
the prevalence of suicidality through increases in unit cohesion, 
trust, coping and communication skills. It is designed to test numerous 
new broader Army initiatives in an operational environment, so we can 
receive critical feedback from Soldiers and Leaders, while promoting 
the reduction of high-risk behaviors, including suicide. It will focus 
on:
  --Increased Leader Visibility and Soldier Awareness through the 
        application of tools augment engaged leadership
  --Concentrated Resilience and Communication Skills training and 
        education to ensure they become core competencies
    A combination of G1, Army Public Health Center, Walter Reed Army 
Institute of Research, and contract personnel will evaluate the 
effectiveness of the pilot and its individual initiatives in spring 
2021 to assess impact on reduction of suicides as well as increased 
coping skills and unit climate.
    Question. What are the current programs and how are they 
implemented in a part time force?
    Answer. There are several efforts within the Army Reserve working 
initiatives to connect with Soldiers and reduce suicides. These include 
resilience efforts, availability of professional staff, peer support, 
and counseling services, among others.
    The resilience efforts accomplished through Strong Bonds and the 
Yellow Ribbon Reintegration Program works on Family resilience and 
Soldier reintegration from deployment to mitigate stressors. We have 
PhDs on staff at the Readiness Divisions who are licensed and trained 
to assist Soldiers with behavioral health issues and advise commanders. 
Vet 4 Warriors\*\ serve Army Reserve Soldiers and Family members. Vet 4 
Warriors\*\ provides immediate, free, and long-term peer support to the 
Army Reserve through confidential phone, chat, text, and email 
conversations to help those they serve live better lives. Give An 
Hour\*\ Counseling Services is another resource available to our Army 
Reserve Family--Give An Hour's\*\ mission is to develop national 
networks of volunteers capable of responding to both acute and chronic 
conditions that arise within our society. By harnessing the skill and 
expertise of volunteer professionals, they can increase the likelihood 
that those in need receive the support and care they deserve. Give An 
Hour\*\ provides free mental healthcare to the Army Reserve Soldiers 
and Family members. Military OneSource is another resource available to 
the Army Reserve. Military OneSource is a 24/7 connection to 
information, answers, and support to help Soldiers and Family members 
reach their goals, overcome challenges and thrive. The above resources 
are just a few of many resources that support the Army Reserve Family.
---------------------------------------------------------------------------
    \*\ Vet 4 Warriors and Give An Hour are private non-Federal 
entities. References to these 
organizations in this response is not intended to present an official 
endorsement by the Army Reserve.
---------------------------------------------------------------------------
    Question. What actions are you taking to reduce the stigma for 
getting help?
    Answer. The Army Reserve understands there are individuals who are 
frequently reluctant to seek help. Soldiers avoid seeking this type of 
assistance based on fear it might adversely affect their careers. We 
have taken the necessary steps to change this misperception across the 
Army Reserve by encouraging leaders to review all policies and 
procedures and remove anything that may stigmatize help-seeking 
behaviors. We also encourage leaders to eliminate any policy which 
discriminates, punishes, or discourages a Soldier or Civilian from 
seeking help. The Army Reserve is dedicated to eliminating the long-
standing, negative stigma, associated with seeking and receiving help 
to ensure Soldiers, Army Civilians, and Family Members who may be 
struggling get the help that they need.
                                 ______
                                 
      Questions Submitted to Lieutenant General Richard W. Scobee
             Questions Submitted by Senator Lisa Murkowski
    Question. What are you doing to improve the quality of life to 
prevent suicides?
    Answer. From a medical perspective, the AF Reserve Command (AFRC) 
Surgeon General's office supports AF Reserve Directors of Psychological 
Health. These Licensed Clinical Social Workers are placed in AF Reserve 
wings to address individual, unit, and wing readiness and help Airmen 
and their families maximize psychological health, resilience, and 
wellbeing so that they can prevail over the unique challenges of the 
mission and life in and out of the military.
    AFRC has also approved and staffed ten full time Religious Affairs 
Airmen at each of the 10 AFRC host base locations. This full-time 
presence allows immediate and timely access for members and provides 
pastoral care and confidential communication. The ability to speak to a 
Chaplain Corps member with complete confidentiality encourages openness 
and vulnerability so that needs can be identified and members can 
receive needed care. In addition, Reserve Personnel Appropriation 
funding is being made available for Chaplain Corps members to surge 
during deployment and post-deployment times. Chaplain Corps members 
continue to provide pastoral care, marriage enrichment programs, 
relationship counseling, and suicide intervention in order to address 
the stress and strain felt by AFRC members and their families.
    In 2019, all Air Force Reserve (AFR) wings conducted a Resilience 
Tactical Pause (RTP) to improve communication and connectedness in an 
effort to prevent suicides. The RTP was intended to provide an 
opportunity for leaders to engage Airmen (military and civilian) in a 
manner that fosters interpersonal connection. This was the beginning of 
an ongoing, sustained effort to address this challenge. Every AFR host 
wing has a Community Action Plan (CAP) designed to equip communities 
and leaders with the tools to assess, improve, and sustain quality of 
life initiatives. AFR tenant wings fall under their host active 
component CAP; however, the AFR is developing a master CAP with reserve 
best practices for their use.
    Question. What programs have you requested appropriations for to 
help with these issues?
    Answer. AFRC has 10 full-time chaplain positions in the fiscal year 
2022 POM to ensure full Chaplain Corps support to the Airmen and their 
families at the ten host base locations. Additionally, Reserve 
Personnel Appropriations and Operation and Maintenance (O&M) funding 
have been requested to provide personnel support and program support to 
wings during pre-deployment, deployment, and post deployment.
    Question. Are you aware of the medical readiness issues for Reserve 
and Guard in regards to continuity of care when they go on and off 
orders?
    Answer. Yes. Medical readiness and taking care of AFR members is a 
significant priority. Any change in a member's medical condition, 
especially if it has the potential to adversely impact the member's 
readiness, must be communicated by the member to their command through 
either the Reserve Medical Unit or the military treatment facility, as 
appropriate for their duty status. For issues that arise while in 
military status, the Line of Duty (LOD) process provides a mechanism 
for identifying medical issues arising from military duty, and it also 
facilitates further care as needed.
    Question. What measures are in place to ensure continuity of care?
    Answer. A number of programs exist to ensure Airmen receive the 
care they need to include placing them on medical continuation (MEDCON) 
orders. Airmen may be eligible for MEDCON orders when they incur or 
aggravate an illness, injury, or disease in the line of duty and that 
condition renders the Airman unable to perform military duties. While 
on MEDCON orders, our first priority for the member is to get them the 
medical care they need and the initial orders will be certified for a 
period of time consistent with the their validated medical treatment 
plan.
    Last year, Congress authorized Reserve Federal Employee Health 
Benefits (FEHB) eligible members to receive medical coverage through 
the Tricare Reserve Select healthcare plan, beginning in the year 2030. 
This effort will improve healthcare costs, ease of access and 
continuity of care for our Air Reserve Technicians (ART) and their 
families as well as increase our full time retention. I ask that you 
consider implementing and funding this change to the earliest date 
feasible in order for our ART force to benefit from this premium-based 
healthcare plan.
    Question. What specific programs or equipment will be impaired or 
jeopardized by the redesignation of NGREA funds, especially for units 
that rely on this funding to maintain and modernize their vital 
equipment? Please provide the specific line item for the program and 
the funding amount redesignated from the program in comparison to its 
required funding amount.
    Answer. The redesignation of fiscal year 2020 NGREA funds forced 
Headquarter Air Force Reserve Command to prioritize all planned 
expenditures. In all cases, the Prioritized Integrated Requirements 
List (PIRL) was utilized in order to determine which programs were the 
most critical. The highest priority was given to programs that were 
already under contract where the loss of funds would cause a break in 
the contract. In those cases, the contract will continue using funds 
realigned from fiscal year 2019 NGREA.
    The next level of priority are programs that are in testing or 
integration but not yet under contract for purchase of equipment or are 
under a contract that allowed the command to reduce the amount of 
equipment to be purchased. These programs will receive the minimal 
funding needed to keep testing and integration efforts proceeding or to 
keep production lines open. These fiscal year 2020 programs include:
  --A-10 and F-16 Anti-Jam GPS--$11 million reduced to $4.5 million
  --A-10 and F-16 High Resolution Cockpit Display Modernization--$12 
        million reduced to $3.5M
  --F-16 ALR-69A Radar Warning Receiver--$12 million reduced to $7.5 
        million
  --AN/ASQ-236 All-Weather Targeting Pod--$15.5 million reduced to $6.5 
        million
  --F-16 Active Electronically Scanned Array (AESA) Radars--$20 million 
        reduced to $10 million
  --C-130 Modular Aerial Spray System--$17.5 million reduced to $7 
        million
    The final group of programs are those that are not under contract 
and which fall low enough on the PIRL that the loss of funding did not 
create an unacceptable level of risk. Among these programs are several 
that would most likely have been delayed for other reasons (Amounts 
below reflect the total cost of each program).
  --A-10 Link 16--$12 million
  --A-10 ALR 69A Radar Warning Receiver--$7 million
  --A-10 Missile Warning System--$12 million
  --F-16 Automatic Data Transfer Equipment (ADTE)--$6 million would 
        most likely have been delayed due to issues with integration
  --C-5 Real Time in the Cockpit (RTIC)--$9 million
  --KC-135 Real Time in the Cockpit (RTIC)--$15 million
  --C-130 Real Time in the Cockpit (RTIC)--$700,000
  --WC-130 241 Radar Upgrade--$650,000
  --WC-130 ARC 210 Generation 6 Radios--$6.5 million
  --C-130H Iridium Satellite Phone for Fire Fighting unit--$300,000
  --KC-135 Large Aircraft Infrared Counter Measures--$12 million
  --HC-130 Link 16 Radios--$5 million
  --WC-130J Radar Transmission through SATCOM--$2.5 million
  --B-52 Targeting Pod Trainer--$250,000
  --Support Equipment--$5.5 million
  --Vehicles--$1.0 million
  --HH-60 Avionics Communication Suite Upgrade--$2 million would most 
        likely have been cancelled due to impeding aircraft retirement 
        and Sunset restrictions
    In order to fund the necessary programs that lost fiscal year 20 
funds, there are several fiscal year 19 programs that were reduced or 
delayed to include:
  --HH-60 Link 16, Helmet Mounted Display, Blue Force Tracker, Avionics 
        Communications Suite Upgrade, and Smart Multifunction Color 
        Display--$26.5 million reduced to $1.6 million due to impeding 
        aircraft retirement and Sunset restrictions
  --A-10 ALR 69A Radar Warning Receiver--$1.5 million
  --WC-130J Radar Transmission through SATCOM--$2 million
  --WC-130J Block 8.1 Upgrade--$8 million
  --Support Equipment--$14.8 million reduced to $2.4 million
  --Guardian Angel/Personnel Rescue Mission Equipment--$9.8 million 
        reduced to $5 million
  --Vehicles--$7 million reduced to $4.8 million
    Question. As global threats shift, arctic weather conditions mimic 
the kind of environment our forces could face in the future.
    How are you ensuring troops receive Arctic and cold weather 
training?
    Answer. Our single classic associate unit (477th Fighter Group) 
assigned at Joint Base Elmendorf-Richardson uses an event identifier 
code input into a training tracking systems (Patriot Excalibur for our 
aviators and Training Business Area for our support personnel). These 
systems are programed to send an alert to leadership when a member is 
coming due and is overdue for this training. This tracking method is in 
accordance with our Regular AF host Wing Leadership requirement and 
mirrors their process.
    Question. How does the Reserve and Guard provide Arctic and cold 
weather training?
    Answer. AFRC currently has one classic associate unit (477th 
Fighter Group) assigned at Joint Base Elmendorf-Richardson. They 
receive their annual arctic survival training alongside their Regular 
Air Force counterparts in accordance with current guidance and 
regulations established by the Regular Air Force host Wing Leadership. 
Our other units that participate in events in the arctic region receive 
their arctic training from the host base survival training experts as a 
just in time measure to ensure they are properly trained in accordance 
with current guidance and regulations and are safe to participate in 
those events.
    Question. Are there plans to increase Arctic and cold weather 
training for Reserve/Guard?
    Answer. There are currently no plans to increase Arctic and cold 
weather training requirements for the Air Force Reserve component.
                                 ______
                                 
               Questions Submitted by Senator Jerry Moran
                        s. 1615, moms leave act
    Question. S. 1615 will allow women serving in the reserve 
components of the Armed Forces to receive compensation and credit when 
they go on maternity leave. Providing maternity leave for the women 
serving in the National Guard and Reserve is essential to maintaining 
the health and mental well-being of our service members. Can you 
discuss how this bill will impact new mothers who are serving in the 
Air Force Reserve and Air National Guard?
    Answer. Thank you for considering the Reserve Components when 
introducing legislation to ensure every member of our Armed Forces is 
considered. This bill would allow new mothers to receive 12 retention/
retirement points towards the statutory requirement of 50 points per 
year towards retirement when they are unable to attend training due to 
pregnancy/maternity leave. The Air Force Reserve fully supports this 
legislation.
    Question. Is legislation to provide maternity leave to members of 
the reserve component necessary, or can these benefits be provided 
through a Department policy change?
    Answer. The Air Force has exercised every option through policy to 
allow our new mothers to receive service credit within the boundaries 
of current law. Awarding retention/retirement points in lieu of 
military service due to pregnancy/maternity leave would require a 
legislative change. Air Force policy (AFMAN 36-2136) allows female 
members the opportunity to perform their reserve duty by telework, 
where able, or opt to reschedule their reserve duty around their 
pregnancy and any civilian maternity leave they may opt to take outside 
of their military service. However, this may not be enough to ensure a 
good year of service depending on the member's ability to break away 
from their civilian employer or in a specialty where telework may not 
be feasible.
    Question. Please outline the differences in maternity leave 
benefits for members of the active duty Armed Forces versus those in 
the reserve component.
    Answer. There is no difference between the components if the 
Reserve component member is performing Active Guard and Reserve (AGR) 
duty or performing duty under a call or order to active service for a 
period in excess of 12 months (AFI 36-3003 & AFMAN 36-2136).
    In the case of our traditional reservists, part-time members may 
not participate in any status during the 34th week of pregnancy to term 
and 12 weeks immediately after delivery unless: the reservist 
volunteers, the decision is supported by her unit commander, obstetric 
care provider or military medical authorities. Pregnant reservists may 
telework or be allowed to complete their military service in an 
alternate duty location in order to comply with obstetric care 
provider's travel recommendations. Pregnant reservists must be able to 
commute home safely every day or have access to birthing facilities 
approved by an obstetric care provider if staying overnight at their 
unit's location (AFMAN 36-2136). The key difference is that reservists 
in full-time status continue to be compensated while on maternity 
leave, assuming their orders do not expire, while part-time reservists 
are not compensated.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
    Question. It is crucial to the Armed Forces' ability to attain 
optimal readiness and maintain their operational capacity that women be 
fully integrated into the force structure. For decades, the Air Force 
Reserve has embraced this as a priority, and can be an example across 
the services for how gender integration can be implemented.
    Please provide examples of ways that the Air Force Reserve has 
pushed to recruit talented women?
    Answer. We are actively engaged at all levels in collaboration with 
civilian entities to identify all potential female applicants. For 
example, we have an annual presence at the International Women in 
Aviation Conference, providing brand awareness through community 
outreach and describing opportunities to serve. In addition, we 
deliberately recruit at Women's colleges and recently sponsored Women's 
NCAA Basketball Tournaments, primarily targeted at the female audience 
viewing the event.
    Question. What specific incentives does the Air Force Reserve offer 
to retain women and develop their skills?
    Answer. Our Air Force Reserve offers opportunities and incentives 
based on ability, qualifications, and performance, not gender. 
Incentives are available for Airmen of either gender for specific 
career fields where the Air Force Reserve has needs for talent. We also 
offer tuition assistance and other education based incentives that 
target skill development for all Airmen.
    Question. How does the Reserve ensure female Reservists are engaged 
in decisionmaking at all levels? Please provide an accounting of the 
representation of women among leadership ranks.
    Answer. Our Air Force Reserve (AFR) senior leader levels are 
managed through a volunteer system, with no limitations placed on 
applicants, other than Air Force Specialty Code (AFSC), duty status and 
performance requirements. We see our female Reserve Citizen Airmen 
participating at all levels of leadership in every career field. Women 
represent approximately 26 percent of our AFR General Officer, Colonel, 
and Key/Strategic Chief Master Sergeant combined billet footprint.
    Question. What challenges does the Reserve face in recruiting and 
retaining women? How can Congress further help the Reserves improve 
gender integration?
    Answer. Currently, women account for 27 percent of the AFR, which 
is a higher rate than both active duty and the Air National Guard. The 
key for the Air Force Reserve is to seek out and recruit those who have 
the drive, desire and ability, and make sure they understand the 
available opportunities to serve.
    Question. Family changes, childcare issues, spousal unemployment, 
financial problems, and sexual assault can all be issues that 
contribute to Reservists' mental health challenges. I hear from 
Vermonters that we need to be aware of the stressors on Reservists and 
their families to prevent skilled Reservists from leaving the force, or 
worse, the tragedy of death by suicide, which we know is a crisis.
    How are you supporting military families that may be dealing with 
financial problems?
    Answer. In accordance with U.S. 10 Code Section 992, all military 
members are required to attend financial touchpoint training throughout 
various times in their career. The required financial touch points 
include: Initial Entry Training, Arrival at First Duty Station, Arrival 
at Subsequent Duty Stations (E-4/O-3 and below), Promotion (E-5/O-4 and 
below), when the member invests in the Thrift Savings Plan, when 
entitled to Continuation Pay, when transitioning to the Reserve 
Component, and during major life events such as Birth of a Child, 
Marriage, Divorce, and Disabling Sickness or Condition. Training is 
available in person with Airman and Family Readiness staff and/or 
virtually via the MyVector/Airmen Distributed Learning System. Military 
Family Personal Financial Counselors are in place at the installations 
to assist with providing this training as well.
    In accordance with AFI 36-3009, Airman and Family Readiness Centers 
are required to have a certified personal financial counselor on staff. 
Airman and Family Readiness Centers are available to provide a variety 
of financial resources, workshops and one-on-one appointments for 
Reservists to attend during the week or on a UTA weekend. Financial 
appointments can be arranged to meet the member's specific needs, 
whether it be completing an individualized budget or locating local 
financial resources in the community. Employment resources are also 
available through the Airman and Family Readiness Center office. 
Members and their spouses are able to seek individualized resources or 
receive assistance with resume review.
    The Air Force Aid Society is the official charity of the USAF. It 
is available for Reserve members in Title 10 status for 15 days or 
more. The assistance is limited to emergencies incidental to or 
resulting from a member's Active Duty tour.
    Yellow Ribbon events offer multiple breakouts teaching budget/
financial skills as well as resources and referrals to personal 
financial counselors offering free services to members/families 
attending events. Several events also offer free follow-up counseling 
after the event ends.
    Question. What resources are available to Reservists struggling 
with mental health issues or suicidal ideation?
    Answer. From a medical perspective, the AF Reserve Command (AFRC) 
Surgeon General's office supports AF Reserve Directors of Psychological 
Health. These Licensed Clinical Social Workers are placed in AF Reserve 
wings to address individual, unit, and wing readiness and help Airmen 
and their families maximize psychological health, resilience, and 
wellbeing so that they can prevail over the unique challenges of the 
mission and life in and out of the military.
    AFRC has also approved and staffed ten full time Religious Affairs 
Airmen at each of the 10 AFRC host base locations. This full-time 
presence allows immediate and timely access for members and provides 
pastoral care and confidential communication. The ability to speak to a 
Chaplain Corps member with complete confidentiality encourages openness 
and vulnerability so that needs can be identified and members can 
receive needed care. In addition, Reserve Personnel Appropriation 
funding is being made available for Chaplain Corps members to surge 
during deployment and post-deployment times. Chaplain Corps members 
continue to provide pastoral care, marriage enrichment programs, 
relationship counseling, and suicide intervention in order to address 
the stress and strain felt by AFRC members and their families.
    In 2019, all Air Force Reserve (AFR) wings conducted a Resilience 
Tactical Pause (RTP) to improve communication and connectedness in an 
effort to prevent suicides. The RTP was intended to provide an 
opportunity for leaders to engage Airmen (military and civilian) in a 
manner that fosters interpersonal connection. This was the beginning of 
an ongoing, sustained effort to address this challenge. Every AFR host 
wing has a Community Action Plan (CAP) designed to equip communities 
and leaders with the tools to assess, improve, and sustain quality of 
life initiatives. AFR tenant wings fall under their host active 
component CAP; however, the AFR is developing a master CAP with reserve 
best practices for their use.
    Question. What resources are available to military families 
struggling with accessing affordable childcare? Are there any 
legislative changes required to improve or expand on-base childcare?
    Answer. Air Force Reserve Host bases do not have access to on base 
DoD Child Development Centers (CDC) at their locations. In addition, 
CDCs at some classic associate units on active duty bases provide 
limited access for childcare purposes during Unit Training Assembly 
(UTA) weekends.
    The Air Force Home Community Care program provides child care for 
United States Air Force Reserve and National guard members assigned to 
specific installations during drill/UTA weekends. Care is provided in 
high quality family child care homes throughout the United States. The 
program is offered through the Family Child Care (FCC) program at the 
tenant location. However, the number of FCC providers at the 
installations are limited, and this service is not available at all 
installations.
    I look forward to working with Congress on legislation aimed at 
increasing the number of FCC providers who can offer affordable quality 
daycare to Air Force Reserve members during their UTA weekends.
    Question. How are you working to prevent sexual assault, and what 
resources are available to survivors of sexual assault?
    Answer. The AFR has a robust Sexual Assault and Prevention Program 
aimed at awareness training and providing those who are victims avenues 
to report such crimes and receive the help needed to move forward. All 
AFR Units have a Special Victims Council (SPVC), Sexual Assault 
Response Coordinators (SARC) Victims Advocate and Case Management 
Groups chaired by the Installation Commander. The Air Force Reserve 
participates in all Air Force prevention initiatives. Culture change 
continues to be a major focus as the Air Force transitions the language 
from Bystander Intervention to Wingman and Leadership Intervention. All 
Wingman and Leaders are being further charged with intervening in any 
culture or situation that can aid sexual assault occurrences.
    A Reserve member who experiences a sexual assault while performing 
military duty is entitled to a Line of Duty determination. The member 
has the same access to services as their Active Duty counterpart. 
Orders can be extended if necessary for the member to receive both 
medical and psychological treatment. If the member reports an assault 
that did not occur while performing duty, they are eligible to receive 
victim advocacy and referral services from the Sexual Assault 
Prevention and Response office at their installation. This can be 
provided through local rape crisis centers and also through the 
Department of Veterans Affairs.
                                 ______
                                 
                Questions Submitted by Senator Tom Udall
    Question. The Department of Defense established new policies for 
maternity leave as part of the ``Force of the Future'' initiative in 
2016. This new policy authorized 12 weeks fully paid maternity leave 
after normal pregnancy and childbirth for active duty service members.
    However, there was no such change for reserve personnel. In the 
reserves, if the female service member does not perform duty within the 
allotted timeframe, the service member is in jeopardy of not receiving 
credit for their military service and points towards retirement.
    Under the current law, reserve component members in reserve 
training status are required to attend unit training assemblies 
(weekend drill) in order to receive points towards creditable military 
service.
    If the female service member does not perform duty within the 
allotted timeframe, the service member is in jeopardy of not receiving 
credit for their military service and points towards retirement. Would 
you support a legislative fix for this problem, such as the MOMs Act I 
introduced this Congress?
    Answer. Thank you for considering the Reserve Components when 
introducing legislation to ensure every member of our Armed Forces is 
considered. The Air Force Reserve fully supports the MOMS Act.
    Question. Do you agree with the Congressional Budget Office that 
the price would be negligible to make this legislative fix?
    Answer. Thank you for informing us about the CBO findings, our AFRC 
financial experts will review their report as soon as it is made 
available. At this time, we have no reason to disagree that the price 
of the legislative fix is likely negligible.
    Question. National Guard and Reserve troops are an essential part 
of America's national defense strategy. Over the past two decades, they 
have been used in an operation al capacity, constantly serving on 
domestic and international missions to help protect our country. 
Despite conducting the same duties as their active duty counterparts, 
they are not receiving the same credit for their active time. To 
support our service members in reserve components, changes must be made 
to reflect the total force mentality.
    The National Guard's suicide rate has climbed higher than the 
active duty and Reserve's, according to an annual Pentagon study 
released September 2019. In response, officials are looking for new 
ways to help troops feel comfortable coming forward about their issues 
and getting help they need.
    The most recent figure is about 30.6 deaths per 100,000 service 
members, according to the Defense Department Annual Suicide Report for 
calendar year 2018, well above the Reserve's 22.9 per 100,000 and the 
active component's 24.8.
    What is the guard and reserve doing to address the high suicide 
rates?
    What are the current programs and how are they implemented in a 
part time force?
    Answer. From a medical perspective, the AF Reserve Command (AFRC) 
Surgeon General's office supports AF Reserve Directors of Psychological 
Health. These Licensed Clinical Social Workers are placed in AF Reserve 
wings to address individual, unit, and wing readiness and help Airmen 
and their families maximize psychological health, resilience, and 
wellbeing so that they can prevail over the unique challenges of the 
mission and life in and out of the military.
    AFRC has also approved and staffed ten full time Religious Affairs 
Airmen at each of the 10 AFRC host base locations. This full-time 
presence allows immediate and timely access for members and provides 
pastoral care and confidential communication. The ability to speak to a 
Chaplain Corps member with complete confidentiality encourages openness 
and vulnerability so that needs can be identified and members can 
receive needed care. In addition, Reserve Personnel Appropriation 
funding is being made available for Chaplain Corps members to surge 
during deployment and post-deployment times. Chaplain Corps members 
continue to provide pastoral care, marriage enrichment programs, 
relationship counseling, and suicide intervention in order to address 
the stress and strain felt by AFRC members and their families.
    In 2019, all Air Force Reserve (AFR) wings conducted a Resilience 
Tactical Pause (RTP) to improve communication and connectedness in an 
effort to prevent suicides. The RTP was intended to provide an 
opportunity for leaders to engage Airmen (military and civilian) in a 
manner that fosters interpersonal connection. This was the beginning of 
an ongoing, sustained effort to address this challenge. Every AFR host 
wing has a Community Action Plan (CAP) designed to equip communities 
and leaders with the tools to assess, improve, and sustain quality of 
life initiatives. AFR tenant wings fall under their host active 
component CAP; however, the AFR is developing a master CAP with reserve 
best practices for their use.
    A screening assessment is conducted annually as part of the 
Periodic Health Assessment (PHA). If the member's responses indicate 
potential psychological issues, then further evaluation is conducted. 
For acute issues that pose an imminent threat to life, Police and 
Emergency Medical Services (``911'') are activated in order to 
facilitate immediate care. For subacute issues, the abovementioned DPH 
provide resources, including access to community mental health 
resources that may be beneficial to the member.
    Question. What actions are you taking to reduce the stigma for 
getting help?
    Answer. As a Command, there is a concerted effort to reduce the 
negative stigma of asking for help and to communicate the resources 
available to the Airman to help with the pain that may arise from a 
mental health problem. Within the medical community, our Surgeon 
General's office has worked with other Air Force Major Commands to 
modify service medical standards to allow a member to continue while 
undergoing evaluation and treatment of many mental health disorders.
    Training on suicide prevention and providing assistance to Airmen 
who are struggling with mental illness has been incorporated in all 
Commander, First Sergeant and supervisory courses. Furthermore, members 
who seek help are assured that such cases are held in strict 
confidentiality and are disclosed only on a need to know basis.
                                 ______
                                 
          Questions Submitted to Vice Admiral Luke M. McCollum
             Questions Submitted by Senator Lisa Murkowski
    Question. What are you doing to improve the quality of life to 
prevent suicides?
    Answer. To address suicide and other destructive behaviors, the 
Chief of Naval Operations established the Culture of Excellence, a 
Navy-wide framework designed to promote signature healthy behaviors and 
enhance warfighting excellence by instilling toughness, trust, and 
connectedness in Sailors, and includes the reserve component. Navy is 
using evidence-informed primary prevention strategies to reduce 
destructive behaviors though decreased risk factors and to promote 
signature healthy behavior by increasing protective factors. 
Relationships, legal problems, financial difficulties, transition 
periods, and mental health issues continue to be common stressors in 
most suicides. Of note, over 40 percent of Sailors who died by suicide 
never deployed.
    As part of our Culture of Excellence, suicide prevention measures 
include increasing embedded Mental Health Providers who deliver direct 
support to our warfighters as far forward as possible for early 
intervention. We have also placed Deployed Resiliency Counselors, which 
are civilian social workers, onboard aircraft carriers and large 
amphibious ships. An Expanded Operational Stress Control program was 
developed to be used in conjunction with the Command Resilience Team 
Network to assist leaders in the use of chaplains, medical personnel, 
counselors, and community resources to build a culture that is 
supportive of help-seeking behaviors. The goal of the program is to 
assist Navy leaders build resilience within commands and individual 
Sailors by increasing the awareness and understanding of stress and 
providing strategies to mitigate detrimental effects. Navy's vision is 
to develop an environment in which all Sailors are trained and 
motivated to navigate stress, assist their shipmates, and, most 
importantly, seek help from available resources early.
    Question. What programs have you requested appropriations for to 
help with these issues?
    Answer. The President's budget request for fiscal year 2021 
supports our efforts to address suicide and other destructive 
behaviors, through the Chief of Naval Operations established Culture of 
Excellence, a Navy-wide framework designed to promote signature healthy 
behaviors and enhance warfighting excellence by instilling toughness, 
trust, and connectedness in Sailors, and includes the reserve 
component. Navy is using evidence-informed primary prevention 
strategies to reduce destructive behaviors though decreased risk 
factors and to promote signature healthy behavior by increasing 
protective factors.
    Relationships, legal problems, financial difficulties, transition 
periods, and mental health issues continue to be common stressors in 
most suicides. Of note, over 40 percent of Sailors who died by suicide 
never deployed.
    As part of our Culture of Excellence, suicide prevention measures 
include increasing embedded Mental Health Providers who deliver direct 
support to our warfighters as far forward as possible for early 
intervention. We have also placed Deployed Resiliency Counselors, which 
are civilian social workers, onboard aircraft carriers and large 
amphibious ships. An Expanded Operational Stress Control program was 
developed to be used in conjunction with the Command Resilience Team 
Network to assist leaders in the use of chaplains, medical personnel, 
counselors, and community resources to build a culture that is 
supportive of help-seeking behaviors. The goal of the program is to 
assist Navy leaders build resilience within commands and individual 
Sailors by increasing the awareness and understanding of stress and 
providing strategies to mitigate detrimental effects. Navy's vision is 
to develop an environment in which all Sailors are trained and 
motivated to navigate stress, assist their shipmates, and, most 
importantly, seek help from available resources early.
    Our primary suicide prevention program for the Navy Reserve is the 
Psychological Health Outreach Program (PHOP). PHOP was created in 2008 
to ensure reserve component service members and families have access to 
psychological health services prior to deployment, post-demobilization, 
and before retirement/discharge. PHOP is funded by the Navy's Bureau of 
Medicine and Surgery to provide support for both Navy and Marine Corps 
reserve component personnel who normally reside outside of fleet 
concentration areas. We are grateful for your continued support of this 
important program.
    Question. Are you aware of the medical readiness issues for Reserve 
and Guard in regard to continuity of care when they go on and off 
orders?
    Answer. Yes, we are aware of the medical readiness issues related 
to continuity of care as Reserve Sailors go on and off orders. We 
continue to refine our processes and resources to minimize the medical 
readiness issues for Reserve and Guard regarding continuity of care 
when they go on and off orders.
    Question. What measures are in place to ensure continuity of care?
    Answer. We continue to refine our processes and resources to 
minimize the medical readiness issues for Reserve and Guard regarding 
continuity of care when they go on and off orders.
    Reserve Component (RC) members may be considered for Pre-Activation 
or ``Early'' Eligibility of TRICARE when going on orders. If the 
service member is issued delayed-effective-date active duty orders for 
more than 30 consecutive days in support of a contingency operation, RC 
members qualify up to 180 days early for active duty TRICARE benefits 
to address any potential readiness issues before going on orders.
    RC members coming off orders have access to the Transitional 
Assistance Management Program (TAMP) which provides 180 days of 
premium-free transitional healthcare benefits after regular TRICARE 
benefits end to address continuity of care issues.
    Monitoring is in place for those RC members that come off orders to 
detect potential needs for medical care through the Post-Deployment 
Health Assessment (PDHA) and Post-Deployment Health Re-Assessment 
(PDHRA).
    Any RC member on mobilization orders or other types of RC non-
mobilization orders greater than 30 days may qualify for assignment to 
medical hold (MEDHOLD) (e.g. retained on MEDHOLD active duty orders), 
if follow on medical care is required. All other RC members on non-
mobilization orders of 30 days or less may qualify for follow on 
medical continuity of care via the Line of Duty-Healthcare (LOD-HC) 
program.
    All Navy Reserve Activities have medical staff trained to manage 
and implement the LOD-HC and MEDHOLD programs, respectively.
    Additionally, Ready Reserve members in a drill status are qualified 
to enroll in the Tricare Reserve Select program, which is a premium-
based insurance plan that is available worldwide to address the medical 
and dental needs of qualified Selected Reserve members and their 
families.
    Question. What specific programs or equipment will be impaired or 
jeopardized by the redesignation of NGREA funds, especially for units 
that rely on this funding to maintain and modernize their vital 
equipment? Please provide the specific line item for the program and 
the funding amount redesignated from the program in comparison to its 
required funding amount.
    Answer. The Navy Reserve is aware NGREA is not a guarantee and 
every dollar is valuable. We do our best to spread the funding where it 
will have the most impact. Because most of the Navy Reserve equipment 
inventory is aircraft, most of the funding would have supported 
aircraft upgrades. Without this funding, aircraft modifications will 
likely be delayed and the Navy Reserve will focus on safety of flight 
improvements and delay upgrades that would have improved operational 
effectiveness. With aged equipment, especially aircraft, loss of a year 
of NGREA hastens end of useful service life.
    58 percent of Navy's $75 million fiscal year 2020 NGREA was slated 
to provide much-needed lethality-focused upgrades to the Navy Reserve 
adversary aircraft fleet. NGREA would have been able to provide $43.5 
million of the $119 million requirement. There was no funding included 
in the base budget. These upgrades would have enhanced safety and 
improved active duty strike fighter pre-deployment training, especially 
critical to the Great Power Competition in which we can expect our 
strike fighter pilots to encounter peer adversaries. Routine training 
against U.S. top generation strike fight is expensive and impacts the 
active duty strike fighter inventory. Outfitting Navy Reserve legacy 
adversary aircraft with a few key capabilities facilitates significant 
training improvement at a fraction of the cost per flight hour compared 
to an F/A-18E/F Super Hornet or an F-35 Joint Strike Fighter.
    18 percent, or $13.6 million, of $75 million fiscal year 2020 NGREA 
funds allocated to the US Navy Reserve was going to procure 
construction and maintenance equipment. With $8.3M also provided in the 
base budget, the total investment was to be $21.9 million. NGREA funds 
represented 62 percent of the total amount provided. This funding was 
committed to procure equipment used for a variety of construction and 
maintenance operations, to include airfield repair. This equipment is 
used by the Naval Expeditionary Combat Command, Naval Beach Group, 
Maritime Prepositioning Force and other Special Operating Units in 
support of expeditionary force bases and camp sites.
    10 percent, or $7.8 million, of Navy Reserve's NGREA was to be 
allocated to C4ISR equipment. With $1.6 million included in the base 
budget, the total investment amounted to $9.4 million. NGREA funds 
would have represented 82 percent of funding provided. The funding 
would have provided three separate line items of interoperable, cyber 
secure C4ISR communications gear in support of Navy expeditionary 
forces.
    7 percent, or $5.3 million, was to be used for HSC-85's SOF-support 
unique equipment requirements. The MH-60S requires a permanent external 
gun mount and extended range fuel capabilities that were resident in 
the recently retired HH-60H.
    2 percent, or $1.4 million, of Navy Reserve's fiscal year 2020 
NGREA funds were for procurement of physical security equipment. With 
$5 million included in the base budget, the total investment amounted 
to $6.4 million. NGREA funds represented 22 percent of funding 
provided. Equipment would have allowed for the purchase of small and 
medium arms weapon simulators for expeditionary forces.
    The remaining 5 percent, or $3.4 million, was to be used for a 
variety of low dollar amount items to include: aircraft safety 
upgrades, an aircraft passenger seat kit, a temporary, open-air C-40 
aircraft hangar, undersea remotely operated vehicles and diving 
equipment. There was no base budget funding for any of these. These 
items would:
  --Provide minor system updates to enhance C-40 aircrew in flight
  --Reduce excess passenger logistics flights flown in 7th Fleet AOR
  --Provide aircraft protection for a C-40 otherwise exposed to hail or 
        extreme heat in Fort Worth, Texas
  --Provide relevant training for undersea remotely operated vehicle 
        operators who are consulted as the technical experts by 
        forward-deployed, operational forces
  --Outfit the reserve portion of Navy Experimental Dive Unit with 
        training gear that can be used on drill weekends
    Question. As global threats shift, arctic weather conditions mimic 
the kind of environment our forces could face in the future.
    How are you ensuring troops receive Arctic and cold weather 
training?
    How does the Reserve and Guard provide Arctic and cold weather 
training?
    Are there plans to increase Arctic and cold weather training for 
Reserve/Guard?
    Answer. The Navy Reserve does not conduct any Arctic or cold 
weather training; theater specific training is required for any Sailor 
(active or reserve) prior to deployment. Type Commanders are 
responsible for certifying that the theater specific training is 
complete prior to entry into the applicable geographic area.
                                 ______
                                 
               Questions Submitted by Senator Jerry Moran
                              p-8 poseidon
    Question. Admiral McCollum, in your testimony you mentioned that 
the P-8A is your primary equipment requirement for the third year in a 
row. You have previously testified that the Navy's warfighting 
requirement for the P-8 is 138, but recent reprogrammings have left the 
Navy with only 119 P-8s. First, what do P-8s bring to the fight that 
other ISR or Anti-Submarine Warfare aircraft are unable to provide?
    Answer. The P-8A is the Navy's only high-altitude, long range, 
broad area Anti-Submarine Warfare platform. While the Navy operates ASW 
helicopters, their range does not compete with the P-8A. The P-8A also 
offers generational leaps in network-enabled kill chain capability and 
situational awareness over a much larger area than the retiring P-3Cs. 
Additionally, the P-8A has replaced the P-3C, with the final active 
component squadron completing their transition this fiscal year.
    Question. How will your P-8 squadrons and their ability to conduct 
ISR and ASW operations be impacted if they are not recapitalized this 
year?
    Answer. The Navy's warfighting requirement for the P-8A is 138 
aircraft. As mentioned, the aircraft appropriated to the Navy in the 
2020 budget increased the P-8A program of record to 119 aircraft. The 
Navy receiving two additional P-8A aircraft allows our reserve 
personnel to begin the process of transitioning away from the P-3C 
toward the P-8A, though two aircraft are insufficient to recapitalize a 
squadron. VP-62 personnel would be the first to transition due to the 
training infrastructure that exists at NAS Jacksonville, FL. A full 
Reserve squadron transition of both VP-62 and VP-69 would require 10 
additional P-8A aircraft. Without the required number of aircraft in 
each Reserve squadron (six per squadron) there will be increased risk 
with regard to the Navy's ASW defense and deterrence capacity.
    In a 10 December 2019 notification letter that outlines P-8 
production line shutdown decision timing, Mr. Tim Peters stated that 
Boeing will make a P-8A production rate down decision from 1.5 aircraft 
per month to 1 aircraft per month in April 2020. With a production rate 
down to 1 aircraft per month, Boeing will make a line shutdown decision 
as early as August of 2020, which would effectively end the P-8A 
production line in November 2022. Without the procurement of additional 
P-8A aircraft, Boeing intends to shut down their P-8A production, which 
will prevent the Navy Reserve VP squadrons from transitioning to the P-
8A. Boeing also stated that a restart of P-8A production following 
shutdown will be cost prohibitive.
                                 ______
                                 
       Questions Submitted to Lieutenant General David G. Bellon
             Questions Submitted by Senator Lisa Murkowski
    Question. What are you doing to improve the quality of life to 
prevent suicides?
    Answer. The Marine Corps approaches suicide prevention by using 
every resource available to promote and apply the leadership functions: 
strengthen, mitigate, identify, treat, and reintegrate, which allow 
Commanders to increase individual and unit readiness:
  --Strengthening Marines enhances resilience against the stresses of 
        life and aids in the prevention of suicide.
  --Mitigation is the use of techniques and interventions to minimize 
        the impact of stressors that cannot be removed by teaching 
        Marines proper stress response.
  --Identification utilizes the relationship a leader has with their 
        Marines to continuously monitor how each Marine is dealing with 
        immovable and personal stressors.
  --Treatment for our Marines is facilitated by leadership 
        interventions and command climate that facilitates discussions 
        leading to care and recovery.
  --Reintegration of Marines is a Commander's priority stemming from 
        the leadership requirement to care for Marines. This is 
        accomplishes when a Commander creates a climate that addresses 
        stigma ensuring each Marine receives a proper assessment for 
        worldwide deployment.
    The Marine Corps' Death by Suicide Review Board (DSRB) analyzes all 
deaths by suicide to provide strategic and operational recommendations 
that address multiple Marine Corps suicide prevention goals. 
Recommendations from DSRB help commanders at all levels to understand 
the risks of suicide and improve prevention initiatives. DSRB provides 
important, actionable recommendations for the Marine Corps, such as 
creating a culture in which seeking help and self-improvement are not 
negative or signs of weakness. This includes looking out for high 
performers who may have experienced a mistake or ``fall from glory'', 
and focusing on Marines in remote locations (e.g., recruiters, who may 
be at higher risk due to job stressors and lack of local support 
services). Recommendations from DSRB inform Commanders at all levels to 
understand suicide risk and improve prevention initiatives. Death 
reviews are an established practice to glean lessons learned and apply 
targeted prevention initiatives.
    The Marine Corps' current and future suicide prevention initiatives 
include:
  --In the spring of 2020, the Command Individual Risk and Resiliency 
        Assessment System (CIRRAS) Phase I will be released. CIRRAS 
        will augment a Commander's efforts to identify force 
        preservation risk factors for individual Marines by providing a 
        single, standardized software-based tool to enable proactive 
        identification and assessment of risk and resiliency factors. 
        CIRRAS is an integrated look at force preservation, to include 
        suicide prevention and the prevention of other problematic 
        behaviors.
  --In the spring of 2020, the revised Inspector General Marine Corps 
        checklist will ensure Commanders have the necessary protocols 
        in place, at the unit level, to prevent deaths by suicide.
  --In the spring of 2020, the updated Marine Corps Order 1720.2 will 
        provide the field with a suicide prevention policy that is 
        realistic, actionable, and effective.
  --In the fall of 2020, the Marine Corps will release Marine Awareness 
        and Prevention Integrated Training for Families as a 
        prevention-focused training designed to provide families with 
        information on suicide prevention.
  --Unit Marine Awareness and Prevention Integrated Training teaches 
        every Marine the basics of suicide prevention.
  --Combat And Operational Stress Control Capability initiatives 
        promote prevention, intervention, protection and crisis 
        response for stress reactions at the unit level.
  --Dedicated Suicide Prevention Personnel, such as Suicide Prevention 
        Program Officers at the 05 and 06 levels respectively, in the 
        Fleet Marine Forces, in the Recruiting Stations and Recruiting 
        Districts provide information and resources to command teams to 
        ensure compliance with the Marine Corps Suicide Prevention 
        Program.
  --Chaplains provide confidential counseling and support to Marines, 
        suicide prevention and recognition trainings, referrals to 
        resources, and postvention services.
  --Behavioral Health staff provide non-medical counseling services to 
        Marines to augment a Commander's efforts to teach and 
        strengthen coping skills, mitigate stressors, and identify 
        Marines in crisis, and/or at risk for suicide. Marine Intercept 
        Program ensures all Marines who verbalize suicidal ideations or 
        who attempt suicide are offered access to telephonic and face-
        to-face caring contact services.
  --Coordination with Navy and Marine Corps behavioral health services 
        regularly increases access to care and seamless management of 
        care.
    Accessing the comprehensive set of Marine Corps Community Services 
(MCCS) programs can have a profound effect on the well-being of our 
Marines and families. These programs support and enhance operational 
readiness, war fighting capabilities, and quality of life. Our 
programming includes employment, education and transition assistance; 
fitness and recreation, deployment support and family team building and 
prevention. MCCS is valued by leadership as being a user-friendly and a 
responsive single portal that provides constant and unwavering support 
to Marines and their families throughout their entire service or 
affiliation with the United States Marine Corps.
    Our Marines and families, in all locations across the country, have 
access to the following Quality of Life programs:
  --Chaplain Religious Enrichment Development Operation (CREDO) 
        provides regionally based religious ministry designed to assist 
        the Marine Corps community in developing the personal, 
        relational, and spiritual resources necessary to increase the 
        personal resilience of Marines and their families, and enhance 
        mission readiness. CREDO helps improve job performance and 
        enhancing overall quality of life for our Marines and their 
        families. Offers married couples and individuals 
        transformational, retreat-based and seminar-based programs 
        promoting professional, personal, relational and spiritual 
        growth.
  --The DSTRESS Line provides a 24 hour anonymous phone, chat and Skype 
        counseling and referral service using a 'Marine-to-Marine' 
        approach. The call center is staffed with veteran Marines, 
        Fleet Marine Force Navy Corpsmen who were previously attached 
        to the Marine Corps, Marine spouses and other family members, 
        and licensed behavioral health counselors specifically trained 
        in Marine Corps culture. The DSTRESS Line's goal is to help 
        callers manage stress in all forms, ranging from relationship 
        and career issues to deployment and financial problems, and 
        develop the necessary skills required to cope with the widely-
        varying challenges of life in the Corps.
  --LifeSkills Training and Education promotes positive adjustment and 
        improved individual and family functioning. It is a 
        comprehensive collection of personal and professional skill 
        building classes that promote positive adjustments and improved 
        individual and family functioning. It provides Marines and 
        family members practical skills for successful interactions and 
        positive outcomes at work, home, and in life. Participants 
        finish LifeSkills better equipped to tackle challenges with 
        increased self-awareness and confidence. Through increased 
        insight, participants are more likely to lend a hand to others 
        in need, creating a mentorship atmosphere and stronger 
        relationships. When participants gain life skills, it creates a 
        positive and productive environment that promotes community. 
        LifeSkills includes four training series; communication, 
        impact, relationship and wellness and is available both as 
        instructor led and computer based training.
  --Lifestyle Insights, Networking, Knowledge, and Skills (L.I.N.K.S.) 
        is an interactive acculturation program to Marine Corps life. 
        Participants learn about Corps history and rank, local 
        installation resources, services, and benefits, military pay, 
        separation and deployment, crossroad options, communication 
        styles, investing in the community and Marine Corps traditions. 
        Partnerships are made with several services and personnel to 
        include career planners, chaplains, and L.I.N.K.S. mentors. 
        Promotes positive adjustment and improved individual and family 
        functioning. L.I.N.K.S. training is available for specific 
        groups including: Marines, spouses, kids, teens, parents and 
        extended family, and unit sessions.
  --Marine Corps Family Team Building (MCFTB) reinforces and sustains a 
        state of personal and family readiness to provide Marines and 
        families with tools and resources needed to successfully meet 
        the challenges of the military lifestyle and enhance mission 
        readiness by providing preventative education that is offered 
        across the life cycle of a Marine. It provides skill building 
        tools and readiness for individual and family development. It 
        is designed to meet the needs of Marines, Sailors and their 
        family members based on stresses of daily living and the mobile 
        military lifestyle. The training programs focus on topics and 
        concerns related to overall family functioning, relocation, 
        deployment, military separation, life skills, and establishing 
        appropriate connections within the military and civilian 
        community.
  --The Marine For Life Network (M4L) connects transitioning Marines 
        and their family members to education resources, employment 
        opportunities, and other Veterans services that aid in their 
        career and life goals outside of military service. M4L seeks to 
        provide a resource of connectivity with linkages to the Marine 
        Corps and to the employment, education, career/technical, and 
        entrepreneurial opportunities that await Marines and their 
        families.
  --Military and Family Life Counselors (MFLCs) are experienced 
        behavioral health professionals who work with Marines and their 
        families to address deployment, return and reunion issues as 
        well as other stressors that impact a Marine's daily life. 
        MFLCs, embedded within the units, can inform the command of 
        trends in the behavioral health of the unit. MFLCs do not 
        provide medical care; if a Marine requires medical support from 
        a psychologist or psychiatrist, the MFLC will assist in 
        connecting the Marine to the appropriate resource.
    --Any Marine or Marine family member may consult with an MFLC, to 
            include parents, significant others, or close relatives of 
            the Marine.
    --Provides support to the command by addressing the needs of the 
            individual Marines and keeping the command informed of 
            overall trends in the behavioral health of a unit.
    --Aims to help Marines and their families address stressors and 
            offer referrals to create an environment that encourages 
            the proper management of stress.
    --Assists people to explore alternate solutions to current daily 
            life stressors.
    --Provides confidential care in a unit or installation setting.
    --Ensures all Marines, attached Sailors, and their families have 
            access to confidential solution-focused counseling.
    --Focuses on efforts to enhance protective factors of individual 
            Marines and their families.
    --Assigned to installations, embedded in units, schools, and Child 
            Development and Youth Centers, MFLCs augment and work in 
            collaboration with other Marine Corps Behavioral Health 
            programs. MFLCs act as touchpoints for Marines and families 
            who may need assistance.
  --MFLCs also assist the commander's behavioral health efforts by 
        assessing each situation and making the proper decision to 
        refer a Marine, Sailor, or family member to Marine Corps 
        resources.
  --Military OneSource is a U.S. Department of Defense program that 
        provides resources and support to active-duty, National Guard 
        and Reserve service members and their families anywhere in the 
        world. The program is available 24 hours a day, 7 days a week 
        at no cost to users. Military OneSource services supplement 
        existing service-branch and installation resources and include:
    --A 24-hour call center staffed with master's-level consultants 
            familiar with the military lifestyle. They answer questions 
            and provide resources and referrals on everyday issues such 
            as finding child care, dealing with stress, helping 
            children deal with a parent's deployment, reunion and 
            reintegration after combat duty, making a PCS move, 
            creating a budget, caring for older relatives, making 
            large- scale consumer purchases, and finding services in 
            the local and military communities.
    --Specialized consultations by phone in the areas of special-needs 
            family members, personal finances, and education.
    --Face-to-face counseling sessions in the user's community designed 
            to address short-term, non-medical needs. Examples include 
            concerns related to parenting, relationships, stress, 
            deployment, and reunion and reintegration after deployment. 
            Counseling sessions are also available online or by phone.
    --The Military OneSource website provides information to service 
            members and their families in multiple formats, including 
            audios, articles, checklists, organizers, booklets, DVDs, 
            podcasts, and webinars.
    --Access to the Military Spouse Career Advancement Accounts (MyCAA) 
            program, which provides financial assistance to military 
            spouses pursuing degrees, licenses, or certification 
            leading to employment in portable career fields.
    --Personalized health coaching by phone.
    --Language-interpretation services are available.
  --The Personal Financial Management Program assists Marines and their 
        families in achieving and sustaining personal financial 
        readiness by providing personal financial education, training, 
        counseling, and financial information and referral. A solid 
        understanding of personal finances will build confidence in 
        facing financial challenges, responsibilities and mission 
        readiness. For those who need it, individual financial 
        counseling by Accredited Financial Counselors is available. The 
        Personal Financial Management Specialists and the unit Command 
        Financial Specialists provide no cost services to Marines and 
        are the primary source of financial education and counseling. 
        One-on-one coaching is available for financial topics from 
        budgeting/diversifying your income, credit and debt management, 
        military/consumer protections, car buying, home options, 
        savings and investing, financial planning for future events, 
        clearance issues.
  --Psychological Health Outreach Program (PHOP) is dedicated to 
        providing Reservists full access to appropriate psychological 
        healthcare services, increasing resiliency, and facilitating 
        recovery, which is essential to maintaining a ready military 
        force. Services are offered by a team of Licensed Clinical 
        Professionals including many former military members and 
        military dependents. All services are free and confidential.
  --Readiness & Deployment Support is a collection of trainings/briefs 
        specifically for Marines, families and extended family members, 
        these programs increase awareness of relevant readiness issues, 
        while offering individual creative solutions to build a 
        healthier family and ensure all are aware of the vast resources 
        available to them as Marine Corps families. Additionally, 
        briefs provide an opportunity for Marines and their families to 
        meet the Command team members, and the Family Readiness 
        Officer, who all provide support to Marines and Families 
        throughout any type of deployment. Readiness and deployment 
        support training will prepare military families for the unique 
        challenges of a deployment while maintaining a constant state 
        of readiness independent of deployment.
  --The Single Marine Program (SMP) serves as the voice for single 
        Marines in identifying concerns, developing initiatives, and 
        providing recommendations through advocacy, recreational 
        activities, special events and community involvement. The SMP 
        is comprised of single Marines who represent and want to make a 
        difference in their unit. Led by young leaders, the SMP 
        functions to support single Marines' leisure interests and 
        Quality of Life (QOL) concerns. A single Marine's QOL concerns 
        include, but are not limited to, activities and issues that 
        directly or indirectly influence personal readiness, morale, 
        living environment, and personal growth and development.
  --The Substance Abuse Program equips Marines with education on 
        substance misuse, relationships, stress management, emotional 
        regulation, thinking patterns, and risk awareness, and tools to 
        promote the safety of Marines, their families, and enhance unit 
        performance across the Corps.
  --The Unit, Personal, and Family Readiness Program (UPFRP) is a unit 
        centric program, guided by the Family Readiness Command Team 
        that reinforces the relationship between the unit and the 
        services relevant to the unit, the unit members, and their 
        families. The primary goal of UPFRP is to empower Marines and 
        family members, providing them the opportunities to not just 
        survive but to thrive while taking on the challenges of the 
        military lifestyle. The program is supported by Deployment 
        Readiness Coordinators (DRC) or Uniformed Readiness 
        Coordinators (URC) who implement the Commander's family 
        readiness vision, manage the tenets of the UPFRP, and assist 
        unit Marines, Sailors and families maintain a constant state of 
        family readiness. Regular communication with the Marines and 
        families is the cornerstone of UPFRP. The DRC/URC provides the 
        link for two-way communication between the Commander and the 
        families, using a variety of mediums. Readiness and Resource 
        Referral provides assistance to address issues with the 
        potential to impact the Marines, families, and the unit. The 
        DRC/URC is a readiness resource and referral expert, 
        continuously researching and identifying trainings, resources 
        and services to meet every need.
    Question. What programs have you requested appropriations for to 
help with these issues?
    Answer. The Marine Corps appreciates the Congressional support 
received to date and utilizes appropriated funds to support our suicide 
prevention efforts for the programs and initiatives identified in 
Question 1.
    Question. Are you aware of the medical readiness issues for Reserve 
and Guard in regards to continuity of care when they go on and off 
orders?
    Answer. Reserve Marines that transition to active duty (AD) orders 
for more than 30 consecutive days are eligible for the same health and 
dental benefits as active duty service members via TRICARE. Treatment 
and services received by the activated Reservist are documented in 
their Electronic Health Record ensuring that their medical history is 
preserved when transitioning back to inactive duty.
    Activated Reserve Marines that incur an illness or injury that does 
not resolve by the end of their AD orders may be placed on Medical Hold 
(MEDHOLD) status by the USMC Wounded Warrior Regiment Reserve Medical 
Entitlements Determination (RMED) section with further treatment and 
care coordinated by RMED.
    Reserve Marines that are activated for a pre-planned mission or in 
support of a contingency operation and their immediate family members 
are eligible for 180 days of full medical coverage via the Transitional 
Assistance Management Program (TAMP). After TAMP expires, they can 
continue coverage by enrolling in TRICARE Reserve Select.
    Reserve Marines that are activated for unplanned mission of 
operations may elect to purchase full medical coverage after completion 
of their AD orders by enrolling in TRICARE Reserve Select.
    For both Active and Reserves, supporting our Wounded, Ill, or 
Injured Marines and their Families the Marine Corps ensures the 
availability of full spectrum care to all wounded, ill, or injured 
(WII) service members, whether they are Active or Reserve, through the 
Wounded Warrior Regiment (WWR). Marine Forces Reserve ensures Reserve 
Marines' unique challenges are addressed through a WWR liaison who 
provides subject matter expertise and special coordination with the WWR 
staff.
  --The WWR staff includes the Reserve Medical Entitlements 
        Determinations Section, which maintains specific oversight of 
        all Reservists requiring medical care for service- incurred and 
        duty-limiting medical conditions. Reservists facing complex 
        care and recovery needs have access to WWR's network of 45 
        Recovery Care Coordinators who provide one-on-one transition 
        support and resource identification for WII Reservists and 
        families, often living long distances from military 
        installations. WWR also has medical advocates at the regimental 
        staff who are available to assist Reservists in need of medical 
        care coordination and advocacy. District injured support 
        coordinators and field support representatives dispersed 
        throughout the country also coordinate with Reserve units to 
        ensure we keep faith with all Marines.
  --Marine Forces Reserve (MARFORRES) continues to work with the WWR to 
        establish resources and programs that address the unique and 
        ongoing needs of our Reserve population. Approximately 400 
        total Reservists are supported by the Reserve Medical 
        Entitlements Determinations (RMED) Section on a monthly basis.
    Question. What measures are in place to ensure continuity of care?
    Answer. WWR/RMED/Liaison Officer (LNO) provides subject matter 
expertise in matters related to the care and support of WII Marines and 
their families for an organization consisting of 36,000 personnel 
assigned to more than 180 MFR sites dispersed across 47 States through 
tracking and maintaining accountability in order to ensure proper and 
continuous care is provided.
  --WWR creates and publishes by-weekly compliancy reports to assist 
        MARFORRES leadership regarding the status, time in status and 
        number of Marines on Medical Hold or approved for (Line of 
        Duty) LOD benefits within the Marine Corps Medical Entitlement 
        Determinations System (MCMEDS) resulting in a 45 percent 
        increase in compliance (since Oct 2019) for managing patients 
        and correcting errors.
  --Evaluated, developed and implemented an MARFORRES Functional 
        Administrative Support Tool (FAST) checklist to reflect LOD and 
        Medical Hold standardized administrative processes for day-to-
        day administrative duties.
  --Developed and incorporated LOD and Medical Hold questions and 
        answers into a formalized distance education program, (e.g. 
        Reserve Independent Duty Administration Course) in order to 
        enhance the overall personnel readiness of MARFORRES.
  --WWR/RMED works with MARFORRES leadership to facilitate training for 
        commands on the administration and responsibility to ensure 
        expeditious medical treatment and proper case management of WII 
        Marines.
  --WWR/RMED facilitates training events for approximately 20 middle 
        management and subordinate staff on a quarterly basis regarding 
        their role in the MCMEDS.
  --WWR/LNO coordinated with outside agencies regarding the need to 
        expand training and education workshops to include Line of Duty 
        Coordinators in future training events.
  --Developed a newly proposed ``medical readiness'' slide on monthly 
        MARFORRES G-1 Status Report which incorporates the Temporary 
        Not Physically Qualified and LOD/MedHold discrepancies for case 
        management visibility to MARFORRES Commands.
    Question. What specific programs or equipment will be impaired or 
jeopardized by the redesignation of NGREA funds, especially for units 
that rely on this funding to maintain and modernize their vital 
equipment? Please provide the specific line item for the program and 
the funding amount redesignated from the program in comparison to its 
required funding amount.
    Answer. Specific line items and requested funding amount impacted 
is below. The full requested program funding quantity is equal to the 
reprogrammed funding amount.

----------------------------------------------------------------------------------------------------------------
 
----------------------------------------------------------------------------------------------------------------
       1        Meteorological Mobile Facility (Replacement) Next Gen (V)2 IBV               1        $1,900,001
       2             Naval Integrated Tactical Environmental System (NITES-IV)          Varies        $1,473,695
                                                               INMARSAT Module
       3                                              F-5 N/F Cockpit upgrades               3       $13,500,060
       4                           White Phosphor Night Vision Goggle Upgrades            1220        $4,149,220
       5                                     Marine Air Ground Tablet MAGTAB (Large and Sma512variants$1,793,024
       6                                                 Tactical Decision Kit               8        $2,184,000
              --------------------------------------------------------------------------------------------------
      .......                                   Total Requested NGREA Funding:                       $25,000,000
----------------------------------------------------------------------------------------------------------------

    Budget impact summary, line items 1 and 2 could be procured by 
reprogramming O&MMCR 1A1A funding to MARCORSYSCOM as procurement 
funding for the purchase. However, in doing this, the purchase would 
create negative impact on the Reserve Components already limited 
Operation and Maintenance budget. Line item 3 is cost prohibitive 
without HQMC Enterprise APN funding or NGREA. The investment by the 
USNR in the same program for their portion of the F-5 fleet, 
necessitates investment by the USMCR IOT ensure an interoperable fleet 
of adversary aircraft. The USMCR has a total requirement of 7 F-5 N/F 
cockpit upgrades at a cost of $4.5 million per aircraft for a total 
program cost of $31.5 million. This purchase would start the process of 
closing the identified safety and training gap that currently exists 
within the USMCR F-5 fleet.
    Question. As global threats shift, arctic weather conditions mimic 
the kind of environment our forces could face in the future.
    How are you ensuring troops receive Arctic and cold weather 
training?
    Answer. The Marine Corps Mountain Warfare Training Center, located 
in the Sierra Nevada Mountains of Northern California, supports unit-
level and individual training in cold weather conditions.
    The Marine Corps conducts three Mountain Training Exercises per 
year. Mountain Training Exercises train several thousand Marines each 
year and are focused on mobility, company attacks, and force-on-force 
training in cold weather and high elevation conditions.
    The Marine Corps also conducts multiple formal courses for 
individual leaders. These courses teach Marines cold weather skills, 
including weapons employment in the cold and mobility across extreme 
terrain in the snow. Individual courses include 8 cold weather programs 
of instruction, for a total of 13 courses per year:
  --Winter Mountain Leaders' Course (x2) (90 Students/year)
  --Cold Weather Medicine Course (x2) (80 Students/year)
  --Mountain Communication Course (x2) (100 Students/year)
  --Basic Cold Weather Leaders' Course (x2) (200 Students/year)
  --Scout Skiers Course (x2) (50 Students/year)
  --Mountain Scout Sniper Course (20 Students/year)
  --Winter Mountain Engineer Course (35 Students/year)
  --Cold Weather Food Service Course (25 Students/year)
    The goal of this training is to prepare units to fight and win in 
unforgiving mountainous and cold environments.
    Question. How does the Reserve and Guard provide Arctic and cold 
weather training?
    Answer. Marine Forces Reserve address arctic and cold weather 
training through multiple methods. On the unit level, Marine Forces 
Reserve sends one infantry battalion and its logistics enablers to 
Mountain Warfare Training Center each year. From an individual augment 
perspective, Marine Forces Reserve sends Marines to the Winter Mountain 
Leaders' Course each year. Additionally, reservists that activate as 
part of active duty units attend cold weather training with their 
respective units.
    Marine Reservists also receive cold weather and arctic training 
through participation in various joint and combined exercises. 
Specifically, Marine Reservists participate in exercises Cold Response 
and Trident Juncture in Norway, Arctic Edge in Alaska, and Nordic Frost 
in Vermont.
    Lastly, many Reserve Component units are uniquely positioned to 
conduct their own cold weather training based on their geographic 
location. Units based in areas that are generally considered cold 
weather regions are able to accomplish cold weather training through 
standard drill periods, thus augmenting the Mountain Warfare Training 
Center and cold weather exercises. These training opportunities include 
working with other local military units or organizations to build cold 
weather proficiencies.
    Question. Are there plans to increase Arctic and cold weather 
training for Reserve/Guard?
    Answer. Marine Force Reserve units have to be prepared to respond 
to contingency and crisis anywhere in the world. That drives us to 
balance training and force development for our Reserve Marines across a 
broad range of environmental challenges. Although there is always more 
to be done, Marine Force Reserve units currently participate in a broad 
range of training events that include cold weather and Arctic training 
including participation in Innovative Readiness Training in Alaska and 
in Trident Juncture, Northern Wind, Thunder Rein, Artic Challenge, Bold 
Quest and Arrow in Norway, Sweden and Finland. We have cold weather 
clothing and equipment set from which we can outfit Reserve Marines for 
cold weather training and contingency operations.
                                 ______
                                 
                Questions Submitted by Senator Tom Udall
    Question. The Department of Defense established new policies for 
maternity leave as part of the ``Force of the Future'' initiative in 
2016. This new policy authorized 12 weeks fully paid maternity leave 
after normal pregnancy and childbirth for active duty service members. 
However, there was no such change for reserve personnel. In the 
reserves, if the female service member does not perform duty within the 
allotted timeframe, the service member is in jeopardy of not receiving 
credit for their military service and points towards retirement. Under 
the current law, reserve component members in reserve training status 
are required to attend unit training assemblies (weekend drill) in 
order to receive points towards creditable military service.
    If the female service member does not perform duty within the 
allotted timeframe, the service member is in jeopardy of not receiving 
credit for their military service and points towards retirement. Would 
you support a legislative fix for this problem, such as the MOMs Act I 
introduced this Congress?
    Answer. Supporting our Marines during critical life events will 
always be the priority for the Marine Corps, and pregnancy is no 
exception. There are numerous exemptions to mandatory reserve 
participation requirements as well as avenues to achieve satisfactory 
years for retirement while Marines are in a limited duty status due to 
pregnancy. While these measures have been put in place to support 
Reserve Marines throughout pregnancy there is always room to improve. 
We stand ready to work with DoD and the other services on this issue 
and will implement any policy change DoD directs.
    Question. Do you agree with the Congressional Budget Office that 
the price would be negligible to make this legislative fix?
    Answer. The Marine Corps not seen or received the Congressional 
Budget Office cost analysis of the MOMs Act I, which would be necessary 
prior to commenting on this or any legislative fix.
    Question. National Guard and Reserve troops are an essential part 
of America's national defense strategy. Over the past two decades, they 
have been used in an operational capacity, cons tantly serving on 
domestic and international missions to help protect our country. 
Despite conduc ting the same duties as their active duty counterparts, 
they are not receiving the same credit for th eir active time. To 
support our service members in reserve components, changes must be made 
to reflect the total force mentality.
    Answer. The National Guard's suicide rate has climbed higher than 
the active duty and Reserve's, according to an annual Pentagon study 
released September 2019. In response, officials are looking for new 
ways to help troops feel comfortable coming forward about their issues 
and getting help they need.
    The most recent figure is about 30.6 deaths per 100,000 service 
members, according to the Defense Department Annual Suicide Report for 
calendar year 2018, well above the Reserve's 22.9 per 100,000 and the 
active component's 24.8.
    Question. What is the guard and reserve doing to address the high 
suicide rates?
    Answer. In keeping with the motto, ``Mission first, Marines 
always'', we must constantly strive to not only prepare our Marines to 
defeat our enemies on the battlefield, but also to handle the everyday 
stressors of personal life. It is clear that the personal challenges 
Marines experience, especially those involving failing relationships, 
financial difficulties, pending disciplinary issues and transitions, 
can be just as daunting as the operational dangers they face.
    We have implemented the following steps to mitigate the potential 
for future suicides or suicide related incidents utilizing available 
resources and leadership principles:
  --All Marine Forces Reserve units have an up-to-date Suicide 
        Prevention Implementation Plan which includes national and 
        local resources.
  --Unit Marine Awareness and Prevention Integrated Training (UMAPIT) 
        is completed by all Marines and Sailors annually. UMAPIT 
        consists of tailored curricula designed to proactively manage 
        challenging situations and improve one's ability to address 
        behavioral health issues, such as substance abuse, suicide, 
        family maltreatment, and combat and operational stress, before 
        they become unmanageable. UMAPIT teaches every Marine the 
        basics of suicide prevention, normalizes life changes, and 
        emphasizes seeking help early in hopes of decreasing stigma.
  --All newly joined Sergeants and below receive immediate telephonic 
        contact information that is programmed into their cell phones 
        in the presence of their senior leadership. This information 
        includes Unit Senior Enlisted Point of Contact; Military 
        OneSource and DStress Hotline. Additionally, Unit Readiness 
        Coordinators (URC) provide this information to our Marine 
        family members and encourage them to make contact as soon as 
        their Marine shows signs of distress due to a sudden change in 
        a relationship, work/school, or living conditions.
  --An aggressive sponsorship program has been instituted for all new 
        joins. A peer partner of equal grade is assigned to ensure the 
        new Marine is aware of drill dates, is available to answer any 
        questions, and check up on the Marine between drills. The peer 
        also ensures their immediate chain of command is made aware of 
        any significant stressors the Marine experiences, such as 
        relationship issues, loss of employment, homelessness, etc. In 
        such cases, the Marines will be provided information and 
        referral resources that can enable them to successfully cope 
        with the situation.
  --Resiliency Team Site Visits: Our Psychologist-led Resiliency Team 
        conducts targeted site visits to specified units based on 
        available data and trends (e.g., suicidal ideations, alcohol/
        substance related incidents, unauthorized absences). Services 
        offered during site visits include, but are not limited to 
        Assessment and evaluation of ``high-risk'' Marines and Sailors; 
        Collaboration with Medical Department representatives in 
        processing TNPQ/NPQ dispositions; resiliency training; and 
        presentation of unit specific trends and recommendations
  --Unit leadership, if made aware of any legal, personal, 
        relationship, financial or job change stress, will immediately 
        order the Marine to a Psychological Health Outreach Program 
        representative for consultation.
  --Small unit leadership continues to be our first line of defense. 
        Utilizing ``kneecap-to- kneecap'' conversations with all 
        Marines remains an important aspect of this effort.
    Question. What are the current programs and how are they 
implemented in a part time force?
    Answer. The Marine Corps strives to ensure programs are available 
to all Marines and annual training is requirement of every Marine. Our 
Prevention programs are implemented throughout the Force utilizing a 
variety of methods:
  --Trainings--Briefings and interactive workshops are provided in 
        person or via webinar
  --Outreach--site visits and monthly outreach via phone and e-mail
  --Consultations--telephonic or in-person follow-up
  --Targeted intervention--expanding the follow on care for our Marines
  --Confidential care--provided worldwide ensuring access to behavioral 
        health services and assisting Marines and families in 
        navigating the many support resources available.
    Unit Marine Awareness and Prevention Integrated Training teaches 
every Marine the basics of suicide prevention. Unit Marine Awareness 
and Prevention Integrated Training (UMAPIT) is completed by all Marines 
and Sailors annually. UMAPIT consists of tailored curricula designed to 
proactively manage challenging situations and improve one's ability to 
address behavioral health issues, such as substance abuse, suicide, 
family maltreatment and combat and operational stress, before they 
become unmanageable. UMAPIT teaches every Marine the basics of suicide 
prevention, normalizes life changes, and emphasizes seeking help early 
in hopes of decreasing stigma.
    Combat And Operational Stress Control Capability initiatives 
promote prevention, intervention, protection and crisis response for 
stress reactions at the unit level. The Combat Operational Stress 
Control (COSC) Program trains Operational Stress Control and Readiness 
(OSCAR) Marines to listen to those in their unit. OSCAR training builds 
teams of selected Marines and unit leaders as well as medical and 
religious personnel who work together to act as sensors for the 
commanders by noticing small changes in behavior and taking action 
early. OSCAR teams support the commanders in building unit strength, 
resilience, and readiness. This Marine-led training teaches team 
members to help Marines face everyday stressors before they become 
overwhelming. OSCAR team members use their leadership skills and 
knowledge of the full spectrum of stress reactions to break stigma and 
intervene when Marines show signs of stress, to include suicidal 
ideation.
    Dedicated Suicide Prevention Personnel, such as Suicide Prevention 
Program Officers at the 05 and 06 levels respectively, in the Fleet 
Marine Forces, in the Recruiting Stations and Recruiting Districts 
provide information and resources to command teams to ensure compliance 
with the Marine Corps Suicide Prevention Program.
    Chaplains provide confidential counseling and support to Marines, 
suicide prevention and recognition trainings, referrals to resources, 
and postvention services.
    Behavioral Health staff provide non-medical counseling services to 
Marines to augment a Commander's efforts to teach and strengthen coping 
skills, mitigate stressors, and identify Marines in crisis, and/or at 
risk for suicide. Marine Intercept Program ensures all Marines who 
verbalize suicidal ideations or who attempt suicide are offered access 
to telephonic and face-to-face caring contact services.
    Coordination with Navy and Marine Corps behavioral health services 
regularly increases access to care and seamless management of care.
    Applied Suicide Intervention Skills Training (ASIST) is a two-day 
workshop designed for members of all caregiving groups. Family, 
friends, and other community members may be the first to talk with a 
person at risk, but have little or no training. ASIST can also provide 
those in formal helping roles with professional development to ensure 
that they are prepared to provide suicide first aid help as part of the 
care they provide. The emphasis is on teaching suicide first-aid to 
help a person at risk stay safe and seek further help as needed. 
Participants learn how to prevent suicide by recognizing signs, 
providing a skilled intervention, and developing a safety plan to keep 
someone alive.
    The Yellow Ribbon Reintegration Program (YRRP) is a Department of 
Defense-wide effort to promote the well-being of National Guard and 
Reserve members, their families and communities, by connecting them 
with resources throughout the deployment cycle. Through Yellow Ribbon 
events, Service members and loved ones connect with local resources 
before, during, and after deployments. Reintegration during post-
deployment is a critical time for members of the National Guard and 
Reserve, as they often live far from military installations and other 
members of their units. Commanders and leaders play a critical role in 
assuring that Reserve Service members and their families attend Yellow 
Ribbon events where they can access information on healthcare, 
education and training opportunities, financial, and legal benefits.
    Question. What actions are you taking to reduce the stigma for 
getting help?
    Answer. The Marine Corps approaches suicide prevention by using 
every resource available to promote and apply the leadership functions: 
strengthen, mitigate, identify, treat, and reintegrate, which allow 
Commanders to increase individual and unit readiness:
  --Strengthening Marines enhances resilience against the stresses of 
        life and aids in the prevention of suicide.
  --Mitigation is the use of techniques and interventions to minimize 
        the impact of stressors that cannot be removed by teaching 
        Marines proper stress response.
  --Identification utilizes the relationship a leader has with their 
        Marines to continuously monitor how each Marine is dealing with 
        immovable and personal stressors.
  --Treatment for our Marines is facilitated by leadership 
        interventions and command climate that facilitates discussions 
        leading to care and recovery.
  --Reintegration of Marines is a Commander's priority stemming from 
        the leadership requirement to care for Marines. This is 
        accomplished when a Commander creates a climate that addresses 
        stigma ensuring each Marine receives a proper assessment for 
        worldwide deployment.
    The Marine Corps' Death by Suicide Review Board (DSRB) analyzes all 
deaths by suicide to provide strategic and operational recommendations 
that address multiple Marine Corps suicide prevention goals. 
Recommendations from DSRB help commanders at all levels to understand 
the risks of suicide and improve prevention initiatives.
  --DSRB provides important, actionable recommendations for the Marine 
        Corps, such as creating a culture in which seeking help and 
        self-improvement are not negative or signs of weakness. This 
        includes looking out for high performers who may have 
        experienced a mistake or ``fall from glory'', and focusing on 
        Marines in remote locations (e.g., recruiters, who may be at 
        higher risk due to job stressors and lack of local support 
        services).
  --Recommendations from DSRB inform Commanders at all levels to 
        understand suicide risk and improve prevention initiatives. 
        Death reviews are an established practice to glean lessons 
        learned and apply targeted prevention initiatives.
    We stress that there is no shame in admitting one's struggles with 
life and asking for help. We are providing each Marine and Sailor with 
the tools and resources necessary to help them become resilient. With 
involved leadership, as well as informed Marines and Sailors at every 
level of command, an individual experiencing a life altering event or 
suffering from depression can be encouraged to seek help. All members 
of our command remain vigilant for one another, recognize the warning 
signs and implement integration plans after a Marine or Sailor has 
sought help.
    Behavioral health resources and assets (e.g., Military and Family 
Life Counselor's, Psychological Health Outreach Program) are included 
at drill weekends. These entities increase access and awareness of 
resources which increases the likelihood that a Marine or Sailor will 
ask for help.
    Every Suicide Prevention Program requires the recognition of 
preventative and/or proactive measures an individual has taken. By 
recognizing and commending preventative efforts, we are encouraging 
more open communication about suicide, thus helping to reduce the 
stigma.

                          SUBCOMMITTEE RECESS

    Senator Shelby. We are here to help you, to support you 
with the role that you play in our National Security. The 
Defense subcommittee will reconvene in open session on 
Wednesday, March the 11 at 10 a.m. to receive testimony from 
the Department of the Navy. Until then, we stand in recess. 
Thank you very much.
    [Whereupon, at 10:52 a.m., Wednesday, March 4, the 
subcommittee was recessed, to reconvene at 10 a.m., Wednesday, 
March 11.]
</pre></body></html>
